<html>
<title> - OVERSIGHT HEARINGS ON NATIONAL ENVIRONMENTAL POLICY ACT</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
        OVERSIGHT HEARINGS ON NATIONAL ENVIRONMENTAL POLICY ACT

=======================================================================

                                HEARINGS

                               before the

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

               JULY 30 AND AUGUST 4, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-110

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>



 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources




                      U.S. GOVERNMENT PRINTING OFFICE
 50-964 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

                Subcommittee on Forest and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JAMES V. HANSEN, Utah                MAURICE D. HINCHEY, New York
JOHN T. DOOLITTLE, California        BRUCE F. VENTO, Minnesota
GEORGE P. RADANOVICH, California     DALE E. KILDEE, Michigan
JOHN PETERSON, Pennsylvania          ENI F.H. FALEOMAVAEGA, Am. Samoa
RICK HILL, Montana                   ---------- ----------
BOB SCHAFFER, Colorado               ---------- ----------
                     Doug Crandall, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                  Jeff Petrich, Minority Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held July 30, 1998.......................................     1

Statements of Members:
    Boyd, Hon. Allen, a Representative in Congress from the State 
      of Florida.................................................    12
        Prepared statement of....................................    13
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     1
        Prepared statement of....................................    10
        Briefing paper...........................................    11
        Briefing paper...........................................    75

Statements of witnesses:
    Dombeck, Michael, Chief, Forest Service, U.S. Department of 
      Agriculture, Washington, DC................................    39
        Prepared statement of....................................    73
    Ferrioli, Hon. Ted, State Senator, State of Oregon, John Day, 
      Oregon.....................................................    14
        Prepared statement of....................................    55
    Hill, Lawrence, Director of Forest Policy, Society of 
      American Foresters, Bethesda, Maryland.....................    20
        Prepared statement of....................................    69
    Nelson, Cara, Consulting Ecologist, Natural Resources Defense 
      Council....................................................    19
        Prepared statement of....................................    63
    Peterson, L. Earl, Florida State Forester, Division of 
      Forestry of Tallahassee, Florida...........................    16
        Prepared statement of....................................    56

Additional material supplied:
    Bear-Potato Analysis Area of the Tyee Fire Recovery, Chelan 
      and Entiat Ranger Districts, Wenatchee National Forest, 
      Environmental Assessment...................................    77
    Text of H.R. 4375............................................     3

Hearing held August 4, 1998......................................    83
Statements of Members:
    Boyd, Hon. Allen, a Representative in Congress from the State 
      of Florida.................................................    86
    Brown, Hon. Corrine, a Representative in Congress from the 
      State of Florida...........................................    85
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho, prepared statement of......................    84
        Briefing paper...........................................    84

Statements of witnesses:
    Garner, James W., State Forester, Virginia Department of 
      Forestry, Charlottesville, Virginia........................    94
        Prepared statement of....................................   130
    Hill, Barry, Associate Director, accompanied by Linda Harmon, 
      Assistant Director, Energy, Resources and Science Issues, 
      General Accounting Office..................................    87
        Prepared statement of....................................   188
    Josephson, Wally, Wildland Fire Specialist, Office of 
      Managing Risk and Public Safety, U.S. Department of the 
      Interior...................................................   106
        Prepared statement of....................................   131
    McDougle, Janice, accompanied by Denny Truesdale, Assistant 
      Director of Fire Management for Operations, Forest Service, 
      U.S. Department of Agriculture.............................   108
        Prepared statement of....................................   185

Additional material supplied:
    Briefing paper...............................................    11
    Managing Forests, Managing Fire, Report to Congress..........   206
    National Interagency Fire Center, BLM Office of Fire & 
      Aviation, report...........................................   135



      OVERSIGHT HEARING: NATIONAL ENVIRONMENTAL POLICY ACT PARITY

                              ----------                              


                        THURSDAY, JULY 30, 1998

                  House of Representatives,
         Subcommittee on Forests and Forest Health,
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:11 a.m., in 
room 1334 Longworth House Office Building, Hon. Helen Chenoweth 
(chairman of the Subcommittee) presiding.

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. [presiding] The Subcommittee on Forests and 
Forest Health will come to order.
    The Subcommittee is meeting today to have an oversight 
hearing on H.R. 4345, a bill to authorize the continued use on 
national forests and other public lands of the alternative 
arrangements that were approved by the Council on Environmental 
Quality for a windstorm damaged National Forests and Grasslands 
in Texas.
    Now under rule 4(g) of the Committee rules, any oral 
opening statements of hearings are limited to the chairman and 
the Ranking Minority Member. This will allow us to hear from 
our witnesses sooner and help members keep to their schedules. 
Therefore if other members have statements, they can be 
included in the hearing record under unanimous consent.
    This hearing will focus on H.R. 4345. This bill is a result 
of the decision in March of this year by the Council on 
Environmental Quality, CEQ, to grant alternative arrangements 
under the National Environmental Policy Act. The CEQ reducing 
the fuel load, the CEQ allowed for the expedited treatment of 
East Texas National Forests after they had experienced a very 
severe windstorm and blowdown on February 10. Immediately after 
the windstorm, the National Forests and Grasslands in Texas, 
the office responsible for management of the three national 
forests damaged in the windstorm, consulted with the CEQ for an 
alternative arrangement under NEPA. 40 CFR 1506.11 provides for 
such alternative arrangements in emergency situations. The 
Forest Service believed that the time period needed for a 
traditional NEPA analysis would negatively affect wildlife 
habitat, private property, and the overall conditions of the 
forest itself. Now specifically, the Forest Service was fearful 
that failure to act expeditiously would result in severe 
wildfires, bark beetle infestations, and loss of subpopulation 
of red-cockaded woodpeckers. Katy McGinty, the chairman of the 
CEQ, sent a letter to the Forest Service on March 4 granting 
the expedited NEPA process.
    The CEQ should be commended for this decision. Ron Hufford, 
of the Texas Forestry Association, wrote in a letter to the 
Subcommittee: ``the granted waiver has been a proactive 
initiative that has allowed the removal of down timber to an 
effort to reduce future insect and disease epidemics as well as 
reducing the fuel loading in the most severely impacted areas.
    The February 10 storm was brief but devastating and left 
the issue of the health of the National Forests in question. 
The waiver has allowed the professionals to respond to this 
emergency in a timely manner.'' And I'd like to submit this 
letter for the record. Photos of the blowdown are in the 
members' folders along with the photos of other catastrophic 
events on other national forests.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T0964.001
    
    [GRAPHIC] [TIFF OMITTED] T0964.002
    
    [GRAPHIC] [TIFF OMITTED] T0964.003
    
    [GRAPHIC] [TIFF OMITTED] T0964.004
    
    [GRAPHIC] [TIFF OMITTED] T0964.005
    
    [GRAPHIC] [TIFF OMITTED] T0964.006
    
    [GRAPHIC] [TIFF OMITTED] T0964.007
    
    Mrs. Chenoweth. H.R. 4345 lists a number of other national 
forests that have experienced catastrophic events of a similar 
magnitude as the East Texas blowdown, recommending that they 
also be granted expedited processes under the NEPA process. The 
bill also requires the CEQ to develop and issue regulations 
concerning the use of alternative arrangements on national 
forests. This is crucial because the CEQ currently has no 
consistent requirements for the use of alternative 
arrangements.
    It is important to note that this bill does not override or 
change any environmental law. It merely recommends that the CEQ 
consider granting expedited NEPA processes to other national 
forests that have suffered catastrophic events and that need 
expedited remedial treatment. Although the CEQ has granted 
alternative arrangements only thirty times since 1980, many of 
the these were in response to situations of similar or even 
lower severity than the ones listed in H.R. 4345.
    For example, one alternative arrangement was for the BLM 
and the Forest Service to implement erosion control efforts 
after the Eighth Street fire in the hills above Boise, Idaho. 
Another alternative arrangement was for the aerial spraying of 
pesticides in Idaho to combat migratory grasshoppers. We know 
and agree that these were legitimate circumstances for using 
expedited NEPA processes. We also know that forest conditions 
in specific areas across this country are in need of 
accelerated management in order to prevent costly and 
preventable environmental and economic catastrophes. In some 
areas, this may mean the removal of dead and dying trees.
    Unfortunately, it has become politically incorrect to 
harvest trees on Federal lands, for any reason, even when it is 
scientifically the most appropriate means for protecting 
wildlife habitats, soils, and private property. Hopefully, we 
can get beyond the political aspects of this issue and have a 
serious dialogue on the merits of using expedited NEPA 
processes in critical forest areas.
    Now, when the Ranking Minority Member comes in, I will 
recognize him for his statement.
    And now, I'd like to introduce our first panel of 
witnesses: Ted Ferrioli, Oregon State Senator from John Day, 
Oregon; L. Earl Peterson, Florida State Forester, Division of 
Forestry from Tallahassee, Florida; Cara Nelson, Consulting 
Ecologist, Natural Resources Defense Council from San 
Francisco, California; Larry Hill, Director of Forest Policy, 
The Society of American Foresters from Bethesda, Maryland.
    Let me remind the witnesses that under our Committee rules, 
they must limit their oral statements to five minutes, but that 
your entire record will appear in the permanent record--your 
entire statement. We will also allow the entire panel to 
testify before we begin questioning the witnesses.
    I would like to recognize my colleague, Allen Boyd, from 
the great State of Florida, and ask if he has opening 
statements.
    [The prepared statement of Ms. Chenoweth follows:]

 Statement of Hon. Helen Chenoweth, a Representative in Congress from 
                           the State of Idaho

    This hearing will focus on National Environmental Policy 
Act Parity and H.R.4345. This bill is a result of the decision 
in March of this year by the Council on Environmental Quality 
(CEQ) to grant ``alternative arrangements'' under the National 
Environmental Policy Act (NEPA). The CEQ allowed for the 
expedited treatment of East Texas National Forests after they 
had experienced a severe windstorm and blowdownon February 
10th. Immediately after the windstorm, the National Forests and 
Grasslands in Texas, the office responsible for management of 
the three national forests damaged in the windstorm, consulted 
with the CEQ for an alternative arrangement under NEPA. 40 CFR 
1506.11 provides for such alternative arrangements in emergency 
situations. The Forest Service believed that the time period 
needed for a traditional NEPA analysis would negatively affect 
wildlife habitat, private property, and the overall conditions 
of the forest itself. Specifically, the Forest Service was 
fearful that failure to act expeditiously would result in 
severe wildfires, bark beetle infestations, and loss of a sub-
population of red-cockaded woodpeckers. Katy McGinty, the 
Chairman of the CEQ, sent a letter to the Forest Service on 
March 4th granting the expedited NEPA process.
    The CEQ should be commended for this decision. Ron Hufford, 
of the Texas Forestry Association, wrote in a letter to the 
Subcommittee: ``The granted waiver has been a pro-active 
initiative that has allowed the removal of down timber in an 
effort to reduce future insect and disease epidemics as well as 
reducing the fuel loading in the most severely impacted areas. 
The February 10th storm was brief but devastating and left the 
issue of the health of the National Forests in question. The 
waiver has allowed the professionals to respond to this 
emergency in a timely manner.'' I would like to submit this 
letter for the record. Photos of the blowdown are in the 
Members folders along with photos of other catastrophic events 
on other national forests.
    H.R. 4345 lists a number of other national forests that 
have experienced catastrophic events of a similar magnitude as 
the East Texas blowdown, recommending that they also be granted 
expedited processes under NEPA. The bill also requires the CEQ 
to develop and issue regulations concerning the use of 
alternative arrangements on national forests. This is crucial 
because the CEO currently has no consistent requirements for 
the use of alternative arrangements. It is important to note 
that this bill does not override or change any environmental 
law--it merely recommends that the CEQ consider granting 
expedited NEPA processes to other national forests that have 
suffered catastrophic events and that need expedited remedial 
treatment. Although the CEQ has granted alternative 
arrangements only thirty times since 1980, many of these were 
in response to situations of similar or even lower severity 
than the ones listed in H.R. 4345. For example, one alternative 
arrangement was for the BLM and Forest Service to implement 
erosion control efforts after the Eighth Street Fire in the 
hills above Boise. Another alternative arrangement was for the 
aerial spraying of pesticides in Idaho to combat migratory 
grasshoppers. We know and agree that these were legitimate 
circumstances for using expedited NEPA processes. We also know 
that forest conditions in specific areas across the country are 
in need of accelerated management in order to prevent costly 
and preventable environmental and economic catastrophes. In 
some areas this may mean the removal of dead or dying trees. 
Unfortunately, it has become politically incorrect to harvest 
trees on Federal lands--for any reason--even when it is 
scientifically the most appropriate means for protecting 
wildlife habitat, soils, and private property. Hopefully, we 
can get beyond the political aspects of this issue and have a 
serious dialogue on the merits of using expedited NEPA 
processes in critical forest areas.

                             BRIEFING PAPER

    Oversight Hearing on Fire Suppression

SUMMARY

    Various forest and weather conditions have greatly 
increased the vulnerability of America's forests to wildfire. 
In recent years, the total number of wildfires, including the 
number of large complex fires, has increased dramatically. The 
costs associated with fighting these fires has risen 
proportionally, representing hundreds of millions of tax-payer 
dollars annually. These efforts also require an ever-increasing 
need for well orchestrated communications and cooperation among 
volunteer and municipal fire departments, State forestry 
agencies, and Federal agencies with wildfire management and 
suppression responsibilities. The purpose of this oversight 
hearing is to review these and other factors that influence the 
effectiveness of government efforts in wildfire preparedness 
and suppression.

BACKGROUND AND ANALYSIS:

    Already this year, nearly two million acres have burned, 
many of those occurring in the well-reported fires in Florida. 
At a Forests and Forest Health Subcommittee hearing last week, 
Earl Peterson, the State Forester of Florida, gave high marks 
to the coordinated fire fighting efforts in his state but did 
suggest that better coordination would have been helpful in the 
ordering and distribution of equipment. He also said that 
better long-range planning would help in order to more 
effectively station people and equipment in areas of highest 
risk.
    The GAO recently reported that wildfire preparedness and 
suppression expenditures by Federal land management agencies 
are at all time highs--over $4 billion for the last five years. 
Given the recent comments by the Chief of the Forest Service 
that approximately 40 million acres of agency lands are at a 
high risk of catastrophic fire, there is little question that 
these high costs are going to persist--and very likely continue 
to increase--for the next couple of decades. As wildfires 
become larger, hotter, and more numerous it is not only 
becoming more expensive to suppress them but the logistics of 
organizing communications and coordination among the various 
state and Federal agencies is becoming exponentially more 
complex. The National Interagency Fire Center (NIFC) in Boise, 
Idaho serves as ``The Pentagon'' for these suppression efforts. 
Located at the NIFC is the National Interagency Coordination 
Center (NICC), whose primary mission is the cost-effective and 
timely coordination of national emergency response. It is 
through NICC that all agency requests to mobilize personnel and 
equipment across regions are managed.

WITNESSES

    Our nation's ability to prepare for and suppress wildfires 
is of extreme importance, not only because these efforts 
represent such a huge cost to taxpayers, but because without a 
maximum effort, property, and most importantly, lives will be 
lost. The intent, then, of this oversight hearing is to discuss 
the effectiveness of our preparedness and suppression efforts, 
and to try to answer a number of questions, such as:

        <bullet> What did we learn from the Florida fires? In 
        retrospect, what could we have done better, and conversely, 
        what worked well? What rehab efforts are underway in the 
        aftermath of the fires?
        <bullet> How do we fund the various suppression activities? Do 
        we spend too much in some areas and not enough in others? Are 
        we adequately monitoring costs? Are we utilizing cost control 
        measures such as contracting out certain activities to private 
        enterprise?
        <bullet> How accurately are we predicting the location, timing 
        and severity of wildfire occurrences? What technologies and 
        computer modeling are being used?
        <bullet> How effective is interagency cooperation--at every 
        level?
        <bullet> What agencies or organizations are responsible for 
        staffing levels, employee training, equipment availability, 
        public education, maintenance of facilities, fire management 
        planning. Who, ultimately, is responsible for suppression 
        efforts, and does this vary by land ownership?

WITNESSES

A witness list is attached

STAFF CONTACT

Doug Crandall at ext. 5-0691

STATEMENT OF HON. ALLEN BOYD, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF FLORIDA

    Mr. Boyd. Thank you, Madam Chairman. I do have a statement 
for the record that I'll ask unanimous consent that be included 
in the permanent record of this----
    Mrs. Chenoweth. Without objection.
    Mr. Boyd. [continuing] and I'll have a brief oral opening 
statement, if I might
    Mrs. Chenoweth. Yes.
    Mr. Boyd. I want to thank you, Madam Chairman, and the 
other members of this Subcommittee for allowing me the 
privilege of sitting as part of this panel and to participate 
in this hearing. I also want to thank you, Madam Chairman, for 
calling this oversight hearing on ``alternative arrangements'' 
that have been granted by the CEQ for emergency situations 
under NEPA.
    As my colleagues are aware, the State of Florida has 
recently experienced a series of severe wildfires that have 
burned over half a million acres and destroyed homes and timber 
with aggregate value of somewhere in excess of a quarter of a 
billion dollars; that's over $250 million dollars.
    In the Second Congressional District, which I represent, a 
majority of the affected acreage is on Federal lands; primarily 
two national forests. District Two has the entire Apalachicola 
National Forest within its borders and also encompasses part of 
the Osceola National Forest. The wildfires burned thousands of 
acres of timberland within these national forests. That's the 
reason I am here today is to listen and learn about alternative 
arrangements.
    I look forward to the testimony of our witnesses today and, 
particularly, Earl Peterson, who is a long-time friend and head 
of the Division of Forestry in the State of Florida.
    But I also want to, Madam Chairman, at this time take this 
opportunity to say a public thank you to all the folks from 
around the Nation that sent their firefighters to Florida. I 
wish you could see the outpouring of gratitude in the State of 
Florida for the folks that came from all over to help us save 
our timberlands and our homes. And as you know, as a result of 
the efforts of those people from all over the Nation, we 
survived this disaster without any loss of life, and we're very 
grateful for that.
    Thank you, Madam Chairman.
    [The statement of Mr. Boyd follows:]

  Statement of Hon. Allen Boyd, a Representative in Congress from the 
                            State of Florida

    Madam Chairman, first of all, I want to thank you and the 
other members of this Subcommittee for allowing me the 
privilege of sitting as part of this panel and to participate 
in this hearing. I would also like to thank you for calling 
this oversight hearing on a very important, and it would 
appear, under used tool that the Council on Environmental 
Quality (CEQ) has in its tool box to use under the National 
Environmental Policy Act (NEPA).
    As my colleagues are aware, the state of Florida has 
recently experienced a series of devastating wildfires that 
burned approximately 500,000 acres, having an aggregate value 
of more than $276,000,000. A large majority of the land 
affected in the state is located on private and state lands. 
However, in the Second Congressional District, which I 
represent, a majority of the affected acreage is on Federal 
lands.
    The Second Congressional District is located in the 
panhandle of the state, running from Panama City in the west to 
the middle of the Osceola National Forest in the east. It has 
the entire Apalachicola National Forest within its borders and 
also encompasses part of the Osceola National Forest. The 
wildfires have burned approximately 20,000 acres in the Osceola 
National Forest. Between 4,000 to 5,000 acres are classified as 
Wilderness Areas and most of this wood is either hardwood or 
cypress. Of the 15,000 acres not classified as Wilderness, over 
10,000 acres are pine plantations. In the Apalachicola National 
Forest, a large majority of the 20,000 plus acres that were 
adversely affected lie within a Wilderness Area.
    As you can imagine, time is of the utmost importance when 
we are trying to salvage this timber. In my experience as a 
steward of our land, in the warm and humid climate of Florida, 
sawtimber must be removed within a 45 to 60 day period after 
being destroyed by fire. Otherwise, it loses all its economic 
value and can only be left to rot and fall to the ground. 
Pulpwood will last for a longer period of time; however, the 
pulpwood market is currently depressed due to a glut in the 
pulp market, and the Asian financial situation. That is why I 
am here today to listen and learn about the ``alternative 
arrangements'' that have been granted by the CEQ for emergency 
situations under NEPA.
    I look forward to the testimony of our witnesses today, 
especially Earl Peterson, our State Forester from Florida. 
Working together, I believe we can take another positive step 
in our stewardship of our federally owned natural resources.

    Mrs. Chenoweth. It was a very startling disaster and I am 
also very grateful that there was no loss of life, but it is 
quite remarkable to be able to see the kind of response to 
national disasters that we saw in this case and have seen in 
the past. And I share that feeling of gratitude with you. We 
were even busy in Boise deploying equipment, and planes, and 
men to the fires. And----
    Mr. Boyd. Men and women also.
    Mrs. Chenoweth. Women, that's right. Absolutely, and 
they're tough. So it's a joy--not joyous circumstances at all 
that we come together, but it's a pleasure to have you join us 
today.
    As this the normal process here, we ask that all of our 
witnesses be placed under the oath. It's a normal process in 
this Subcommittee and I believe all of you have received a 
notice from the Committee that that is our process. And so, if 
you wouldn't mind standing and raising your hand to the square.
    [Witnesses sworn.]
    The Chair recognizes Senator Ferrioli.

STATEMENT OF TED FERRIOLI, STATE SENATOR, STATE OF OREGON, JOHN 
                          DAY, OREGON

    Mr. Ferrioli. Thank you, Madam Chairman. I appreciate the 
opportunity to be here today to testify in support of H.R. 
4345.
    My name is Ted Ferrioli. I reside at 111 Skyline Drive, 
John Day, Oregon. I'm the Executive Director of Malheur Timber 
Operators in John Day, and I am the State Senator from Senate 
District 28.
    Madam Chairman, Senate District 28 begins in the outskirts 
of Portland and the Gresham area, and it goes across all of 
parts of 11 counties in Oregon all the way to the Idaho 
borders. So, we are neighbors in a sense. The population there 
is 100,000 people in my district. It's 17,500 square miles. So 
the population density in my district is .17 persons per square 
mile. So, I'm very glad to see this rather large crowd of 
people here today.
    I'm here today to testify about the rather dysfunctional 
response by the Forest Service under the current National 
Environment Policy Act to a catastrophic event that occurred in 
our district referenced the Summit Fire, which occurred on the 
Long Creek Ranger District on the Malheur National Forest.
    The Summit fire was caused by lighting. It started August 
13, 1996 and it burned for 24 days across 37,961 acres of 
forestland. It killed or damaged approximately 300 million 
board feet across those 38,000 acres. Very shortly after the 
fire was put out, the Summit Fire Recovery Project became the 
top priority of the Malheur National Forest under direction of 
Forest Supervisor Carl Pence. Mr. Pence made that the top 
priority pulling in staff from the other ranger districts on 
the Malheur National Forest and endeavored to conduct a rather 
extraordinary outreach process to bring in people to view the 
fire, to communicate with interested parties and the 
stakeholders. As a matter of fact, tours were conducted for 
Members of Congress, Oregon Governor John Kitzhaber's Citizen 
Eastside Forest Health Advisory Task Force, environmental 
organizations, Forest Products industry representatives, and 
representatives of the National Marine Fisheries Service, and 
the U.S. Fish and Wildlife staff.
    Throughout the period of planning, this forest-planning 
staff received continuous assurances from the regional office 
that the Recovery Project was on track for a speedy recovery. 
On August 27, almost a year later, Forest Supervisor Pence 
signed a Record of Decision that created a Recovery Project 
treating approximately 9,500 acres--about a third of the fire 
area which would have produced a 100 million board feet of 
salvage.
    Of course the Record of Decision was immediately appealed 
by the environmental community in what we refer to as a 
``cookbook'' type of appeal.
    Despite the unprecedented communication between the Malheur 
National Forest Planning Staff and the Regional Forest Planning 
Staff, Regional Forester Bob Williams informed Carl Pence that 
Williams could not support the Record of Decision, and gave Mr. 
Pence two choices: either he would remand the project back to 
the forest; or Mr.Pence could voluntarily withdraw the plan. 
Since voluntary withdrawal gave more options for remediation, 
Mr. Pence chose the latter option.
    In fact, during the next 6 months, the Malheur National 
Forest Planning Staff completely rewrote the DEIS, the 
Environmental Impact Statement, making major revisions, 
including a development of a water resources management plan 
which is not required by rule or by statute. And then formal 
consultation with the U.S. Fish and Wildlife Service for a Bull 
Trout and informal consultation with the National Marine 
Fisheries Service for Steelhead. Although at that point in 
time, neither of those species were a listed species.
    On July 12, 1998, more than 23 months after the fire, a new 
Record of Decision was issued calling for the salvage and 
rehabilitation of approximately 6,600 of the 38,000 acres 
burned with an output of approximately a 50 million board feet.
    During the intervening months, of course, the insects, and 
blue-stain fungus, and checking severely reduced the value of 
the salvageable timber. In fact, if the salvage project had 
been conducted in August of 1997, it would have produced about 
$6.9 million in revenue for the Federal Treasury, 25 percent of 
which would have gone to schools--local schools, and for the 
roads funds in the counties. Today, if the project was 
operated, or will be operated, it will be worth approximately 
one-sixth of that value or about $1.1 million. So we saw a 600 
percent reduction in the value of that project over a 23-month 
period.
    Madam Chairman, the cost of suppression for the Summit Fire 
was $25,400,000, the moral equivalency of a war. The cost for 
the original Draft Environmental Impact Survey was $1.2 
million. The Supplemental Draft Environmental Impact Statement 
that was ordered costs about $356,000. The project will put out 
$1.1 million worth of salvageable materials. The math simply 
doesn't work out.
    Madam Chairman and members of the Committee, while the NEPA 
process may be well adapted to long-term projects or proposed 
management actions that are not time-sensitive, it's very clear 
to us that the NEPA process is especially inappropriate for 
time-sensitive projects like fire-recovery projects where rapid 
deterioration and the loss of value is a predictable outcome of 
delay.
    There are three suggestions that I would like the Committee 
to consider. One is that if alternative arrangements are to be 
used in this type of arrangement or this type of emergency as 
they were for the blowdown in Texas, that those alternate 
arrangements be clearly modelled and clearly delineated so that 
there is a easily accessible mechanism for their approval.
    The second, if we are to make the NEPA process work, we 
need to also provide an expedited appeal and litigation process 
to resolve conflicts in a timely manner. If we had shorter 
statutory appeals processes, and a shorter judicial appeal 
process, we could not only have heightened access for citizen 
appeals and litigation, but we would also have timely 
resolution. And that's a critical factor.
    The other thing is, Madam Chairman, we should modify the 
NEPA process to add the full consideration of the economic 
values affected by Federal decisionmaking. At present, NEPA 
requires the full disclosure of the environmental values and 
considerations, but does not disclose the economic impacts to 
local communities, and the economic values and considerations 
in Federal decisionmaking. And to be effective, we believe that 
NEPA needs to fully disclose the economic impact on local 
communities.
    Our experience has shown that catastrophic events require a 
planning response that preserves the net asset value of the 
resources, not only to sustain our communities that depend on 
natural resource outputs, but simply to capture the maximum 
value to pay for the cost of planning, and to pay for the cost 
of rehabilitation of resources damaged by wind, insects, 
disease, and wildfire.
    Thank you, Madam Chairman.
    [The prepared statement of Mr. Ferrioli may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you very much, Mr. Ferrioli, and the 
Chair will yield to Mr. Boyd to introduce Mr. Peterson.
    Mr. Boyd. Thank you very much, Madam Chairman.
    I didn't know I was going to get this opportunity, but I'm 
very pleased. I don't have a bio of Mr. Peterson in front of 
me. I can tell you from personal experience that's he's been a 
public servant in Florida for all his professional career and 
I--what 30 years, Earl
    Mr. L. Earl Peterson. Forty years.
    Mr. Boyd. Forty years. Oh, my goodness, and within the last 
six or 8 years been named head of the Division of Forestry 
which is under the Department of Agriculture in the State of 
Florida. I've had the chance to, before I was in public life, 
work with Earl Peterson on many occasions in their job working 
with timber and landowners, and they do a great job under his 
leadership. And I'm very pleased to welcome Earl Peterson.

STATEMENT OF L. EARL PETERSON, FLORIDA STATE FORESTER, DIVISION 
              OF FORESTRY OF TALLAHASSEE, FLORIDA

    Mr. L. Earl Peterson. Thank you, Congressman Boyd, members 
of the Committee.
    It's a pleasure to be here today and I particularly want to 
say also how appreciative we are for the assistance that came 
from throughout the country in our recent siege of wildfires. 
The Federal agencies, the U.S. Forest Service, the sister-state 
agencies throughout the country, were more than generous in 
their resources. With-

out them, it certainly would have not been possible to come 
through this with the success story that we had, and with the 
safety record that we're so proud of.
    I'm also pleased to be here to talk a few moments about how 
the Florida Division of Forestry manages its timber resources 
and in particular how we deal with emergency salvage operations 
when struck by natural disaster.
    The Florida Division of Forestry is one of the largest land 
management agencies in the State of Florida. We have been 
managing state forest lands for over 60 years and presently co-
manage about a million acres while at the same time we are the 
lead manager on about 740,000 acres.
    We have 36 state forests, approximately 55 percent of which 
is suitable for pine silviculture, timber production, if you 
would. An active forest management program occurs on this pine 
acreage and includes prescribed burning, reforestation, and 
timber sales. Trees have grown to an old age on state forests 
for a number of reasons, two of which are to provide a natural 
ecosystem that is rapidly disappearing from the State and also 
to provide a special experience for the public sector who visit 
state forests in order to enjoy a large number of resource-
based outdoor recreation activities. Our state forests 
represent an investment by the citizens of Florida, and that 
investment should produce both a natural resource heritage for 
the future and an economic return.
    The practice of sustainability is a cornerstone in the 
management of our timber resource. By using current forest 
inventory data, we insure that state forests are not overcut 
and that the growth will continue to exceed yield on an annual 
basis. Trees are harvested through a number of silvicultural 
techniques, including improvement thinnings, restoration 
harvests, and the latter being the removal of offsite species 
that the naturally occurring species can be restored to a 
particular site.
    In a well-managed state forest, foresters from the division 
strive to keep the trees in a healthy condition using such 
management tools as prescribed burning and improvement 
thinnings, which I have previously mentioned. However, due to 
natural processes beyond our control, unexpected and 
undesirable tree mortality sometimes occurs in any natural 
forest system. Examples are lightning----killed trees, 
mortality from wildfires, insect and disease outbreaks, and 
windstorm damage.
    Because this is a natural process, if the level of tree 
mortality is considered light, then sometimes no action is 
taken. The resulting dead snags provide homes for wildlife and 
help create biological diversity in the forest system. However, 
when tree mortality reaches levels where there is significant 
economic loss or there is the potential for insect and disease 
spread, then we salvage or do sanitation harvests and initiate 
a process to recoup the monetary losses and reduce the based on 
the threat to spread to disease or insects.
    Although prompt action is often taken to salvage timber 
that has been damaged or killed at moderate levels or in 
limited areas, there is no question that the Division of 
Forestry will take appropriate action when major tree mortality 
events take place. This statement is clearly exemplified by 
October 1995 Hurricane An-

drew which made a direct hit on Blackwater State Forest, which 
is Florida's largest state forest with 189,000 acres. Within 
six months, we had salvaged 95 percent of the damaged timber, 
which was approximately 50 million board feet of sawtimber.
    In the spring and summer of 1997, Florida experienced the 
worst outbreak of southern pine beetle in our history. This 
infestation was centered in Marion and Levy County area of 
Central Florida. Loblolly pine was the major species being 
killed, but it also moved into slash pine and longleaf pine. 
The insect was indiscriminate in attacking trees across all 
ownerships. The Division of Forestry took a lead role in taking 
actions to control the insect outbreak plus the salvage that 
followed and worked with other agencies as if we carried this 
out. And at the same time, we did them on our state forests in 
two locations.
    Finally, the State of Florida had just gone through one of 
the most serious outbreak of wildfires in our history. 
Approximately 500,000 acres burned between June 1 and late 
July. Of this, there was a total of about 260,000 acres of 
commercial-pine timberland. A conservative estimate is that 
2,600,000 cords of damaged or fire-killed timber will require 
salvage in the next few months. Besides being directly involved 
in the total salvage effort, the Division has approximately 
14,000 acres on state forests; Tiger Bay State Forest; and Lake 
George State Forest in Volusia County. Once the wildfires were 
controlled, we immediately moved toward damaged appraisal and 
initiating salvage sales on these state forests. In 2 weeks, we 
sold four salvage sales and have plans to sell four more during 
the third week.
    The time is of essence in selling salvage timber, 
especially sawtimber. In Florida's warm climate, dead sawtimber 
must be utilized within a few months or it will deteriorate 
where it will be worthless except for pulpwood. Pulpwood will 
only last a few months longer. Because of this short timeframe, 
we expedite the bid process and only give potential bidders a 
week or less to submit their bids for sale. Emergency salvage 
sales of this nature are almost always sold on a per unit 
basis, which means we sell it by the ton. A performance bond of 
$5,000 or more is usually required to insure sale compliance.
    A few key points for salvage operations conducted by the 
Division of Forestry are that they are done in a rapid fashion 
to insure maximum economic return, eliminate waste and to 
prevent the spread of pathogens or insects that might kill 
additional timber. All potential bidders are given a chance to 
bid on every sale so that no one could be accused of unfair 
sale practices, and ongoing sales are administered closely 
working with the loggers comply with division personnel.
    The Division of Forestry is fortunate to have the latitude 
to make these decisions about procedures and conditions for 
silvicultural applications, such as reforestation and timber 
harvesting.
    Thank you.
    [The prepared statement of L. Earl Peterson may be found at 
end of hearing.]
    Mr. Peterson of Pennsylvania. [presiding] The Chair thanks 
the gentleman from Florida. With the name Peterson, you've got 
to be OK.
    [Laughter.]
    Mr. L. Earl Peterson. Thank you.
    Mr. Peterson of Pennsylvania. I'm Congressman Peterson from 
Pennsylvania temporarily filling in for the Chair. The chairman 
had to leave for a few moments.
    At this time, I recognize Cara Nelson, Consulting 
Ecologist, Natural Resources Defense Council for her testimony. 
Welcome, and good morning.

    STATEMENT OF CARA NELSON, CONSULTING ECOLOGIST, NATURAL 
                   RESOURCES DEFENSE COUNCIL

    Ms. Nelson. Thank you. Thanks for the opportunity to 
participate in this hearing. I'll be testifying against H.R. 
4345.
    I work both as a research forester and as a consulting 
ecologist for Natural Resources Defense Council. Natural 
Resources Defense Council is a national non-profit 
environmental organization dedicated, among other things, to 
the protection of forest resources. My work for NRDC is largely 
focused on issues related to fire and fuels management in the 
forests of the Interior Columbia Basin in eastern Washington 
and Oregon.
    This morning, I'd like to share my views on what I believe 
to be one of the most critical issues facing forest managers 
today; how, when, and where to experiment with forest 
restoration activities and the related topic of requirements 
for environmental review of these projects.
    As strategies are developed and implemented for protecting 
the fire and insect resiliency of Federal forests, it is 
critical that adequate attention is devoted to environmental 
review and that opportunities for restoration are not subverted 
by lack of careful planning or information, or overemphasis on 
short-term economic goals.
    I'd like to stress three primary reasons why comprehensive 
environmental review is needed for all treatments that justify 
commercial harvests of dead, dying, and overstocked trees as 
forest health measures.
    First, there is a lack of scientific consensus about the 
efficacy of thinning, salvage, and fuels treatment for 
improving fire resiliency or ecosystem integrity. Surprisingly, 
little empirical research has been conducted on the impacts of 
these treatments on fire behavior. In spite of hypothesized 
benefits, the handful of studies that address these issues, as 
well as anecdotal accounts and analysis of recent fires, 
suggest that removal of dead, dying, and overstocked trees may 
not reliably reduce fire intensity or severity. In fact in the 
Pacific northwest, three recent studies of the relationship 
between thinning, fuels treatment, and fire behavior all found 
that treatment actually exacerbated fire conditions. In all 
cases, unmanaged stands had the least severe fire effects.
    The second reason that thorough environmental review of 
management actions is so important is that the type of harvest 
practices employed, as well as the manner in which they are 
executed, influence environmental conditions and fire and 
insect hazard. Thinning, salvage, and fuel treatment are all 
sufficiently vague terms that treatments can vary widely in 
both the techniques used and the residual stand conditions.
    For example, in Van Wagtendonk's model-base study of six 
different approaches to fuel reduction in the Sierras, and this 
study was part of the ``snap'' process, only one was predicted 
to reduce the number of acres burned or fire intensity below 
that of untreated stands. Findings such as these provide 
evidence that a careless or thoughtless approach to restoration 
treatments is likely to result in more harm than good.
    Third, in addition to the speculative nature of claimed 
ecological benefits from removal of dead, dying, and 
overstocked trees, there is ample evidence that persistent 
adverse impacts can and do result from salvage and thinning. 
These impacts include: the loss of snags; down logs and closed 
canopy habitat conditions that are required by many wildlife 
species; damage to soil integrity; creation of sediment which 
may eventually end up in our streams; increased mortality of 
residual trees due to pathogens and mechanical damage; and then 
most importantly, increase near-term fire hazard due, 
primarily, to logging slash.
    These downsides to salvage and thinning need careful, 
conscientious evaluation and must be squarely presented to the 
public, sister agencies, Congress, and ultimately, 
decisionmakers if a responsible judgment is to be made about 
where, how, and at what level experiment with logging base 
approaches to reducing fire and insect hazard. Failure to 
analyze and disclose the environmental risks associated with 
these treatments may result in continued ecosystem degradation 
and may prevent the adoption of ecologically sound approaches 
to management.
    In conclusion, sound scientific support does not exist for 
broad or generalized inferences that emergency logging 
operations will ameliorate fire or insect risks in our Nation's 
forest.
    I hope that my testimony will help dis-sway the 
Subcommittee from proceeding with legislation that would 
abrogate the existing NEPA process in the name of forest health 
emergencies. Thank you again for the opportunity to appear and 
present this testimony.
    [The prepared statement of Cara Nelson may be found at end 
of hearing.]
    Mrs. Chenoweth. [presiding] The Chair now recognizes Mr. 
Lawrence Hill, Director of Forest Policy of the Society of 
American Foresters.
    Welcome, Mr. Hill.

STATEMENT OF LAWRENCE HILL, DIRECTOR OF FOREST POLICY, SOCIETY 
           OF AMERICAN FORESTERS, BETHESDA, MARYLAND

    Mr. Hill. Thank you, Madam Chairman, and Committee. I 
really appreciate the opportunity to be here today to testify 
on this piece of legislation.
    As director of Forest Policies for the Society, I represent 
our 18,000 members who constitute the scientific and 
educational association representing the profession of forestry 
in the United States. Our primary objective is to advance the 
science, technology, education, and practice of professional 
forestry for the benefit of society. That's a small ``s.'' We 
are ethically bound to advocate and practice professional 
forestry consistent with ecologically sound principles. I am 
especially pleased to submit comments on H.R. 4345 and wish to 
thank the Committee for its continued support of professional 
forestry and especially its continued support of some of SAF's 
priorities.
    H.R. 4345 highlights a key provision of the National 
Environmental Policy Act and we support that provision. The 
regulations issued by the Council on Environmental Quality in 
1978 provide for alternative arrangements to normal NEPA 
procedure in an emergency situation. The CEQ regulations state: 
``where emergency circumstances make it necessary to take an 
action with significant environmental impact without observing 
the provisions of these regulations, the Federal agency taking 
the action should consult with the Council about alternative 
arrangements. Agencies and the Council will limit such 
arrangements to actions necessary to control the immediate 
impacts of the emergency. Other actions remain subject to NEPA 
review.
    In addition to this direction, we understand that 
individual Forest Service and BLM units are required to consult 
with their respective Washington offices about emergencies that 
may result in a request for an alternative arrangement from 
CEQ. Additionally, Federal agencies seeking alternative 
arrangements should provide CEQ with a complete description of 
the needs for such an arrangement at the time of the request.
    These provisions are worthwhile and allow for a rapid, yet 
cautious, response to situations that clearly should be treated 
as emergencies. The environmental laws of the Nation are some 
of the most comprehensive in the world, yet at times they can 
slow actions intended to mitigate harm to the environment. The 
wisdom of the authors of these laws, and particularly NEPA, and 
regulations is clearly shown in the emergency provisions. At 
times, the environment is better with action than with 
inaction.
    What appears to be absent from the alternative arrangement 
procedures granted by CEQ is some sense of direction and 
criteria for how and when these procedures should be granted--
excuse me--and when these procedures should be applied. The 
best person to determine whether the situation warrants 
alternative arrangements from CEQ is the on-the-ground manager. 
The people intimately involved in the day-to-day management of 
a forest know what the situation is, and how quickly it needs 
correction. The additional guidance CEQ is required to develop 
under this bill should provide land managers in all the Federal 
land-management agencies with a better understanding of when 
and how they should request these expedited procedures. 
Therefore, SAF supports the provisions of the bill. This 
guidance would also ensure that directions are made 
consistently over time, and that all parties interested in the 
decisions have a clear understanding of how and why they were 
made.
    We cannot comment on the specific locations of the National 
Forests for which this bill requests that CEQ and the Forest 
Service develop alternative arrangements under NEPA. However, 
we are encouraged that the bill merely requests, and does not 
require, the Forest Service to develop alternative arrangements 
for these areas. Although SAF has heard from some of its 
members that there are many locations in the national forest 
and public domain lands that are in need of emergency 
treatment, and we believe the decision to seek alternative 
arrangements from CEQ should rest with the agencies and the on-
the-ground managers on a case-by-case basis.
    Thanks again for this opportunity to testify and I, as the 
others, would be pleased to answer questions.
    [The prepared statement of Mr. Hill may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you very much, Mr. Hill, and we look 
forward to your answers to some of our questions. I do want to 
let you know, Mr. Peterson, had to step out, momentarily, but 
will be back very shortly.
    Chairman is going to step out of order and with unanimous 
consent I'm going to issue a statement. Because this issue is 
so very important to the northwest, to those of who live there, 
and work there, and actually see on the ground the devastating 
affects of the lack of decisionmaking ability for one reason or 
another.
    And I'd like to address my comments to Ms. Nelson. In your 
testimony, you criticized reports of successful fire-hazard 
reduction as being almost entirely anecdotal. You then cited as 
an example the thin stand in Tiger Creek in the Boise National 
Forest, which survived the 1992 Foothills fire. I can tell you 
that the Subcommittee visited that site last year and the Boise 
Forest explained to us why that particular stand survived.
    Let me explain that to you. It was only because the 
thinning had removed enough material between the larger pine 
trees to eliminate the fire ladder that had previously existed, 
and when the fire reached that stand, it dropped to the ground, 
burning the ground fuels but not reaching the crowns of the 
trees. The evidence was very compelling and, as expected, only 
in this area was the fire similar to historical fire behavior 
for the Boise National Forest.
    You then said thinning was not effective at reducing fire 
intensity and severity on Rabbit Creek fire also in the Boise 
National Forest where some 200,000 acres burned in 1994. I must 
point out that it sounds like your observation is anecdotal.
    As you didn't cite any scientific reports or other 
explanations for your conclusions, however, assuming your 
description of this fire is correct, which it is not, I must 
point out that many other factors influence how fire burns 
including the intensity of the vegetation, and so on. In fact, 
I am told by forestry experts that thinning tree densities are 
substantially the reason why forest fire don't crown.
    I would appreciate if you could provide me with additional 
information on the Rabbit Creek fire from your perspective, 
scientific, actual information such as the type of thinning 
that was done, the fire weather, and other factors that 
influenced the fire behavior in that particular fire.
    Thank you very much.
    The Chair recognizes Mr. Boyd for questions.
    Mr. Boyd. Thank you, Madam Chairman.
    Maybe I should open up with a question of Mr. Peterson 
about some of the practices that you use--the State of Florida 
uses and you're authorized by the State through its legislature 
to use. And I noticed in your testimony that you said sawtimber 
must be utilized within a few months. Can you be more specific 
on that timeframe, and also is that different in Florida, and 
why?
    Mr. L. Earl Peterson. Yes, sir.
    Florida's climate makes it very conducive to an early beget 
of blue stain. Sawtimber depends on the time of year, but 
within 30 to 45 days, you need to move that out or it will 
become less valuable and have to revert to pulpwood because of 
the inset of blue stain and other deteriorations. That time 
would be greater in the winter, of course, when weather is not 
so warm and humid.
    Mr. Boyd. So, this is the time of the year that it would be 
most critical?
    Mr. L. Earl Peterson. Absolutely. Yes.
    Mr. Boyd. There's another problem we have in the south they 
don't have in other places and that is the southern pine 
beetle. What happens in terms of outbreaks of southern pine 
beetle after fire damage?
    Mr. L. Earl Peterson. Well, the stress occasioned by the 
fire on trees often make them very susceptible to the 
infestation of the southern pine beetle and, of course, when 
that occurs as we have learned from experience, it spreads and 
it's imperative that you get in and remove the damage of the 
infested trees, along with a buffer, all around them to limit 
the spread and further destruction of the forest.
    Mr. Boyd. OK, let it be noted in the record that we did 
have a severe outbreak of southern pine beetle in the Osceola 
National Forest within the last couple years.
    Madam Chairman, I've spent all of my professional life in 
agriculture and part of that has been the--I'm a timber owner. 
I'm a land owner that has plant some virgin pines on it and 
also planted pine plantations. And I've spent all of my 
professional life managing that for, basically, three things: 
one is aesthetic value; two is wildlife habitat; and three is 
also economic production. They are not in conflict with each 
other. I can tell you. And so, I think the things that I've 
read, and I want to turn to Ms. Nelson now, if I might. I 
didn't get through all of your testimony because I didn't get a 
copy of it until I received it when I got here, but I read part 
of it.
    Ms. Nelson. OK.
    Mr. Boyd. And I must tell you that I'm somewhat shocked 
because it goes against everything that--the years that I've 
spent in the business, it goes against what we know to be true 
and what works. And I want to read to you. Well, first of all, 
let me ask you this question and then I'm going to read part 
from your testimony. I guess I understand from your testimony 
that you feel like there should be one, no thinning in any 
national forest land.
    Ms. Nelson. No, that's not true.
    Mr. Boyd. OK, that's not true.
    OK, second, you feel there should be no fuel treatments.
    Ms. Nelson. No, that's not true either.
    Mr. Boyd. That's not true. OK.
    Ms. Nelson. I feel that we must be very careful in 
implementing both thinning and fuels treatments, and I've cited 
in my testimony--there is a long list of citations of studies 
that have been done that show that the way in which fuels 
treatment is conducted makes a large difference in the 
resultant insect and fire hazard in the residual stand.
    Mr. Boyd. Well, I guess I didn't get to the part where you 
said that thinning or fuel treatment might be OK. I mean, I 
just read the part where you were making the case that it 
increased fire risks. So, then would it also be safe to say 
that you would be against any salvage operations in damage--
whether that be fire damage?
    Ms. Nelson. Same answer to all three of those questions is 
that----
    Mr. Boyd. OK.
    Ms. Nelson. [continuing] with all of these treatments, they 
need to be designed for specific reasons on specific sites and 
carefully conducted. And that's why environmental review is so 
important.
    Mr. Boyd. But I gathered from your testimony that the 
length of the environmental review would be so long that in the 
case of Florida here, where we have, there would be no value to 
the salvage operation
    Ms. Nelson. If the sales are being conducted for forest 
health reasons or environmental reasons, then if that's the 
case, then I don't see any emergency reason to proceed. Now, if 
the primary objective of the sale is economics, then I think 
that should be clearly stated and that there may be a need to, 
on a 6-month time period, you know, recover economic value. 
However, with the case in Texas, from my understanding and 
again--you know, I'm not familiar with the forests down there, 
but from the record, the record states that the purpose of the 
sales was to protect the surrounding resources and--you know, 
the ecological integrity of the stand. And there's no reason to 
expedite the removal of trees for that purpose.
    Mr. Boyd. Madam Chairman, I notice my red light comes on, 
but I would ask unanimous consent to have additional time since 
we don't seem to have a large crowd here on the Committee.
    Mrs. Chenoweth. Please proceed Mr. Boyd.
    Mr. Boyd. Thank you, Madam Chairman.
    Well, for the record, let me tell you that the 15,000 acres 
that burned in the Osceola National Forest here in the last 
sixty days that was outside of the wilderness area--there's 
about 5,000 in the wilderness area, 15,000 outside the 
wilderness area, primarily was pine plantations. I spent 
several hours with Marcia Carney, who is the State Forester for 
U.S. Forest Service, last weekend touring those sites and 
talking with her about what her vision was for what should be 
done. And she and I agreed that those pine plantations would 
best be salvaged and replanted in longleaf pine. By the way, 
those are slash pines. Those are pine plantations which, 
obviously we--when I say plantations, I mean man planted them. 
But if you don't do a salvage operation pretty quickly, those 
logs will fall over a period of time and make reforestation, 
rehabilitation almost impossible. So, I want that to be shown 
as part of the record, that if you don't get in there in some 
reasonable period of time and do the salvage operation, then 
reforestation and rehabilitation becomes very difficult.
    Now, I want to turn to the other members and I know you 
probably have not had a chance to read Ms. Nelson's statement, 
and I want to ask you to consider this statement. And I read 
from Ms. Nelson's statement on page two, third paragraph: 
``results from a study of the effectiveness of fuels treatment 
on previously non-har-

vested lands in the Bear-Potato Analysis Area of the Wenatchee 
National Forest, Washington provides evidence that harvest 
treatments may increase risk of fire damage. In this study, the 
Forest Service evaluated the effects of past fuel treatments on 
fire severity. Before wildfire in 1994, approximately 2,021 
acres of the fire that had not been previously logged were 
treated for fuels with mechanical removal and/or prescribed 
burning.'' And then she goes on to describe using percentages 
that says those areas that had fuel treatments prior to the 
fire had greater damage than those that did not have fuel 
treatments prior to the fire.
    Mr. Hill, let me ask you. What would be your reaction to 
that statement?
    Mr. Hill. Well, I'd have to wonder what some of the fire 
conditions were at the time the experiment was conducted: you 
know, wind temperature; was the fuel spread; was it piled for 
burning; or just exactly what happened--I'm really not familiar 
with that particular study.
    Mr. Boyd. But you certainly couldn't make a statement carte 
blanche--a general statement across the board that land that 
had fuel treatments on it was more likely to be--have a higher 
mortality in case of fire, could you
    Mr. Hill. That's correct.
    Mr. Boyd. OK. Thank you very much, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Boyd.
    I have some questions for Mr. Ferrioli.
    In your discussion and in your testimony, you discussed how 
appeals and litigation can be used to slow or stop Forest 
Service discussions, but often it seems that just a threat of a 
lawsuit seems to stop everything.
    Mr. Ferrioli. Oh, thank you, Madam Chairman.
    It has been our experience that the Forest Service is 
extremely risk adverse, and it seems that even the mention of 
an appeal can send our planners into a paroxysm of self-
analysis, and it seems to make the process very protracted. In 
the case of the Summit Fire Recovery Project, there were 
numerous instances where members of the environmental community 
said in response to proposals in scoping ``If you do that, 
we'll sue you.'' And I believe that made the agency very, very 
careful to the point of even dereliction of their duty to be 
timely.
    We heard today that there's a great concern that a revision 
of the NEPA process might make planning thoughtless or 
careless. Planning does not need to be thoughtless or careless 
to be timely, and that's the biggest problem. When the agency 
is so averse to appeals or lawsuits that they fail to carry out 
their duties which are serving the people and protecting the 
land by moving forward on these projects, the communities 
definitely suffer.
    In the case of the Summit Fire Recovery Project, what 
should have probably taken 6 months, took 24 months. We still 
have not seen the end of it. The appeal that was filed is one 
that we've seen templated and used in dozens of other appeals. 
The response from the agency is as if they've never seen this 
kind of an approach before. They treat every appeal the same. 
Anybody that's willing to invest in a word processing program 
and a $.32 stamp can virtually bring a planning process to a 
halt.
    And in the case of the deterioration that Mr. Boyd mention, 
I can assure him that although his concern with southern pine 
beetles, we must have Yankee pine beetles in the Oregon area--
--
    [Laughter.]
    [continuing] because our pine beetles attack with the same 
kind of ferocity. We have the same blue stain, and checking, 
and deterioration--very rapid deterioration of our pine stocks.
    I'll just show for illustration purposes, this is a blue-
stained log. It's about 33 inches in diameter. After 24 months, 
you can see that the blue stain almost approaches the center of 
the heartwood. This log would have been relatively valuable if 
harvested within 6 months of the fire. Today, it has 
deteriorated to the point where it is just about pulpwood.
    [Photograph.]
    The same thing with this particular piece. This round is 
about 33 inches in diameter. You can see that the round is 
almost split all the way to the heartwood. Blue stain goes 
right to the heartwood, and there is ample evidence of pine 
bore beetle damage to this wood.
    [Photograph.]
    I do believe that there's a coefficient between 
environmental concerns and economic concerns, and it seems that 
there's a desire on the part of some folks in the environmental 
community to completely disconnect environmental considerations 
from economic considerations. But one of the things that we 
need to focus on is the kind of damage that we see as a result 
of these fires.
    This is a devastated, class-one stream in the Summit Fire 
Recovery area. It is habitat to bull trout, and it's habitat to 
steelhead. This is approximately 24 months after the fire. You 
can see that we still have exposed mineral soils. You can see 
that the treatments that should have been done in this area 
which would have been reducing the standing wood to lower the 
risk of reburn have not been done; that we have not had 
reforestation; and that the native vegetation has not returned 
to this area. This is after 24 months.
    So I would submit to you that the failure to take 
appropriate and timely action can contribute to a long-lasting 
environmental degradation that does effect and impact species 
like steelhead, bull trout and other anadromous species. This 
is just one of the riparian areas that were devastated by that 
fire.
    Mrs. Chenoweth. Senator Ferrioli, it seems down at the 
Forest Service does treat fire when it's actually occurring. 
It's an emergency, and then after the fire is over, it's no 
longer an emergency.
    Mr. Ferrioli. Madam Chairman, if I could comment?
    We had 24 days of very intensive fire response. We spent a 
million dollars a day putting that fire out. At the end of the 
Fire Recovery Project, we should have had about 3 to 6 months, 
a period of time for scoping, planning for the recovery project 
and implementation. Due to the inexplicable responses of the 
Forest Service to the idea that they might have an appeal or 
the idea that somebody might sue, we saw that process 
protracted to 24 months. It just seems that the moral 
equivalency of war is what we bring to putting the fire out. We 
spent 24 months and about $1.7 million in planning for 
rehabilitation. To date, we've done nothing on the ground. So, 
you could say that there is a tremendous race for fire 
suppression and then an interminable process for planning and 
recovery.
    And in the meantime, we see continuing resource 
degradation. The community stands to lose significantly. We 
have about 600 jobs at stake in keeping the mills open in our 
community. Our schools are already on a 4-day school week. The 
value of this project has dropped six-fold, meaning there will 
less dollars for schools, and roads in the counties. And the 
volume under contract in our community is between 3 and 6 
months.
    So, we literally have a situation after the fire where the 
Forest Service seems to be engaged in a round-robin of planning 
while the community's needs are not met and environmental 
degradations pile up.
    Mrs. Chenoweth. Thank you, Senator.
    Ms. Nelson, you mentioned that there were some times when 
forest restoration or thinning is acceptable. Are you referring 
to the Van Wagtendonk Study of 1996?
    Ms. Nelson. I'm not referring that study as an example of 
when treatments would be called for. I used that study as an 
example that the way in which a treatment is done, meaning the 
techniques--specific techniques that are used have variable 
effects. So, for instance in that study, one of the treatments 
that was part of the experiment was lop and scatter and----
    Mrs. Chenoweth. Lop and scatter
    Ms. Nelson. [continuing] lop and scatter. It's a standard 
fuel-treatment practice.
    Mrs. Chenoweth. Would you explain for the record what lop 
and scatter is?
    Ms. Nelson. Sure. It's an approach where the materials, 
tops of trees and branches, are scattered around the site, and 
this is a standard fuel treatment. The other kinds of 
treatments that were investigated by Van Wagtendonk--we have 
some model-base study prepared as part of the Sierra, Nevada 
Ecosystem Project, included prescribed burning, chipping, I 
believe. I think there were six treatments in all, and lop and 
scatter came out as the results of study indicated that lop and 
scatter on these stands would increase flame land and rate of 
spread of the fire.
    Mrs. Chenoweth. Of course----
    Ms. Nelson. Now, the reason that I mentioned the study in 
the first place was not to say that fuel treatment should not 
be done, but that environmental review is important because, 
you know, in the Sierras and those areas we would want to make 
sure that lop and scatter treatments are not being done on that 
site.
    Mrs. Chenoweth. You do admit in your testimony that this 
model was constructed, but this has never applied in a natural 
setting
    Ms. Nelson. Well, the treatments have been applied in a 
natural setting, and I think why, as Mr. Hill mentioned in his 
response----
    Mrs. Chenoweth. Now let me back up here.
    Ms. Nelson. OK.
    Mrs. Chenoweth. I want you to answer my question because in 
your statement and let me quote to you----
    Ms. Nelson. Yes.
    Mrs. Chenoweth. [continuing] ``given that the studies' 
conclusions are based on models that have not been tested in 
natural settings, results must be interpreted cautiously.''
    Ms. Nelson. Yes, and that's how I view, as a scientist, I 
take a very cautious view on when and how much inference you 
can make from scientific studies. Now the interesting thing 
with this topic in general is that there are very few studies 
that have been conducted at all. So, this is the reason that we 
need to rely on modelling studies. If there were results from 
on-the-ground studies, that would provide further----
    Mrs. Chenoweth. So, we have a heavy fuel-load situation, 
and the only thing that you recommend in order to avoid the 
heavy fire that damages the soil creates a crowning effect is 
lop and scatter?
    Ms. Nelson. The only thing that I recommend?
    Mrs. Chenoweth. Recommend, the thinning?
    Ms. Nelson. Oh, no. You must have misheard what I said 
previously. I said lop and scatter increased rates of spread 
and flame land. So that would not be a good technique----
    Mrs. Chenoweth. Alright.
    Ms. Nelson. [continuing] in these particular forests in the 
Sierras.
    Now, I don't say that there's one approach that I would 
recommend or not recommend in every situation. My point is that 
there is no blanket prescriptions that we can use for all 
stands, number one. And No. 2, that using the wrong treatments 
can result in higher risks because of activity fuels, as Mr. 
Hill mentioned previously. Activity fuels is the main problem 
with the implementation of treatments.
    Mrs. Chenoweth. Let me ask you.
    Ms. Nelson. Yes.
    Mrs. Chenoweth. Given a situation where there has been 9 
years of drought, the forests are stressed because of lack of 
moisture, there is heavy fuel load on the forest floor, what 
kind of thinning techniques would you recommend, specifically?
    Ms. Nelson. Well, I would need to know more specifically 
about the stand than what you just told me. However, I would, 
No. 1--would not do anything on an emergency basis. And No. 2, 
I think the most important thing about this whole topic is that 
there is a need for more information about where to go with 
this incredibly large problem that we have as forest-free 
community.
    Mrs. Chenoweth. Thank you very much.
    Mr. Peterson, the Subcommittee is having a hearing on fire 
readiness next week, and since we have you here now, we'd like 
to have you talk freely about the fires in Florida. I'd like 
for you to please feel free to share any important lesson 
learned. From your perspective with the Committee, and for the 
permanent record, I'd really like for you to elaborate on where 
you think we are most effective. Where you think we're the 
weakest, and on the quality of our equipment, people, and the 
communications And finally, I'd like to ask you what do you 
think we need to do to be better prepared for similar or worst 
occurrences in the future, God forbid
    Mr. Peterson.
    Mr. L. Earl Peterson. Thank you, Madam Chairman.
    Those are profound questions. If I can--but before I do 
that, if I might. I would just like to say that my experience 
with the Federal land managers are that they the people at the 
ground level would like to move more expeditiously and 
effectively in dealing with situations such as fire, disease, 
insects outbreak, but because of the fear, because of the 
threat of challenges, they feel their hands are tied. That 
things just have been said here today--the classic example 
which I have is 1995 when Opal hit Blackwater, we got our 50 
million border feet out within six months and our neighbor 
across the way, the Conecult National Forest, they were only 
able to begin by the time we got through.
    So, I think the local managers for the Federal agencies are 
very interested in being more aggressive in dealing with these 
problems, but they just feel like the process won't permit it.
    The fires in Florida have been a challenge that I think has 
been well met by all. It's one of those things, Madam Chairman, 
that I don't think any state can meet either staff or equipped 
for that magnitude in that complexity of fire. I think there 
has to be a lot of lessons learned from this and I wish I had 
this opportunity about 3 or 4 weeks from now because the fires 
have barely stopped, and we are now in the process of 
critiquing, evaluating, and what went well, and what didn't go 
quite so well.
    I will say that it was a classic example of good working 
relationships between, local, State, and Federal agencies. We 
had personnel in the state from every state except two, and 
most of those probably except for the southeast were Federal 
employees. We had about 5,175 out-of-state people in Florida at 
one time or another during this siege.
    Bringing in those people and that equipment is a challenge 
of monumental proportions. I think there needs to be a better 
coordination between the ordering agencies to be sure that the 
right equipment is ordered. I think it also needs to refine the 
process so that there is not duplication, for example.
    In Florida, if you say I'm going to send ten dossiers, you 
really haven't helped me. You've got to send me ten dossiers 
that are low-ground pressure, white track. So, there's much 
room to refine the process of ordering to avoid duplications. 
We also had and I would hasten to say that I'm not suggesting 
that any of these are major problems except they just bear our 
attention. I think we need to solidify the resource-ordering 
process more closely than we have in the past so that we 
centralize to avoid the duplication; to avoid the wrong 
resources being ordered. That's an area I think we can.
    Certainly within the State of Florida, there's some things 
that we will do different, but I think also, Madam Chairman, 
that this is a classic example of what, particularly the 
southern group of State Foresters, has been saying for a number 
of years and that is catastrophic fires are not, and should 
not, be considered unique to any one region of the country. 
It's a matter of time. It's a matter of time when any one 
region can have it and our policy, our strategies, and our 
operational designs should be developed along those lines, not 
overcommitted to any one region of the country.
    I think generally speaking because of difference in 
terrains, the difference in fuel loads that the equipment issue 
is one that is a little more regionalized than others. To have 
people expected to come to Florida--or to the southeast I 
should say, with equipment and training that is applicable to 
the west or to the northeast is not always a good fit. So maybe 
a little more diverse training would be in order for that. I'm 
sure that's true. I told someone this morning that probably the 
most common phrase I heard was ``my God, it's green. It's 
burning,'' and that's not normally heard throughout the 
country.
    The wild and urban interface, a terrific part in Florida, 
and certainly in some other states. We spent and inordinate 
amount of time, and energy, and resources steering fires around 
communities. That, admittedly, added to the acres burned, but 
each day the team set their priorities, and each day the 
priority was a protection of life, and residence, and property.
    I would also add that the working relationship between the 
State agency, and the Federal agency, and in this case, the 
Florida Division of Forestry and the U.S. Forest Service was 
excellent. Bearing in mind, when you bring in a type-1 overhead 
team, you get a big team and that's what you need at a time 
like that.
    The Forest Service, from day one and every day thereafter, 
reminded us that we were the lead agency. They were there to 
help, and I never saw that change That was generally true of 
everyone that was there. Our sister agencies and State 
Government, they did not try to second guess or preempt what 
the forest agencies thought was the best strategies. We were, 
indeed, dealing with wildfires in most cases. The local fire 
departments did an excellent job helping us protect 
communities, residences, and those type things.
    I think one of the lessons learned are reminded, it was 
probably already there, but it brought it into sharp focus that 
there needs to be a responsible, prescribed fire program. Now 
that has some issues on the other side that cannot be ignored, 
but particularly in the areas in and around communities and 
subdivisions, there has to be major fuel reduction efforts, and 
I think you will see us in the State of Florida put forth a 
great deal of effort in that regard.
    When you go Palm Coast and you see 48,000 acres of one-time 
woodland sprinkled with 5,000 homes and you see some homes 
burned and some saved, and you know there's a difference there. 
You wonder what it is. It's probably a difference and 
coincidence for sure, but fuel reduction is part of the answer 
there. There has to be more dispensibles based by the 
homeowners. They have a responsibility here.
    The wild and urban interface is an enormous challenge in 
Florida, not just in Palm Coast. We put water with our 
helicopter on 45 homes in a subdivision in southwest Florida 
earlier in the year.
    So, these are some of the things--I might have rambled a 
bit here, but we're going to fine tune these. We are going to 
critique these. I think also something for us to work on and I 
know my Federal counterparts are certainly amenable to this, 
and that is how can we be more cost effective in firefighting. 
It's not cheap. It's not cheap, but when you have life and 
property at risk, you go get the fire out and then you try to 
come back and figure out how you can do it better and more cost 
effective next time.
    So, I would, again, thank all of those who helped us in 
this undertaking. It's quite an experience. We'll get it back 
together at some point in time, and I'm not sure if it'll be 
the same old routine as far as fire preparedness goes.
    [The prepared statement of Mr. L. Earl Peterson may be 
found at end of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Peterson. That was very 
instructive and informative to us.
    I do want you to know that I have put together a bill and 
dropped it about six months ago on the urban-interface-wildland 
fire suppression, and it deals directly with this issue, and it 
was put together on the recommendation of foresters from the 
Forest Service in the field. And so, I look forward to your 
looking at it. I look forward to Florida's support on this very 
important bill. It does affect that very critical area.
    Mr. L. Earl Peterson. We look forward to doing that.
    One thing that I neglected to say. I think FEMA came to 
Florida. They were very involved. I think it was a learning 
process for them and us. I suggest that I think that they will 
be doing this. That they look more to being supportive in 
prepositioning and getting resources in place ahead of an 
urgent need, and indeed they did that in this case. It's 
something that they are not accustomed to. It was a new 
experience for them, but I will commend them for their efforts, 
but I think one of the things that we all have to do is be 
alert to the weather, the climates.
    You see, Madam Chairman, what we had here was a coming 
together of a unique situation, with drought indexes, with fuel 
loadings, with fuel moistures, with climatic conditions all at 
one time, and those fires were spotting a quarter to a half a 
mile. So, that was just a terrible situation, but I think we 
all need to be more prone to preplan, to preposition to move 
our resources closer to where the area at risk may be before 
the catastrophe occurs.
    Mrs. Chenoweth. Fire suppression is so important, but fire 
prevention is also very important.
    Mr. Peterson it has come to my attention that you even had 
to deal with some arson activities down there during those 
fires.
    Mr. L. Earl Peterson. We always have and I'm sure each 
state does a certain amount of arson activity. There was a 
period of time there that it seemed like that on a few days 
that the larger part of our starts, as we would refer to, were 
by arsonists. Then there was those fires that began--were human 
caused by carelessness, and then there was that period of time 
where the majority of were lightning caused. These fires were, 
in large part, in what we call a lightning belt. So, we had all 
of the above, but certainly arsonists was part of it.
    Mrs. Chenoweth. Thank you, Mr. Peterson.
    The Chair recognizes my colleague, John Peterson.
    Mr. Peterson of Pennsylvania. I thank the chairman.
    I would like to ask a question to Ms. Nelson. I was pleased 
to hear that you are not opposed to thinning and salvage, and 
you probably had the chance in the recent years to look at a 
number of sites where this has been proposed. Could you share 
with the Committee a site where maybe you would have blessed a 
thinning and salvage cut
    Ms. Nelson. Well, for instance, I think there are some 
cases where epidemic levels of beetles might require removal--
say it was mountain pine beetle of large diameter trees, 
certain number on a site, to prevent spread into adjacent 
stands.
    Looking at the flip side of that, for instance, the Texas 
exemption that just occurred. In that case, I would not be in 
support of removal because, from my understanding and again I 
have not visited those sites and I have just reviewed those 
materials in the record, there was no epidemic. The removal was 
intended as a risk-avoidance measure in case there were 
epidemic levels of infestations at some future time. And I 
think in balance there, the environmental damage associated 
with the salvage operation, which would occur, would outweigh 
the potential benefit at some point in the future if there did 
in fact--if the stand did, in fact, reach epidemic levels of 
southern pine beetles.
    Mr. Peterson of Pennsylvania. So you wouldn't support it 
for economic reasons? I mean, to salvage the value of the 
timber that was there?
    Ms. Nelson. Well, let me just say that I work as a 
scientist. I consult with NRDC, but I work as a research 
scientist and so I wouldn't comment on whether a sale should go 
forward for any particular reason. However, in the Texas 
example, the justification was an environmental one for forest 
health or protection of forest purposes.
    Mr. Peterson of Pennsylvania. And you disagreed with that?
    Ms. Nelson. Yes, I don't think that that was a valid 
justification at that point in time.
    Mr. Peterson of Pennsylvania. This question may not be on 
this particular issue, but I guess for perspective, you know, 
half of the soft-wood timber owned in America is owned by the 
Federal Government. Do you support greencuts for economic 
reasons or for thinning or do you support cutting of timber on 
public land, personally
    Ms. Nelson. On all public lands? You mean----
    Mr. Peterson of Pennsylvania. No, selected--I mean, almost 
all of it is locked up. There's about 20 percent that we 
actually practice forestry on of the land owned by the Federal 
Government, but do you----
    Ms. Nelson. If you're asking me whether I would support a 
zero-cut policy on Federal lands, I would say, no.
    Mr. Peterson of Pennsylvania. You don't support zero cut?
    Ms. Nelson. Yes.
    Mr. Peterson of Pennsylvania. OK, so on some situations you 
would. Is the only exception in a salvage area?
    Ms. Nelson. No, I would support thinning and fuels 
reductions as well, but I'm a little uncomfortable even 
broaching the subject because I tend to try to avoid large 
policy matters like this and just think in terms of the science 
and the ecology involved. And so, I would support the removal 
of live trees, and a thinning for fuel reduction if I felt that 
that treatment would accomplish ecological objectives.
    Mr. Peterson of Pennsylvania. OK. Last year I was out with 
the Speaker and the group that toured a number of states in the 
west and we flew over a 600,000 acre burn that had had a very 
heavy fuel load; I thought was the most devastating ecological 
disaster I had ever seen. You know, 600,000 acres where there 
wasn't anything green left; where the hillsides were sliding 
into the valleys; where the silt was unmeasurable. Wildlife not 
existent. Everything, everything had been killed. I'm sure 
insects were killed there. It took a long time to recreate a 
normal ecosystem, and I haven't seen Florida yet, but I hope 
to. When you have that kind of a fire, some may call it 
natural, but there's nothing much natural left when the fuel 
loads high and it burns with intensity. It destroys all life. 
It destroys plant life. In some places I'm told the soils are 
barren for many years, and so you're going to have huge amounts 
of siltation. And the ecological system is just destroyed and, 
I think some of those could have been prevented. I'd be 
interested to know, have you ever flown over a large area like 
that?
    Ms. Nelson. Yes, I have, and I've worked in many of them. 
I've been doing forestry research for the last 10 years. I 
agree that fuels reduction is important. My concern is that 
commercial sales often exacerbate fuel problems. And so, I'm 
concerned----
    Mr. Peterson of Pennsylvania. How does that----
    Ms. Nelson. How does that work
    Mr. Peterson of Pennsylvania. I guess I don't understand 
that.
    Ms. Nelson. But what ends up happening----
    Mr. Peterson of Pennsylvania. I'm from the east. Our forest 
is different from yours. So, I understand the eastern forest 
better than I do the western forest.
    Ms. Nelson. Yes, let me explain this to you. One, of the 
primary reasons why management can have the affect of 
increasing fuel loadings and then increasing hazard from future 
fires is that slash ends up on the ground, and managers don't 
have a good way of really dealing with that because in 
commercial sales the emphasis is on removing the live tree 
bowls.
    So, for instance, if you do a thinning, and a thinning as I 
said is a vague term and all different kind of things that can 
be done, the emphasis is on removing the larger trees and in 
the west often times the most fire-tolerant trees. What happens 
is the resulting trees have thinner bark. They're, you know, 
more flammable. They're a less fire-tolerant species. The 
height-to-life crown is lower, so crowning is more like to 
happen. And there's abundant fine fuels on the ground, and it's 
the fine, slashy fuels that really are the problem with fire 
spread.
    So, those are reasons why if a thinning is not conducted 
properly and, in fact, many of the thinnings that are done in 
eastern Washington and Oregon fit the pattern that I just 
mentioned, then you end up with a stand that may be of greater 
fire risk. And even though the thinning purportedly was done to 
alleviate fire hazard.
    Mr. Peterson of Pennsylvania. Would anyone else on the 
panel like to grab that issue I mean, those of you that--I 
think you all deal with softwood forests. I'd be interested to 
hear your----
    Mr. Ferrioli. Madam Chairman, Representative Peterson, I am 
not a forest scientist, but I would like to take exception with 
a couple of comments that I've heard.
    First of all, there is a prescription that won't allow 
harvest of trees larger than 21 inches diameter at breast 
height. It's called the eastside forest screen. So, we don't 
see the removal of large timber in almost any site on the 
eastside forest.
    Secondly, the lop and scatter system of slash removal is 
very seldom used in my experience. Mostly it's bunch and burn 
which means that slash other than the large woody debris that 
left in profusion on those sites for nurse logs and for 
ecological function--most of the slash is gathered up and 
during the wet time of the year it's burned. So that we reduce 
the fuel loads for standing trees, then we reduce the fuel 
loads that would be residual fuel loads other than the large 
woody debris that serves an ecological function.
    So, it has been my experience that when we can get the 
Forest Service to do fuel-load reductions, and that is a 
rarity, that the prescriptions that are used to reduce the fuel 
loads actually do leave a far lower risk of fire. And if I 
could use a couple of photos to illustrate, this is an area 
where we have about 800 stems per acre. Actually, in this area 
it's about 60 percent dead. It was a beetle kill. There also 
was a fire that moved through here that did a lot of this tree 
mortality. This is the before picture of the Summit fire where 
the fire was in an area that was left untreated; where the fuel 
loads were not reduced. This is the after picture. This is part 
of the 38,000 acres that burned, and, as you can see, this is a 
devastated ecosystem. The ecosystem function here will be 
suppressed and reduced for generations. Fuel load reduction at 
this point in time could have prevented a hard burn, a more 
serious ecological disruption of the area. It was not done, and 
it has not been done. It's not been a regular feature of 
management in an intensive way for a long period of time. We 
really have ourselves to blame for that.
    Fire suppression for a long period of time has allowed fuel 
loads to grow in our forests--in the pine forests of eastern 
Oregon and eastern Washington. The remediation of that is not 
to run around with a drip torch and just burn everything. The 
remediation of that is careful fuel loading and fuel load 
reductions on a systematic basis across that landscape followed 
by the reintroduction of slow, low-intensity, creeping fires, 
cleansing fires. We seem to want to go from the problem that we 
have, which is fuel load increases and relatively high stocking 
levels that are stressed, immediately through the process of 
devastating fires, to a process where we've reestablished a 
fire in the ecosystem. You can't get there from here. You need 
to go through the intermediary process of reduction of those 
fuel loads.
    It seems to be a problem for many in the environmental 
community, because the bi-product of the reduction of fuel 
loads is supportive of timber-dependent communities, and the 
support of timber-dependent communities is something that's 
very close to local government. I particularly worry about 
that. I want to sustain the community. I can't sustain the 
community unless I sustain the ecosystem. I can't get income 
from the landscape unless I do fuel load reductions, and, 
therefore, there's no surplus to reinvest in ecosystem 
functions. The two are coefficient, and it seems like there are 
some folks in the world that want to completely disconnect the 
ecosystem costs which are high. Ecosystem management is 
expensive, and they want to disconnect the ecosystem costs with 
sustaining the local economy which produces the surplus for 
reinvestment. You can't take the two apart; they're 
coefficients.
    And, so I would say to you just that the fuel load 
reduction regimes that we would like to see implemented in the 
intermountain west would, to a great degree, fire-proof our 
forests; lower the danger of catastrophic fire, and allow the 
reintroduction of low-intensity creeping fires. It seems like 
we all want to get to the same place, and that is where fire 
has an integral part in the ecosystem, but we're being 
prevented from allowing that to happen, and the intermediary 
tool is actually salvage logging and fuel load reductions.
    Mr. Peterson of Pennsylvania. Ms. Nelson, do you want to 
respond?
    Ms. Nelson. Yes, I would agree with what you said about 
your last statement about where we want to go, however, I don't 
agree that salvage and thinning will get us there unless 
prescriptions are done very differently than they are currently 
being done, and the reason is because, as you mentioned, right 
now, the Forest Service is not investing in the following up to 
the commercial activity which is dealing with activity slash, 
and I think as long as these commercial activities result in 
high levels of activity slash, then we're going to be 
exacerbating the problems that we have.
    Mr. Peterson of Pennsylvania. Mr. Peterson, is Florida that 
much different. I know it's not as old a forest, but would you 
care to respond to that?
    Mr. L. Earl Peterson. In many cases, in Florida, there is 
very little slash left in the logging operations. I believe 
that, in fact, that there needs to some organized way of 
reducing the fuel loads there, but many of our harvesting 
operations leave behind very little slash. Those that do is, 
generally, as he indicated, is piled and burned effectively in 
preparation for reforestation. So----
    Mrs. Chenoweth. Would the gentleman yield?
    Mr. Peterson of Pennsylvania. Sure.
    Mrs. Chenoweth. Thank you. I wanted to ask Ms. Nelson a 
follow up with regards to the prescriptions that you indicated 
that have not been properly employed, especially with regards 
to followup. I wonder if, for the record, you could be more 
specific about the prescriptions that you were talking about? 
What given situations do you think that there can be thinning 
and what kind of thinning and what kind of follow up?
    Ms. Nelson. Well, again, I wouldn't want to specify--I 
mean, it's hard to be specific about----
    Mrs. Chenoweth. But that's what we're asking--excuse me--
that's what we're asking you for, specifics. We can't meet----
    Ms. Nelson. Right, and that----
    Mrs. Chenoweth. Wait a minute, let me finish, please, if 
you don't mind. We can't meet your needs unless you help us 
understand specifically.
    Ms. Nelson. And I was just about to do that. It's hard in 
the absence of a landscape and a specific forest example to 
talk in general, but I would have to say is that we need to be 
focusing on removal, in general, of small diameter material 
from the forest. These are the flashy fuels. These are the 
things that are, say in, below six-inch diameter. But when I 
was talking of large, I was speaking of trees that are much 
smaller than 20 inches still fit into my large category. So, 
that is what I think the emphasis should be on: removal of the 
very small stuff out there that's the flashy fuels. I think 
that thinning and salvage prescriptions that focus on removing 
the large fire-tolerant species will only create further 
problems.
    Mrs. Chenoweth. I understand that, especially in a green 
forest, and the thinning of the smaller diameter, low-level 
fuel load is very important, but given the example that Mr. 
Ferrioli used, where there was a huge stand of diseased timber 
that had been infested with insects--bark beetle, I think he 
said--60 percent of it was destroyed. It was large diameter 
timber, and so it was very susceptible to a very, very hot fire 
that devastated stream beds, and, like he said, will take 
generations to recover. How would you recommend, specifically, 
that the Forest Service and the local people deal with 
something like this?
    Ms. Nelson. Well, I think that with bark beetle epidemics, 
they're tied to climatic factors, and they've occurred 
naturally in forests for long periods of time, and I think it's 
not possible to entirely remove mortality from bark beetle 
epidemics. In some cases, I think it may appropriate to remove 
or, say, the mountain beetle on large diameter trees to prevent 
spread into other areas, and I think it's just a case-by-case 
basis.
    Mrs. Chenoweth. So, in some cases, it's appropriate to 
remove those trees.
    Ms. Nelson. Yes. And under epidemic situations, but, again, 
I don't think it's appropriate to, in every case, focus on 
removal of large diameter trees to prevent, number one, risk of 
the infestation if there's just endemic levels, and, second, I 
don't think it's possible to completely reduce mortality from 
epidemic levels of bark beetles. I also think that we have to 
be careful about the adverse effects of removal activities 
post-disturbance. So, after windthrow or fire, these stands are 
particularly sensitive. Post-fire stands are very sensitive in 
terms of soils and sediment into streams and already taking a 
large hit, and I think we want to be very careful about 
increasing degradation of those stands.
    Mrs. Chenoweth. Are you familiar with the Knudsen-
Vandenberg funds?
    Ms. Nelson. Yes.
    Mrs. Chenoweth. And those are specifically targeted for 
restoration, aren't they?
    Ms. Nelson. Yes.
    Mrs. Chenoweth. Yes, they are. So, I think that has been 
provided for, but, Mr. Ferrioli, do you have any followup?
    Mr. Ferrioli. Thank you, Madame Chairman. Only that it's 
been my experience, again, from personal observation that fuel 
load treatments are done after recovery projects and after 
salvage removal, so that by the forester's estimation and the 
project estimation that there is no increase in risk for fire 
for reburn. As a matter of fact, part of the prescriptions 
would be to lower the fuel loading for the fires which are 
flash fuels, so that they do not present a risk. So, I'm not 
familiar with the regime that Ms. Nelson's describing. What 
I've observed for myself on the ground following green sales 
and salvage sales is that we see fuel load reductions that 
would by far reduce the risk of reburn or the risk of 
catastrophic fires.
    Mrs. Chenoweth. I do have to say that this has been 
extremely interesting to me, and while I've asked some very 
pointed questions, I do want to say--and I will yield to Mr. 
Boyd--but I do want to say that the exchange that has gone here 
has not only been interesting to me but will serve as a very 
valuable, permanent record, because until we can really 
understand how each other is thinking, can we really reach a 
successful conclusion. And I think that we're all very, very 
interested in making sure that our environment is protected for 
future generations, not only from one standpoint, but from a 
variety of balanced prescriptions and uses. So, although I have 
focused my questions primarily at Ms. Nelson and Mr. Ferrioli, 
I want to thank both of you for your very interesting and 
informative answers and for your time here.
    And before I yield to Mr. Boyd, I do want to ask Mr. Hill a 
question about the Society of American Foresters. Has your 
organization done any studies or are you aware of studies on 
the effects of fuel treatments on fire?
    Mr. Hill. The Society of American Foresters hasn't done 
studies themselves--ourselves, but many of the members are 
involved with agencies that are doing such work, particularly, 
the Forest Service. We have a position of statement on fire 
management that points to the seriousness of the urban-rural 
interface problem. But the question, directly, is no, we have 
not done any studies ourselves.
    Mrs. Chenoweth. Thank you very much. The Chair yields to 
Congressman Boyd.
    Mr. Boyd. Thank you very much, Madame Chairman. I, too, 
have found this very interesting and want to thank all the 
panel members. I don't want this to become a beat up on Ms. 
Nelson meeting, but, Ms. Nelson, I listened to your testimony, 
and it's obvious to me that you oppose salvage operations or 
thinning or fuel treatments for reduction of fire danger; at 
least I've been unable to gather from your comments any 
specific instances where you would think those were OK. But 
what I do want to do here is tell you that in your remarks you 
describe the results of study of the Bear-Potato Analysis Area 
by the Wenatchee National Forest--I have a copy of that study 
here. Is that the study was referenced?
    Ms. Nelson. I can't see it from where you are, but----
    Mr. Boyd. The Environmental Assessment Bear-Potato Analysis 
Area of the Tyee Fire Recovery Area?
    Ms. Nelson. Yes.
    Mr. Boyd. OK. You cited only one portion of that study; the 
part that compared the effects of fuel treatment with no fuel 
treatments in areas that had not been harvested. Then, you 
concluded that harvest treatment may increase the risk of fire 
damage, but since you were describing non-harvested areas, your 
conclusion appears to be misleading, if not, inaccurate, and I 
want to read to you the conclusion that the Forest Service 
wrote in the study that you quoted from: ``From this initial 
review of harvest fuel treatment on the fire effects of the 
Tyee fire, there may be an indication that harvested land had a 
better chance to burn black when compared to non-harvested 
land. However, the reader should be reminded that many factors 
were not included in this review; factors like the timing of 
the fire; intensity of the smoke column; weather; type of fire; 
head or backing fire; terrain; aspect and slope are all impor-

tant in the resulting fire effect on a piece of land. This 
review only considered whether an area was harvested or not or 
fuels treated or not.'' And it continues: ``However, since a 
treated and non-treated harvested area from the same time 
period--1971 to 1994--would have an equal possibility to be 
burned at roughly the same time, the figures in table 2--which 
you did not cite--are a good indication''--I'm still quoting 
from the conclusions--``are a good indication that fuels 
treatment in a harvested area did reduce the fire effect.'' Let 
me say that again: ``The figures in table 2 are a good 
indication that fuels treatment in a harvested area did reduce 
the fire effect.
    What is not as clear, however, is whether a harvest itself 
influenced fire behavior in any way. Perhaps, the largest study 
that included modeling weather, time of day, et cetera, could 
more accurately answer this question, but this is the best 
conclusion possible given the time and the resources for this 
study.''
    Madame Chairman, I would submit a copy of this 
environmental assessment that was quoted----
    Mrs. Chenoweth. Without objection, so ordered.
    [The information may be found at end of hearing.]
    Mr. Boyd. [continuing] for the record, and I would also 
say, Ms. Nelson, that on several occasions I've heard you refer 
to the science and technology on at least a few occasions I've 
heard you refer to being a scientist, and I would submit to 
you, Ms. Nelson, that a scientist would not come before this 
congressional committee and cite a scientific fact, just a 
portion of an environmental assessment to draw a certain 
conclusion, and I'm very sorry about that. I yield back.
    Mrs. Chenoweth. Thank you, Mr. Boyd. With that, I want to 
say this panel is excused. Thank you very, very much for your 
time and all the effort that each and every one of you have 
made to be here. You have been before the panel for nearly 2 
hours, and I very much appreciate the expertise that you've 
brought to the record.
    The Chair now asks that Chief Mike Dombeck, Chief of the 
U.S. Forest Service in Washington, DC; Mr. Robert Joslin, 
Deputy Chief, National Forest Service in Washington, DC, come 
forward along with Rhey Solomon, Deputy Director, Ecosystem 
Management, Forest Service, U.S. Department of Agriculture, 
Washington, DC. It's my understanding, Mr. Solomon, that you 
are simply accompanying Mr. Joslin and the Chief, right
    Mr. Solomon. To my knowledge, yes.
    Mrs. Chenoweth. You do not have a prepared testimony.
    Mr. Solomon. I have no prepared testimony.
    Mrs. Chenoweth. Welcome back. It's been a long time since 
either one of you have been before the Committee, and we are 
looking forward to your testimony on this particular issue, 
and, as usual, we ask that all witnesses be sworn in. So, I 
wonder if you might stand and raise your hand to the square?
    [Witnesses sworn.]
    Chief Dombeck.

   STATEMENT OF MICHAEL DOMBECK, CHIEF, FOREST SERVICE, U.S. 
           DEPARTMENT OF AGRICULTURE, WASHINGTON, DC

    Mr. Dombeck. Thank you, Madame Chairman. I'd like to start 
by saying to Congressman Boyd and our State forester, Earl 
Peterson, I just really commend the heroic efforts of the 
citizens of your State, the State employees, and the many 
Forest Service employees, BLM employees, and other Federal fire 
fighters that participated in the really tough situation you 
had in your State, and I think it's just absolutely phenomenal 
that they did the job that they did with a minimal amount of 
human injury and under the tremendous loss we had, and I think 
that demonstrates the effectiveness of the skills of our 
employees, and the fact is we in the United States do have the 
most effective and efficient wildland fire-fighting mechanism 
in the world. The incident command system is something that's 
been emulated and used in many, many cases, and it's something 
that we need to continue to improve upon and analyze every 
situation which we do.
    Now, to the topic at hand: environmental analysis and NEPA 
compliance in emergency situations on national forest system 
lands, and my written testimony incorporates the concerns and 
comments of both the Forest Service and the Bureau of Land 
Management. As has been stated here numerous times, the 
National Environmental Policy Act is our basic national charter 
for protection of the environment. It establishes policy, sets 
goals, and provides the means for implementing policy. The 
regulations issued by the Council of Environmental Quality in 
1978, which implement NEPA, provide for alternative 
arrangements to the normal NEPA procedure in emergency 
situations.
    The Forest Service and CEQ have used emergency provisions 
in the CEQ regulations three times, and BLM has used the 
alternative situations five times, and we're prepared to 
discuss those Forest Service situations if you wish, Madame 
Chairman. Generally, alternative arrangements are initiated 
where a clear emergency to human health, safety, or the 
environment is present, and the actions proposed is 
environmentally significant as defined by the CEQ regulations. 
Often, actions proposed to be taken in emergency situations do 
not arise to the environmental significance level, and, 
therefore, do not require alternative arrangements. For these 
situations, the Forest Service follows its normal NEPA 
procedures.
    The Forest Service and BLM believe that the procedures we 
use for requesting alternative arrangements to NEPA compliance 
for emergencies work. The existing authority is appropriate and 
adequate to administer our Nation's national forests and other 
public lands. We appreciate the Committee's interest in 
alternative arrangement provisions for NEPA, and we understand 
the Committee's desire to use extraordinary processes more 
broadly. We'd be happy to discuss any questions you have, 
Madame Chairman, Congressman Boyd.
    I have with me, Deputy Chief of the National Forest System, 
Bob Joslin, who not only has worked on the ground level, the 
field level of the Forest Service in all parts of the country, 
including the South, but also administers the programs of the 
National Forest System, and Rhey Solomon is our Deputy Director 
of Ecosystem Management and is our technical expert when it 
comes to NEPA, the appeals process, and those kinds of things. 
So, we hope that between the three of us, the dialogue will be 
helpful, and we can be as responsive as possible to your 
questions.
    [The prepared statement of Mr. Dombeck may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you very much, Chief. The Chair 
recognizes Mr. Joslin.
    Mr. Joslin. Madame Chairman, I did not have any statement 
to make. I come with the Chief to answer any questions that I 
can for you and the members of the Committee, and I appreciate 
the opportunity to be here.
    Mrs. Chenoweth. Thank you. Well, then I'll begin with 
questioning, and I'll direct my questions to the Chief. How 
many times has the Forest Service applied for alternative 
arrangements
    Mr. Dombeck. Three times.
    Mrs. Chenoweth. About three times. And can you cite those 
times and specific occurrences?
    Mr. Dombeck. Yes, the first situation was Bull Run Lake 
near Portland, Oregon, and the purpose of that was for 
protection of domestic water supplies. The second time was the 
situation that you mentioned in your opening statement, Madame 
Chairman, the Eighth Street fire in Boise, and the third time 
was the removal of the blowdown damage in the red-cockaded 
woodpecker habitat in east Texas, and that was a situation 
where I personally toured to view the work in progress and was 
very, very pleased with what I saw just a few months ago.
    Mrs. Chenoweth. As you know, NEPA was written with the 
understanding that there are times when expedited processes are 
needed. Also, the National Forest Management Act was written 
with that in mind and even uses mandatory language that 
requires the Secretary to move through the processes so we can 
remove the timber that can create an explosion of disease or 
insect infestation. And this is just common sense.
    What doesn't make sense to us is that the Forest Service 
doesn't see the need to ever use these expedited processes 
other than the three cited that were allowed for in the law. 
Apparently, there must be some reason, and we need to be able 
to try to resolve this, because, as I review the law, the law 
says the Secretary shall do certain things, and I know it's 
frustrating for you, Chief, not to be able to see your agency 
move quickly. We've had discussions about this, and I know how 
you feel, I believe. Would you state and advise us, for the 
record, why you're unable to follow the NEPA requirements as 
well as NFMA requirements for moving very quickly?
    Mr. Dombeck. Well, let me answer that question in a couple 
of parts. Concerning the alternative arrangements, as I 
understand it--and Rhey is more of an expert in this area--that 
the criteria that are used are the threat to human health and 
safety and violation of law is the two criteria that we apply 
when we ask for alternative arrangements. The second part of 
the question regarding the slowness of the process, I think we 
have to go a long way to find anyone that isn't somewhat 
frustrated by that, and I have continually instructed the 
Forest Service, and, in fact, of my time as a BLM employee, 
likewise, that BLM--we have to be relentless about simplifying 
the procedures that we have. That doesn't mean that they be 
simplistic or not based on science or in any way not comply 
with the letter of the law from the standpoint of NEPA or the 
public involvement process and that type of thing. And this is 
something that there has been progress made in some areas, and 
I would cite one example and that's the section 7--rather, the 
consultation process with regards to the Endangered Species Act 
when Jack Ward Thomas was Chief and I was the Director of BLM. 
We gathered and looked for alternatives to streamline that 
process, and, basically, what we did in that situation was took 
a process that was a serial process and changed it to a 
parallel process, and it reduced the time frames by almost 
half. And, in fact, as a result of that effort, we reduced the 
backlog of ESA consultations by--a backlog of about 1,200 
consultations to 0 in just a matter of--what's it, about 2 or 3 
years, Bob?
    Mr. Joslin. Yes.
    Mrs. Chenoweth. And, Rhey, I wanted to ask you since the 
Chief referred to you and with your permission, Chief.
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. The Chief made mention of the two 
criteria--human health and life--and adhering to existing law 
as the criteria under which the Forest Service moves ahead on a 
expedited basis, and I'm specifically referring the National 
Forest Management Act in section 1611. Let me read that into 
the record, because it says nothing in the subsection of this 
section: ``Nothing in subsection A of this section shall 
prohibit the Secretary from salvage or sanitation harvesting of 
timber stands which are substantially damaged by fire, 
windthrow or other catastrophes or which are in imminent danger 
from insect or disease attack. The Secretary may either 
substitute such timber for timber that would otherwise be sold 
under the plan or, if not feasible, sell such timber over and 
above the plan volume period.''
    Now, it seems under existing law that we've moved to other 
law and forgot the existing law that the Congress passed in the 
Forest Management Act. Can you help explain that?
    Mr. Solomon. Well, Madame Chairman, in response to that, 
the way the Forest Service and all agencies in government have 
implemented the procedures of NEPA is we believe that we can do 
better decisionmaking by looking at environmental 
considerations that NEPA requires us to look at and integrated 
that into our processes. The provisions under NEPA that require 
the emergency provisions are really aimed for immediate 
emergencies and only working with the Council on Environmental 
Quality for the immediate problem of that emergency, and----
    Mrs. Chenoweth. Mr. Solomon, I asked you about the National 
Forest Management Act, and you're talking about another Act. I 
read to you from the Forest Management Act and asked you for 
your opinion with regards to what I read. It gives a clear 
indication that you can move ahead. I don't want to interrupt 
your thinking, but I want us both to be focused on the same 
thing, and then we can move to whatever else you'd like to 
focus on.
    Mr. Solomon. And we believe we can move with compliance 
with that law through the normal NEPA process.
    Mr. Dombeck. I'd like to add to that and that we do grant 
emergency exemptions of stay from the administrative appeals 
process, as was the situation with the Summit Fire, and I will 
agree that that is a situation that--in fact, the regional 
forester is looking at very, very closely as to the 
instructions that Regional Forester Williams gave them out 
here, as he told me, was the fact that we've got to get this 
moving as quickly as we can understanding that it's a situation 
that's beyond us, but then take a very close look at that 
situation and what could have been done differently, as we will 
be involved in similar situations in the future. So, I would 
just add that we do grant stay for administrative appeals on 
occasion for emergencies, specific situations.
    Mrs. Chenoweth. Like what kind of emergencies?
    Mr. Dombeck. Well, the Summit was an example, and I might 
ask Bob if he might be aware of other situations.
    Mr. Joslin. In particular, the Summit situation, the 
regional forester had come in and requested exemption of the 
stay that we have in effect which is up to a 45-day timeframe 
after the decision is made, so that they could go ahead and get 
on with that project and not go through another winter and 
another spring run-off as they already had to do as a result of 
what happened. So, rather than the--the forest supervisor also 
requested that, and, as a result, we agreed with him and 
granted him that exemption of that stay process.
    Mrs. Chenoweth. Senator Ferrioli showed us some very 
telling and graphic pictures of a bark beetle kill over 60 
percent of the standing trees, obviously, had already died from 
bark beetle, and it doesn't take a rocket scientist to realize 
that even the green-appearing trees had been infested with bark 
beetle. Why are we not seeing--in terms of prevention of 
catastrophic fire and destruction to the watershed--why aren't 
we seeing more implementation of 1611 prior to fires occurring?
    Mr. Joslin. Well, one of the things that we've talked about 
with you before--and I think that he explained that very well--
that we have 40 plus million acres out there at risk of 
national forest lands that we do need to be taking a look at to 
see what we can do as far as reducing those fuels as he so well 
laid out in the Summit situation.
    Mrs. Chenoweth. But, Mr. Joslin, I'm growing increasingly 
impatient with this agency just taking a look, while our 
forests burn. I mean, I have been hearing that for years, and I 
see no on-the-ground change. You have had my personal respect, 
but I am saying to you that this--I am, personally, and this 
Committee is growing increasingly impatient with the fact that 
all we hear from those who may presumably oppose active on-the-
ground fire prevention techniques, we're going to study it 
more; we want to look at it. We can't have that in this country 
any longer, because this agency has been given one of the 
Nation's most valuable resource, and we're losing it. I mean, 
Mr. Ferrioli testified to the fact that to fight that fire cost 
$25 million. He testified to the fact that when you add the 
environmental studies and the legal costs and so forth, that 
fire, alone, cost $30 million. Now, if you had to bear the 
burden of all of that on timber sales, your timber sales would 
look even worse than they do now, and it must be a source of 
embarrassment to see that the timber fund is now in the red, 
and we're not even applying all that could be applied against 
the timber fund sales. I don't mean to sound impatient, but I 
am. I want to see on-the-ground activity. I mean, out in the 
Northwest and now down in Florida, we are hurting. We have 
hundreds of thousands of acres of burned timber; hundreds of 
thousands of acres of devastated timber. What used to be 
magnificent stands of green timber that protected our 
watersheds and our streams are now being destroyed because of 
an inability to crash through and do exactly what the Congress 
said we should do; not rearrange what the Congress but exactly 
what the law states very simply that should be done.
    Mr. Joslin. Madame Chairman, if I could, and I'd refer to 
Congressman Boyd's State of Florida and Earl Peterson, we have 
three national forests down there--we mentioned the Osceola and 
Appalachicola, and we also have the Ocala--and Congressman Boyd 
mentioned the acreages burned down there. I think that the 
Ocala National Forest is probably had more management for a 
longer period of time than any of the other national forests. 
Those things are going on there. We had a total, I believe--and 
Earl can probably verify that--383 acres is all that burned 
there, and I think if you have an opportunity to see that 
forest that it is one that's had some intensive work done as 
you're referring to. So, I understand your impatience. We have 
that impatience too, but there are some places where we are 
doing some of those things.
    Mrs. Chenoweth. Well, I look forward to seeing more results 
also in the Northwest.
    Mr. Dombeck. Madame Chairman, I'd like to just make a 
couple of points that I think are important--Senator Ferrioli 
also commented on this--and that's that our fastest growth 
program is fuels treatment. In fact, we've gone from treating 
about .5 million acres a year to a 1.5 million acres a year, 
and we're ratcheting up our skills and pushing the budget in 
that direction and have had good support for that from the 
environmental community as well as the timber industry to do 
the thinning work, and we'd like to be up to about 3 million 
acres per year on the national forest system lands.
    So, it's a program that we're not just looking the other 
way. We're continuing to push that, although there's a level of 
impatience there that we're not moving fast enough, and the 
magnitude of work in the urban wildland interface is very, very 
important. What we have to do is we have to do it in a way 
where we can maintain and build credibility and build a support 
base and move toward lighter on the land technologies. People 
are more and more opposed to soil disturbance activities, and 
the industry and the agency and other entities continue to see 
great strides in improvement of technologies, and we've got to 
increase the rate of application.
    Mrs. Chenoweth. Chief, I'd have to share with you and share 
on the record the fact that each individual forest used to be 
responsible for making sure that the fuel load was reduced in 
their forest plan and that disease and insect infestation were 
taken care of. But when we have centralized planning and we 
have goals involving a certain number of acres and we expand 
those goals, that takes the authority away, it would appear, 
from the unit managers, that they are not able to implement the 
necessary programs that would prevent the emergencies that 
we're now dealing with. The horse is probably out of the barn 
in many of these areas, and, like Senator Ferrioli testified, 
it's going to take generations for, even with active 
management, for the forest to be rehabilitated. And I think 
part of it comes back to the fact that, Chief, you testified in 
your statement, you stated that rarely do these events 
constitute an emergency. Since the law is so clear as to what 
must be done and it isn't even--it's mandatory language; it 
uses the word ``shall.'' When you're involved in windthrow or 
disease or insect infestation or burns. The law has dealt with 
those as an emergency, because it gave you the expedited 
ability. What do you--don't you agree with that or what do you 
believe constitutes an emergency?
    Mr. Dombeck. Well, as I indicated earlier, I believe the 
definition of emergency--and let me ask Rhey to verify this--is 
basically derived through the NEPA process. Is that correct
    Mr. Solomon. It's been derived by----
    Mr. Dombeck. And by CEQ regulations.
    Mr. Solomon. [continuing] by the 30 cases that CEQ has 
approved over the years have helped define what the nature of 
what they define as an emergency under the definition of NEPA.
    Mrs. Chenoweth. You know what we've seen here is through an 
agency that was not created and authorized by the Congress, 
we've see case law at whatever level of the courts that may 
have been rendered defining what an emergency is when the 
Congress defined already, and I just read it to you in 1611 
when and how you must move in an expedited procedure; 1611. It 
is so clear, and it's being ignored, and my frustration, Chief, 
even with your legal folks, this is not pushed in terms of 
defending the Forest Services actions such as on the Malheur 
when they needed to get in and get that destroyed timber out. 
We're not seeing it come from the legal folks in terms of the 
defense that is needed, and when we start relaying decisions 
emanating from CEQ or other laws and ignore what is directly 
written as your responsibility, no wonder we lose in court, and 
no wonder we compound the problem. It creates so much 
frustration, I know, for you as well it does for me.
    I'd like for you to take another look at this 1611 Rhey, 
and I would like to meet with you on it and discuss it with 
you.
    Mr. Solomon. I'd gladly do that.
    Mrs. Chenoweth. Congressman Boyd.
    Mr. Boyd. Thank you, Madame Chairman; I can't wait. First 
of all, I think, gentleman, I know that we'll welcome you here, 
and I know that you're the messenger more so than the 
policymaker in this case. I want to disclose for all here some 
of my biases on this issue, and I want to do that by way of 
telling you what our situation is in the second congressional 
district or in north Florida. Mr. Joslin referred to three 
national forests in Florida which I'm all intimately familiar 
with; two of them reside in the district that I represent, and 
I worked for a couple of summers in college in the other in 
Ocala National Forest. Mr. Joslin, it's a beautiful area. It 
has some wonderful natural springs, natural resources in it 
that I spent many days, hours swimming and diving in.
    But the Appalachicola National Forest is totally contained 
within the Second Congressional District that I represent. It's 
about 565,000 acres of forest land. Actually, it was private 
land in the early 1900's; it was totally cut over, timbered 
out. The Federal Government bought it, and over the last 75 
years or so--I don't know those exact numbers, but I assume 
it's about 75 years--has rebuilt and regrown into a wonderful, 
wonderful national forest that contains the world's largest 
populations of red-cockaded woodpecker, and many of us are very 
proud of that.
    The Osceola National Forest is about 157,000 acres around 
Clean Lake City in Jacksonville. About half of that is 
contained in the Second Congressional District, and it contains 
probably the largest population of black bear left in the State 
of Florida which we also are very proud of and we manage and 
protect very carefully. Having said that, I can tell you that 
some of the practices we put in place in the last few years, 
after we established the world's population of the red-cockaded 
woodpecker, then we began to change the silvicultural practices 
which enabled us to establish that, and mostly had to do with 
how we managed that forest, and, as we were making those 
changes, which, actually, were ratcheting down the cutting, 
timber cutting, almost to zero, we did two things to alleviate 
the hardship on the local government. Obviously, there's 
several hardships, one has to do with ad valorem taxes to that 
government in which they fund their local governments and their 
schools, and the other, of course, is the economic activity in 
the local community.
    We did two things: we put in place a PILK Program, Madame 
Chairman--which I'm sure you are familiar with, the payment of 
lower taxes--which works fairly well, but we also put in place 
a 25 percent program which we said to the community to replace 
what we've taken away from you, we're going to give you 25 
percent in revenue of what we cut off of that land. Well, guess 
what over a period of a few short years after that, we 
ratcheted that cutting down to almost zero, and so it's our 
school system which was collecting--I have a school system 
which probably has 1,000 students in it, very small; maybe 
1,500. Ten years ago, it was collecting in the neighborhood of 
$400,000 and now collects about $50,000. It's a very 
significant impact on that school system. So, I say that only 
to lay out my biases relative to some of these issues.
    Now, Chief Dombeck, if I could, go to a question and that 
is the specific criteria that must be present for you to apply 
for an alternative arrangement under NEPA--and I think you've 
answered that there was three instances that must--one of three 
that must exist: human health issues, human life, or a 
violation of law. Did I get that right
    Mr. Dombeck. Yes.
    Mr. Boyd. OK. And that's been applied for three times, I 
think you answered, in the history of its existence.
    Mr. Dombeck. Yes.
    Mr. Boyd. What was the Texas situation I mean, which one of 
those criteria was present to enable us to use the alterative 
arrangement in the Texas windstorm earlier this year
    Mr. Dombeck. I believe two of the three. No. 1, in working 
with the Fish and Wildlife Service on the red-cockaded 
woodpecker situation, we would have received the jeopardy 
opinion on damage to that habitat if the trees would not be 
removed, and, second----
    Mr. Boyd. Let me interrupt you there. That you would have 
received damage to the RCW population
    Mr. Dombeck. That's correct.
    Mr. Boyd. And, so that would fall under a threat to human 
health, human life, or a violation of law?
    Mr. Dombeck. Violation of law.
    Mr. Boyd. So, it doesn't have to be mankind violation of 
law, it could be God's violation of law. Is that what I hear 
you saying?
    Mr. Dombeck. Well, I believe, I would interpret that to be 
the our ability to apply a management action to mitigate a 
situation; in this case, to avoid a jeopardy opinion on the 
red-cockaded woodpecker.
    Mr. Boyd. OK. Even though the fact that it was a disaster--
what we call an act of God, I think would be the proper term--
that would fall under your category of violation of the law. Is 
that what I hear you saying And that was the criteria you used 
to apply there to make sure that we got this done.
    Mr. Dombeck. I'm not going to be the one to pass judgment 
on an act of God and a violation of law, but the fact is that 
the management activity that we could apply could enhance red-
cockaded woodpeckers habitat or prevent damage.
    Mr. Boyd. What was the second criteria?
    Mr. Dombeck. The second criteria was safety from the 
standpoint of the roads were basically impassible and with all 
the trees that were down. So, there was the need to get in 
there and to clear trees from the roads, so the roads would be 
passable.
    Mr. Boyd. But safety wasn't one of the three criteria--I'm 
sorry; didn't mean to interrupt.
    Mr. Dombeck. From the standpoint of human safety.
    Mr. Boyd. Human safety wasn't one of the criteria that you 
mentioned. I don't know if those are written in stone or 
written in regulations or law or what, but human health, was 
that----
    Mr. Dombeck. Health and safety.
    Mr. Boyd. OK, health and safety. Well, I'm very pleased 
that the folks in Texas had that opportunity to do what would 
seem to be the naturally right thing to do and that is go in 
and salvage and rehabilitate the forest area, but it seems like 
we certainly stretched the application of the criteria in that 
example, and it just leads me to wonder if we shouldn't revisit 
the criteria themselves and figure out if there are not other 
situations, for instance, the forest; the burns that we've had 
in Florida. And my next question really leads to that. Do you 
see any of those criteria that we can use to apply the 
expedited process in Florida, so that we don't lose the salvage 
operation
    Mr. Dombeck. Well, what I would do is I would rely on 
Marcia Carney, the Forest Supervisor, and the district rangers 
that work there to make that determination and then to come 
forward if they believe that emergency exists.
    Mr. Boyd. OK. Well, that gives me some comfort, because I 
had an opportunity--she's new, as you know, in our State, and I 
had an opportunity to spend some time with her last weekend, 
and I think she's a very professional and reasonable person who 
will consider all of the criteria.
    We had 20,000 acres burn--Madame Chair, do I have 
additional time? We had about 20,000 acres burn in each of our 
national forests. In the Appalachicola, actually, it was all 
wilderness with the exception of about 15 acres, as you know. 
It's interesting how that came about. Actually, those two fires 
started simultaneously on the same day, and we went in the non-
wilderness area with our--you did with your equipment and put 
that fire out, and it burned 15 acres. On the wilderness side, 
you couldn't go in to prevent--to stop the fire, and, as you 
know, it burned up about 20,000 acres of the wilderness, and my 
question is this: Is that what we anticipate or want to do with 
our statutes relative to the wilderness or do we have any 
waiver process relative to the rules in our wilderness like we 
do with the alterative arrangement that would allow us to react 
to that kind of situation to prevent the fire from spreading 
throughout the whole wilderness or do we consider that natural 
and we're comfortable letting it go ahead and burn?
    Mr. Joslin. Congressman Boyd, what we've done in the 
wilderness, in particular, Florida's been a leader in that, 
because the State forester, Earl Peterson, and his folks, and 
the U.S. Forest Service have a long history there, and 
prescribed fire and fire management, as you well know, has been 
an important part of the ecosystem down there. We have plans 
for each one of those wilderness areas that spells out how 
we'll deal with fire; whether if it's a man-caused fire, we'll 
deal with it one way; if it's a natural fire that's caused by 
lightening may be dealt with another way, but there are always 
provisions there. If we're having threats to external areas, 
the fire going outside of the wilderness, prescriptions are all 
set up there, and there are provisions, yes, if we need to get 
in there with caterpillars or whatever we need to get in there 
as far as suppression; that are provisions that the regional 
forester can authorize their use in connection with fire 
suppression activities in a wilderness.
    Mr. Boyd. If I might, Madame Chairman, continue? You do 
have a legal authority to weigh those rules.
    Mr. Joslin. Yes, we do.
    Mr. Boyd. Do you have any indication of whether this was 
man-started in the Appalachicola National Forest or was it 
natural?
    Mr. Joslin. I do not know that. We can find that out, but 
I, personally, I don't know whether that was created by 
lightening or it was arson or----
    Mr. Boyd. Well, let me answer what I believe, and this is 
from having talked to the people that are on the ground down 
there and the location that it started. Both of those started 
on the highway, and they're reported to be arsonist, arson-
started, and, of course, on one side the road was non-
wilderness and the other side was wilderness, and we had 15 
acres burn in the non-wilderness and the 20,000 acres burn in 
the wilderness. So, I don't have clear proof that it was 
arsonists, but the people who are there fighting the fires say 
that that's what it was.
    Mr. Joslin. Well, I'm sure that they have conducted an 
investigation there to try to determine the cause of it, but, 
as I say, I personally don't know. I haven't talked with anyone 
or seen----
    Mr. Boyd. So, does your flexibility in the rules that you 
have, when it's man-started does it allow you to--is that the 
situation where you would be allowed to take the equipment in 
to stop it?
    Mr. Joslin. Where it says started by man, we would take 
aggressive action to suppress that fire.
    Mr. Boyd. But that wasn't done in this case?
    Mr. Joslin. Now, I don't know whether it was or wasn't.
    Mr. Boyd. And that really brings me to a point. One of the 
things that I have learned and I've become convinced of after 
talking to the people on the ground and Marcia Carney and 
others, is that we really need to give our folks on the ground 
more authority to react quickly, and, obviously, you're going 
to have to react very quickly in that case, because that fire, 
I think, burned about 4,000 acres the first day. But we really 
need to give them more authority, and one of the things I would 
encourage you and Madame Chairman, this Committee, to work on 
is to make sure that our people on the ground have more 
authority to react quickly in those kinds of emergency 
situations.
    Madame Chairman, I'm sure I have other questions, but I'm 
going to stop there in the interest of time.
    Mrs. Chenoweth. Thank you, Mr. Boyd. I do want to let you 
know you are welcome to submit to us any questions you would 
like for us to submit to the witnesses. We usually keep the 
record open for 10 working days. And, so I'd be happy to work 
with you on that.
    Mr. Boyd. Well, thank you, Madame Chairman, on behalf of 
the people that I represent who are really taking a beating in 
some of the counties where 75, 80 percent of their land is in 
the national forest. Sometimes, I don't want to go home on the 
weekends, because I know what's going to happen. They're going 
to beat on me. I get beat on every weekend from folks are 
affected by the activities or they go on in the national 
forest. And we really are proud of the world's largest RCW 
population, and we need to protect that, but we also need to 
take into consideration the needs of the humans who live in 
that area and who helped rebuild that forest from the time that 
it was cut 75 years ago. So, I'll close with that.
    Mr. Joslin. Congressman, if I could, I know that Liberty 
County is one of those down there in your area that's heavily 
impacted.
    Mr. Boyd. Well, I'm grateful that you know about Liberty 
County, because you're right. That's a county that I don't go 
into that I don't come back with many battle scars, wounds.
    Mrs. Chenoweth. I do want to also mention and announce that 
this Committee will be holding hearings in Florida on the fire 
suppression, fire prevention activities that are needed. And, 
Mr. Boyd, I want to invite you to be a part of that process. 
You are more than welcome to join us in your area and we're 
there to make sure that we hear from your constituents as well. 
So, thank you for joining us today.
    I wanted to ask the Chief, it's my understanding the Forest 
Service wins 98 percent of all appeals upon administrative 
review. Isn't that correct, about 98 percent?
    Mr. Dombeck. Let me ask Rhey.
    Mr. Solomon. Madame Chairman, are you talking about the 
appeals that are reversed or remanded v. those that are upheld? 
Is that what you mean?
    Mrs. Chenoweth. I'm talking about those that are upheld.
    Mr. Solomon. Yes, it's about 90 percent of those, now, are 
upheld by the reviewing officer at the higher level.
    Mrs. Chenoweth. And, then, of those 2 percent that go on up 
and are appealed on up, you win about 98 percent of the 2--or 
you win about 98 percent of those cases in the higher courts 
too.
    Mr. Solomon. Well, no, I'm talking the administrative 
appeal process which is different than the litigation, the 
court process.
    Mrs. Chenoweth. I understand, Mr. Solomon, that it is 
different. I had moved from the administrative process. Of 
those 2 or 10 percent that are then appealed on into the court 
system, the Forest Service wins about 98 percent of those cases 
appealed into the district courts or on up into the higher 
level of the appellate courts.
    Mr. Solomon. No, those are not the statistics that I have 
seen. The ones I have seen of recent cases is more around 60 
percent.
    Mrs. Chenoweth. That's still not a bad win ratio, and, 
golly, with that in mind, I used to work on cases also before I 
came to the Congress. That's not a bad win ratio, and it makes 
me wonder why the Forest Service is so reticent to challenge 
the legal challenges that are threatened. For instance, in the 
Oregon situation, we've had the same type of situations in 
Idaho. We're seeing it all over. Why is the Forest Service so 
reticent to move ahead under 1611 or under the authority that 
Congress have given because of a threat of lawsuit Why aren't 
you being more aggressive in defending the law and defending 
your agencies?
    Mr. Dombeck. I would like to see the specific numbers 
myself, because I have not seen them recently. But what we see 
is that we see the most controversial come to the surface. As I 
look at the number of decisions that are made, for example, 
through the NEPA process each year, we have over 13,000 
decisions are made either through the environmental impact 
statement process, environmental assessment process or 
categorical exclusion process. In fact, I appreciate the 
compliment, because like Congressman Boyd, some days in the 
Natural Resource Management business, we don't get many 
compliments, but the fact is we do have a good track record on 
the decisionmaking process, and the ones that come to the 
surface are really the ones that are the most controversial, 
and we need to focus on those and try to bring a resolution on 
those as well.
    Mrs. Chenoweth. Chief, I know the feeling. There are some 
days even Congressman just all we hear are the complaints. So, 
I certainly can sympathize with that, but in Senator Ferrioli's 
testimony he said that with regards to the fire that he 
testified to in the Malheur--no, it was on the Malheur, yes--
that the litigation that was brought in was, I think he termed 
it cookie cutter; you know, a 32 cent stamp type of appeal. 
And, so since the Forest Service deals probably in a large 
number of these, each one--I guess, common sense would just say 
you'd be getting used to dealing with some of these cookie 
cutter-type objections that come in. Isn't that true?
    Mr. Dombeck. Well, I guess I relied on the judgment of the 
regional forester and the staff in Oregon on that decision, but 
I'm not sure--do you have any additional information on the----
    Mr. Joslin. I would say that what he referred to on the 
stamp was in regard to a filing of the administrative appeals, 
and in that particular case, it was the judgment of the 
regional office folks that there were some significant gaps in 
the initial environmental impact statement that was prepared 
and that the regional forester felt that the folks needed to go 
back and boost that up, recognizing full well that we'd have to 
go through a winter and a run-off as we have suffered so far 
going through but recognize that in order to make that decision 
that he would need to do some more work on it. So, that's where 
it came out back to the forester supervisor for redo.
    Mrs. Chenoweth. While I haven't had a chance, and normally 
you wouldn't you expect me to review your pleadings, 
nevertheless, in section 1611, subsection b, as I read into the 
record, the law clearly defines fire as being a catastrophe 
which is an occurrence that rises even beyond an emergency. 
It's a catastrophe. And then in the next line where the law 
deals with insect and disease attacks--attacks of disease and 
insects, it's a lower standard. But the law is pretty clear 
about how the Forest Service should deal with fire. It defines 
it as a catastrophe, and so, I guess that's why I get very 
frustrated, and I think we heard the frustration from Senator 
Ferrioli that we just hear, ``Oh well, we have to stop all the 
presses and stop everything from moving ahead and restoring to 
the sustained yield standard that the law requires; that we 
must under Knudsen-Vandenberg funds and authority begin to 
restore the forest,'' everything comes to a screeching halt, 
and the law could not be more clear, and whether we are 
pleading the law or what, I don't know, but based on your track 
record and based on the clarity of the law and the standard by 
which the law declares fire to be, we should be moving ahead 
not with carelessness at all, but with, I think, more 
determination.
    And I think that I'm just reflecting the frustration that 
we're all beginning to feel, and I hope that in Florida they 
don't have to go through the frustration of not seeing 
restoration projects and removal of fire destroyed timber and 
the years of having to face that everyday. And then you guys 
have to come up here and face me and the Committee. But my 
frustration level is growing much, much more intense, and I 
guess I would like to ask the Chief why the Texas situation was 
so different. It was windthrow which is not described in the 
law as catastrophic; fire is. But windthrow, this was a 
situation, and there was some windstorm and ice, disease and 
insects, of course, did set in eventually, but why was that 
dealt with differently than the other situations that we all 
have to face?
    Mr. Dombeck. Well, let me just repeat the two criteria that 
I talked about with Congressman Boyd. The human health and 
safety. The human health, in this case, windthrow, roads 
blocked throughout a fairly extensive area where people lived 
and they have to get into those areas. Secondly, the red-
cockaded woodpecker situation. In a sense, the Endangered 
Species Act worked in reverse of the way most of us are used to 
seeing it work, and the fact is the way to prevent reduction of 
the red-cockaded woodpecker habitat----
    Mrs. Chenoweth. I'm giving you lots of time.
    Mr. Dombeck. [continuing] going in there and removing the 
trees around the clusters benefited the red-cockaded 
woodpecker. So, there were those two criteria, and I believe 
that's--so, there are a lot of significant differences between 
the Summit sale and the blowdown from that standpoint.
    Mrs. Chenoweth. I want to yield to Mr. Boyd, but I want to 
ask you, Chief, yes, we have the red-cockaded woodpecker down 
there, but we had steel hen; we had bow trout; we have 
endangered species all over the place in the Northwest, and the 
kind of pictures that Senator Ted Ferrioli showed us, it's 
patently obvious that that did not constitute habitat for any 
of those endangered species. In fact, the picture of the stream 
was devastating. I mean, there was no stream habitat left; 
nothing to shadow and shield those spawning salmon. Let me read 
again in section 1611 that ``Nothing in subsection (a) which 
requires that you manage the forest under a multiple yield, 
sustained yield basis--I mean, that's clear what the law says, 
and NEPA nor the Environmental Protection Act took that away. 
In fact, the Environmental Protection Act made this entire Act 
a part of that Act by reference; it didn't change it. And it 
says ``Nothing in this section shall prohibit the Secretary 
from salvage or sanitation of harvesting of timber stands which 
are substantially damaged by fire, windthrow, or other 
catastrophe, or which are in imminent danger from insect and 
disease attack, period.'' It doesn't say anything about another 
set of criteria that you, alone, are dealing with your 
decisionmaking. I mean, that seems to be the standard while the 
standard that is patently clear, and the law is being ignored.
    I don't mean to fuss about this, but as a Congressman, I 
cannot ignore this, and I think your feeling of success and 
your level of frustration would be less, feeling of success 
would be a lot of greater if we could simplify the focus of 
where your protection is. I guess I become very frustrated 
again when I see other criteria that you're making decisions 
that departs from the actual law. Chief, do you have any 
comment with regards to that?
    Mr. Dombeck. Well, the--again, I think we've said--and I 
certainly understand your frustration and can feel your 
frustration--the alternative arrangement does not circumvent 
NEPA. What it does is it expedites the activity----
    Mrs. Chenoweth. Yes.
    Mr. Dombeck. [continuing] and that's a very important 
point. The criteria for that alternative arrangement are what 
I've stated as the health and human safety, the violation of 
law criteria, and I would certainly be happy to, as the case in 
the Boise situation and the Texas blowdown situation, just like 
with the Summit situation, we're going--and the whole Florida 
fire situation that Earl Peterson commented, we're going to be 
taking a look at these in detail from the analysis and take a 
look at where are the problems. What can be done better What 
can be done different

what can we learn from this that we can apply to a situation in 
the future to avoid this kind of concerned frustration as we 
move forward.
    Mrs. Chenoweth. Let me say I'm very glad that you're going 
to do that, but I want you to apply that same criteria and 
dedication to the Malheur and the Boise and all of the areas 
that have suffered the catastrophe that we all have as defined 
in 1611. Mr. Boyd.
    Mr. Boyd. Thank you, Madame Chairman. Chief, I want to 
follow up on the Texas situation at some risk here of hurting 
my own particular situation, because what I want to ask you at 
the end is--and I want you to consider this--is there 
opportunity for us to get an expedition of the NEPA process in 
Florida and--but don't answer right now, because I want to 
address the issue in Texas again. How many acres were in the 
blowdown in Texas
    Mr. Dombeck. Let me----
    Mr. Boyd. We can turn to Mr. Joslin.
    Mr. Joslin. We had approximately 103,000 acres.
    Mr. Boyd. How many million board feet?
    Mr. Joslin. Trees blew down in various degrees.
    Mr. Boyd. How many million board feet of timber were 
harvested?
    Mr. Joslin. That's still in process. It was estimated that 
the latest estimate I got from the forest supervisors there was 
about 225 million. The sales that they have up and what two or 
three that are left to put out would salvage about half of 
that, a little over 100 million.
    Mr. Boyd. All right. Now, I want to consider this. We used 
the three criteria that you talked about. No. 1 is human 
safety, and you said the roads were an example. If human safety 
was the issue and the roads were blown over, you'd just clear 
the roads. You wouldn't go in and harvest 103,000 acres, and, 
second, the RCW. You're going do nothing for the RCW by 
removing the salvage timber, because RCW is going to have to 
have a standing tree. That RCW colony is going to have to move 
another location, and it won't be able to come back to that 
area for years until you're able to rehabilitate and reforest. 
And, so I guess I'm sort of making a case against myself here, 
but I'm making a case for having the law changed. I'm making a 
case in support of Mrs. Chenoweth's legislation here that those 
criteria--and they're not in the law evidently--need to be 
changed.
    Now, there, obviously, were political considerations here, 
and I'm sure that you're not able to--I know that you're not 
able to come forward and say that as a witness to the 
congressional panel. But what--it's just too broad of an 
application of the human safety issue to say that because the 
trees are blown down the road, we've got to go harvest 103,000 
acres, and it's too broad of an application of the RCW issue to 
say we've got to harvest because the RCW population is in 
danger. It's not going to be less endangered because you 
harvested, because those RCW, the way I understand it, at least 
in Appalachicola, they have to have a standing tree to be in, 
and you can't replace that standing tree over night.
    So, now, I want to go back to my question. Can we apply the 
alternative arrangement to the fire in Florida?
    Mr. Dombeck. Based upon the request that we get from the 
field, we'll look at every situation, so the answer to that, 
can you apply--can you request--can they request it? 
Absolutely, yes.
    Mr. Boyd. Would Ms. Carney be the proper person to make 
that request?
    Mr. Dombeck. Yes.
    Mr. Boyd. OK.
    Mr. Dombeck. What I'd like to just to clarify one point on 
the red-cockaded woodpecker situation there is now the--I'm 
everything but a technical expert of red-cockaded--a technical 
expert on red-cockaded woodpeckers, but the technical experts 
tell us--and I'd be happy to arrange a more detailed briefing 
for you on that--but the fact is that the actual removal of the 
downed trees and there's a--every, sort of, permutation of 
small areas where everything is down on the ground to where 
just there are some trees are bent over and some areas where 
there are clumps left, and it's sort of this sort of mosaic 
that they're dealing in, and when the Fish and Wildlife Service 
reviewed the quality of the habitat for the red-cockaded 
woodpecker, those kinds of things they take in a situation and 
clearly one of the criteria involved benefit to the increased 
enhancement of the survival of red-cockaded woodpecker 
colonies, and I'd be happy to arrange for a----
    Mr. Boyd. I'm no technical expert either, so we probably 
have about the same amount or lack of knowledge, if you will, 
but I can tell that they apply in cases where we've had private 
lands where we've found RCW and they came and took jurisdiction 
and that in cases where wanted to cut that timber, we had to 
physically move those RCW, because once you cut that timber or 
once it's on the ground, that RCW cannot survive there; it has 
to move. I mean, I'm no technical expert, but you don't have to 
be an expert to know that they live inside of a hole in the 
tree, and if it's on the ground, they won't survive there.
    Mr. Dombeck. Can you add to that?
    Mr. Joslin. Yes, one of the things that I just--quickly, if 
I could, Madame Chairman--one of the things there that we 
learned when we had the hurricane that hit the Francis Marion 
National Forest a few years ago was inserts that we put in 
there, because you're correct that they have to have cavities. 
We immediately started doing some of that and had birds that 
came to those. The other part that's critical over there too is 
the removal of that material to reduce the risk of fire in not 
only the clusters but also in the foraging areas, and that's 
very critical in connection with red-cockaded woodpeckers.
    Mr. Boyd. Thank you very much. I wish Ms. Nelson was still 
here to hear that, but she's, obviously, gone. No she's not, 
there she is. She slipped back in, thank you.
    Mrs. Chenoweth. Mr. Boyd. Congressman Boyd, I hate to 
interrupt you, but I have just gotten word that the procession 
for the slain officers is now crossing the 14th Street Bridge, 
and they will be arriving at the Lincoln Memorial just 
momentarily, and I know both of us are required at other 
places, and so, with that, I do want to say under these sad 
circumstances, we're going to need to adjourn the meeting, and, 
as usual, the record will remain open for

10 working days. If any of you wish to supplement your 
testimony, you are welcome to. We will be submitting additional 
questions, and I do want to let you know that the procession 
will be on the Hill very shortly. With that, this hearing is 
adjourned. Thank you.
    [Whereupon, at 12:52 p.m., the Subcommittee adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
     Statement of Ted Ferrioli, State Senator, Oregon State Senate

    Madam Chairman, Members of the Committee, the purpose of my 
testimony will be to illustrate the current, dysfunctional 
response of the Forest Service under the National Environmental 
Policy Act (NEPA) to catastrophic events, illustrated by 
circumstances of the Summit Fire, located on the Long Creek 
Ranger District, Malheur National Forest in Grant County, 
Oregon.
    The Summit fire was caused by lightning on August 13, 1996. 
Over 24 days, the fire burned across 37,961 acres of mixed 
conifer forestlands, damaging riparian and roadless areas, 
leaving a mosaic of fire-killed timber estimated at 
approximately 300 million board feet.
    After reviewing the likelihood of appeal and litigation, 
Malheur National Forest Supervisor Carl Pence ordered 
preparation of an Environmental Impact Statement (EIS), a 
costly and intensive procedure authorized under NEPA. At the 
same time, Mr. Pence elevated the Summit Fire Recovery Project 
to the top priority for the forest, set a deadline of September 
1997 for its completion and discontinued planning efforts for 
most other management activities on the Malheur. Mr. Pence also 
called for temporary assignment of most district planning 
personnel to the recovery project.
    During the draft phases of the Summit Fire Recovery 
Project, Malheur National Forest Planning Staff engaged in an 
extraordinary process of outreach and involvement with the 
community. Orientation tours of the fire area were contacted 
for Members of Congress, Oregon Governor John Kitzhaber's 
Citizen Advisory Panel on Eastside Forest Health, 
environmentalists, forest products industry representatives, 
Forest Service Regional Office staff, representatives of the 
National Marine Fisheries Service and U.S. Fish and Wildlife 
Service staff.
    Throughout this period, Malheur National Forest Planning 
Staff and the community received assurances from Region 6 
Planning Staff that other than ``minor concerns,'' the Recovery 
Project was ``on track.''
    On August 27, 1997, Forest Supervisor Carl Pence signed a 
Record of Decision that was immediately appealed by the 
environmental community using what can be described as a 
``cookbook'' appeal. The alternative selected by Supervisor 
Pence would have treated approximately 9,500 acres, producing 
an estimated 108 million board feet of salvage.
    Despite unprecedented communication between Malheur 
National Forest and Region 6 Planning Staff, Supervisor Pence 
was notified that Regional Forester Bob Williams could not 
support the Recovery Project. Supervisor Pence was offered two 
choices, either have the Record of Decision (ROD) remanded to 
the Malheur National Forest, or voluntarily withdraw the ROD. 
Since voluntary withdrawal offered more flexibility for 
remediation, Pence chose the latter option.
    Over the next six months, Malheur National Forest Planning 
Staff rewrote the Summit Fire Recovery Project and prepared a 
Supplemental Environmental Impact Statement. Major revisions to 
the project included development of a Water Resources 
Management Plan, Consultation with U.S. Fish & Wildlife Service 
for Bull Trout, Informal Consultation with National Marine 
Fisheries Service for Steelhead and revision of the proposed 
treatment in riparian areas.
    On July 12, 1998, more than 23 months after the Summit 
Fire, a new Record of Decision was issued calling for salvage 
and rehabilitation of approximately 6,600 acres producing about 
50 million board feet of timber.
    During the intervening months, insects and blue stain 
fungus have infested the stands and sever checking has occurred 
significantly reducing the value of salvageable timber. The 
project, if conducted in August 1997, could have produced 
$6,912,000 according to the Final Environmental Impact 
Statement (page 2-21). Today, if operated as proposed, the 
project will produce approximately one sixth of that amount, or 
$1,150,000 according to the Final Supplemental Environmental 
Impact Statement issued July 12, 1998 (page S-6).
    The cost of suppression for the Summit Fire was 
$25,400,000. Planning for this project cost approximately 
$1,209,893 for the original DEIS and additional $356,432 for 
the Supplemental DEIS.
    Madam Chairman and Members of the Committee, while the NEPA 
process works well for proposed management actions that are not 
time-sensitive it is wholly inappropriate for management 
actions in areas devastated by windthrow or infestations of 
insects and disease. The NEPA process is especially 
inappropriate for fire recovery projects where rapid 
deterioration and loss of value is the predictable outcome of 
delay.
    Madam Chairman and Members of the Committee, you know that 
a healthy economy and a healthy ecosystem are coefficients in 
the equation of sustainability. The NEPA process was intended 
to disclose elements of critical thinking and analysis leading 
to decision-making. Instead, it has become bureaucratized to 
the point where it threatens both the ecosystem and local 
economies. In reviewing the NEPA process, I would suggest three 
actions that could be of immediate benefit:
        <bullet> Require the Council of Environmental Quality to 
        provide an easily accessible mechanism for approval of 
        ``Alternative Arrangements.'' The use of ``AIternative 
        Arrangements,'' as was done in March, 1998 for salvage of 
        nearly 300 million board feet of blowdown in Texas should 
        become a model for meeting NEPA requirements when treating 
        catastrophic fire, dead, downed and severely root-sprung trees 
        whenever these conditions occur.
        <bullet> Provide an expedited appeal and litigation process to 
        resolve potential conflicts in a timely manner. Creating a 
        shorter statutory appeal process with final adjudication, 
        followed by brief judicial appeal period with a statutorily 
        mandated deadline for final adjudication would not only provide 
        heightened access for citizen appeals and litigation but timely 
        resolution, as well.
        <bullet> Modify the NEPA process to add full consideration of 
        economic values affected by Federal decision making At present, 
        NEPA requires full disclosure of environmental values and 
        considerations but does not disclose economic values and 
        considerations in Federal decision making. To be effective, 
        NEPA must also feature full disclosure of economic 
        considerations so that parties affected by Federal decisions 
        will have assurance that the cost, benefits and affects will be 
        fully disclosed.
    These amendments to the NEPA process would greatly reduce delays in 
processing time-sensitive recovery projects following windthrow, 
infestations of insects and disease and catastrophic fire.
    Our experience has shown that catastrophic events require a 
planning response that preserves the net asset value of the resource, 
not only to sustain communities that depend on natural resource 
outputs, but also to capture the maximum value to pay for 
rehabilitation of resources damaged caused by wind, insects, disease 
and wildfire.
                                 ______
                                 

Statement of L. Earl Peterson, Director, Division of Forestry, Florida 
            Department of Agriculture and Consumer Services

    MADAM CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:
    Good morning, and thank you for the opportunity to tell you 
how the Florida Division of Forestry manages its timber 
resources and in particular how we deal with emergency salvage 
operations when struck by natural disasters.
    The Florida Division of Forestry is one of the largest land 
management agencies in the State of Florida. We have been 
managing state forests for over 60 years and presently co-
manage an additional half million acres of other public land. 
All of these tracts are managed under the multiple-use concept, 
which includes timber production.
    There are 36 state forests managed under the Division's 
direct guidance and the land base of these tracts exceeds 
740,000 acres. Approximately 55 percent of this total (410,000 
acres) is suitable for pine silviculture. An active forest 
management program occurs on this pine acreage and includes 
prescribed burning, reforestation and timber sales. Trees are 
grown to an old age on state forests for a number of reasons, 
two of which are to provide a natural ecosystem that is rapidly 
disappearing from the State and also to provide a special 
experience to the public sector who visit state forests in 
order to enjoy a large number of resource-based outdoor 
recreation activities. Our state forests represent an 
investment by the citizens of Florida, and that investment 
should produce both a natural resource heritage for the future 
and an economic return.
    The practice of sustainability is a cornerstone in the 
management of the timber resource. By using current forest 
inventory data, we insure that state forests are not overcut 
and that growth will continue to exceed yield on an annual 
basis. Trees are harvested through a number of silvicultural 
techniques, including improvement thinnings and restoration 
harvests, the latter being the removal of off-site species so 
that the naturally occurring species can be restored to a 
particular site.
    In a well-managed state forest, foresters for the Division 
strive to keep the trees in a healthy condition using such 
management tools as prescribed burning and improvement 
thinnings, which I previously mentioned. However, due to 
natural processes beyond our control, unexpected and 
undesirable tree mortality is continually occurring in the 
natural forest system. Examples are lightning killed trees, 
mortality from wildfire, insect and disease outbreaks and 
windstorm damage.
    Because this is a natural process, if the level of tree 
mortality is considered light, then oftentimes no action is 
taken. The resulting dead snags provide homes for wild-

life and help create biological diversity in the forest system. 
However, when tree mortality reaches levels where there is 
significant economic loss or there is the potential for insect 
and disease spread, then salvage and/or sanitation harvests are 
initiated to recoup monetary losses and to reduce the threat of 
additional tree mortality.
    Although prompt action is often taken to salvage timber 
that has been damaged or killed at moderate levels or in a 
limited area, there is no question that the Division of 
Forestry will take action when major tree mortality events take 
place. This statement is based on recent occurrences on 
Florida's state forests. In October, 1995, Hurricane Opal made 
a direct hit on Blackwater River State Forest, which is 
Florida's largest state forest at 189,000 acres. Within 6 
months we had salvaged an estimated 95 percent of the damaged 
timber, which was approximately 50 million board feet of 
sawtimber.
    In the spring and summer of 1997, Florida experienced the 
worst outbreak of southern pine beetle activity in the history 
of the State. The infestation was centered in the Marion and 
Levy County area of Central Florida. Loblolly pine was the 
major species being killed but considerable slash pine and 
longleaf pine also died. The insect was indiscriminate in 
attacking trees across all ownership lines including state 
parks, state forest, national forest, municipal, forest 
industry and lands owned by private individuals. The Division 
of Forestry took a lead role in taking actions to control this 
insect outbreak plus salvaged all infested timber in Goethe 
State Forest in Levy County and spearheaded salvage efforts on 
other state-owned lands.
    Finally, the State of Florida has just gone through the 
most serious outbreak of wildfires to have occurred in recent 
times. Approximately 500,000 acres burned between June 1st and 
early July. Of this total an estimated 260,000 acres is 
commercial pine timberland. A conservative estimate is that 
2,600,000 cords of damaged or fire-killed timber will require 
salvaging in the next four months. Besides being directly 
involved in the total salvage effort, the Division of Forestry 
had approximately 14,000 acres burn on Tiger Bay and Lake 
George State Forests in Volusia County. Once the wildfires were 
controlled, we immediately moved toward damage appraisal and 
initiating salvage sales on these 2 state forests. In two weeks 
we sold 4 salvage sales and had plans to sell 4 more during the 
third week.
    Time is of the essence when selling salvage timber, 
especially sawtimber. In Florida's warm climate, dead sawtimber 
must be utilized within a few months or it will deteriorate to 
where it can only be used for pulpwood. Pulpwood will only last 
a few months longer. Because of this short time frame we 
expedite the bid process and only give potential bidders a week 
or less to submit their bid for a sale. Emergency salvage sales 
of this nature are almost always sold on a per unit basis, 
which means the wood is sold by the ton. A performance bond of 
$5,000.00 or more is usually required to insure sale 
compliance. Foresters spend considerable time administering the 
sales to insure all loads are accounted for and that all 
conditions of sale are being followed.
    A few key points for salvage operations conducted by the 
Division of Forestry are that they are done in a rapid fashion 
to insure maximum economic return, eliminate waste and to 
prevent further spread of pathogens or insects that might kill 
additional timber. All potential bidders are given a chance to 
bid on every sale so that we cannot be accused of unfair sale 
procedures, and ongoing sales are administered closely to 
insure loggers comply with the conditions of sale.
    The Florida Division of Forestry is fortunate to have good 
latitude in making decisions about procedures and conditions 
for silvicultural applications, such as reforestation and 
timber harvesting. We have the responsibility and authority to 
utilize the best known science for taking inventory, projecting 
growth and yield, and scheduling harvests based on site 
productivity and ecosystem requirements. Internally, we have 
administrative procedures to ensure good business applications, 
provide equitable bidding processes, and satisfy audit 
scrutiny. However, during times of emergency as previously 
described, we are allowed to accelerate that process in order 
to minimize economic losses.

                BID PROCEDURE FOR WILDFIRE TIMBER SALES

                Tiger Bay and Lake George State Forests

                             July 15, 1998

    Based on conversations with Rene' Ash (who talked with Mike 
Gresham), we can expedite the timber sales on these two state 
forests. I agreed with her that we would implement the 
following procedure:

        (1) Fax or E-Mail a written sale specifications sheet to all 
        interested bidders for each timber sale. We can also fax a sale 
        map and bid form.
        (2) Give prospective bidders two days (or some other 
        predetermined time) to fax their completed bid form back to 
        Tiger Bay State Forest Headquarters.
        (3) Waive the need for a minimum acceptable bid. Analyze the 
        returned bids to make sure all bidders can meet the conditions 
        of the sale. Contact the high bidder and confirm their bid and 
        try to negotiate a higher price if the opportunity presents 
        itself. If the top 2 or more bids are similar, or if there is 
        no distinct winner, contact the bidders with the highest bid 
        and negotiate the best price from one of them. Analyzation of 
        bid results and any negotiations will be coordinated between 
        TBSF/LGSF staff and State Lands Section staff.
        (4) Prepare the approval memorandum to L. Earl Peterson and 
        obtain his approval of the recommended high bidder.
        (5) Waive the 3 day posting period if the successful bidder can 
        start logging immediately. Otherwise, post the results for 3 
        working days.
        (6) Overnight 4 copies of the executed timber sale agreement to 
        the State Lands Section. We will deliver it to Mike Gresham's 
        office the day it is received and notify TBSF Headquarters once 
        it is fully executed.
    By: John O'Meara

    [GRAPHIC] [TIFF OMITTED] T0964.008
    
    [GRAPHIC] [TIFF OMITTED] T0964.009
    
    [GRAPHIC] [TIFF OMITTED] T0964.010
    
    [GRAPHIC] [TIFF OMITTED] T0964.011
    
    Statement of Cara Ritchie Nelson, Consulting Ecologist, Natural 
                       Resources Defense Council
    Good morning, Madam Chairman, and thank you for the opportunity to 
appear and address the Subcommittee on Forests and Forest Health on the 
subject of emergency exemptions from the National Environmental Policy 
Act (NEPA) for salvage sales, and your discussion draft bill. My name 
is Cara Nelson. I have over ten years of professional experience 
researching the effects of management on forest ecosystems. For the 
last 4 years, I have worked both as a staff and a consulting ecologist 
for the Natural Resources Defense Council (NRDC). NRDC is a national, 
non-profit environmental organization dedicated, among other things, to 
the protection of forest resources. During this time, my work has 
largely focused on issues related to fire and fuels management in 
forests of the Interior Columbia River Basin in eastern Washington and 
Oregon. My educational background includes a B.S. in Ecology from the 
Evergreen State College in Washington State and a Masters degree in 
Forest Ecology from the University of Wisconsin, Madison. In addition, 
I am in the process of completing a Ph.D. in Forest Ecosystems Analysis 
at the University of Washington's College of Forest Resources in 
Seattle.
    In summary, despite persistent calls for emergency ``forest 
health'' treatments, current scientific understanding of forest 
ecosystems and data from past salvage projects do not provide a basis 
for aggressive post-disturbance logging. There is very little solid 
scientific support for claims that salvage and other removal of 
commercial timber for ``restoration'' purposes effectively restores 
fire resilience or ecosystem integrity. On the contrary, significant 
scientific evidence demonstrates that serious, adverse impacts can and 
do result from salvage and commercial thinning. For these reasons, 
careful design, analysis, and environmental review of post-disturbance 
management activities are especially important. Broad ``emergency'' 
exemptions from NEPA, as proposed in the discussion draft of July 7, 
1998, would severely undercut this environmental review, thereby 
decreasing the likelihood of effective restoration of forest ecosystems 
and increasing the likelihood of continued forest degradation. A case 
in point is the recent NEPA exemption to expedite salvage logging on 
Federal forestlands in Texas, authorized after the February 1998 
windstorms. The Forest Supervisor requested that emergency action be 
authorized to address concerns about wildfire and southern pine beetle 
damage. Hovever, the scientific record does not support that emergency 
waiver.
    Very little empirical research has been conducted on the impacts of 
salvage, thinning, and fuels treatment on fire behavior. In spite of 
hypothesized benefits, the handful of studies that address these 
issues, as well as anecdotal accounts and analyses of recent fires, 
suggest that removal of dead, dying, and overstocked trees does not 
reliably reduce fire intensity or severity. In fact, in some instances 
treatments intended to reduce fire intensity and hazard may have the 
opposite effect.
    For example, at least three recent studies of the relationship 
between thinning and impels treatment and fire behavior found that 
treatment exacerbated fire conditions. The results of one of these 
studies, conducted by Huff et al. (1995) in the Interior Columbia River 
Basin in Washington and Oregon, suggest that all logging, including 
thinning, tends to increase fire Howard: ``In general, rate of spread 
and flame length were positively correlated with the proportion of area 
logged. All harvest techniques were associated with increasing rate of 
spread and flame length . . . [emphasis added].'' Thinned stands 
generally were positively correlated with fire intensity as measured by 
rate of spread and flame length.
    Similarly, results from a study of the effectiveness of fuels 
treatment on previously non-harvested lands in the Bear-Potato Analysis 
Area of the Wenatchee National Forest, Washington provides evidence 
that harvest treatments may increase risk of fire damage. In this 
study, the Forest Service evaluated the effects of past fuel treatments 
on fire severity (U.S. Forest Service 1995). Before wildfire in 1994, 
approximately 2021 acres of the fire area that had not been previously 
logged were treated for fuels with mechanical removal and/or prescribed 
burning. Forty three percent of areas that were treated to reduce fuels 
experienced high mortality, compared with 37 percent of the areas that 
were not treated for fuels. Only 10 percent of the areas treated for 
fuels experienced low mortality, suggesting that fuels treatment on 
non-harvested lands may increase the risk of high severity fire.
    There is also evidence from a study conducted in the Klamath region 
of California that stand density reduction through harvest treatments 
may not result in lower fire intensity and severity. Weatherspoon and 
Skinner (1995) found higher levels of crown scorch in thinned stands 
than in adjacent stands that had not been thinned. Unmanaged stands had 
the least severe fire effects.
    Reports of successful fire hazard reduction focus on thinning of 
small diameter trees, but are almost entirely anecdotal. For example, 
thinned ponderosa pine for-

ests in Tiger Creek, a 2,500-acre drainage on the Boise National Forest 
in Idaho, are reported to have survived the 1992 Foothill Fire with 
minimal tree mortality (Blatner et al. 1994). However, this anecdotal 
evidence is of limited utility, especially when counter-examples are 
readily available. For example, thinning was not effective at reducing 
fire intensity and severity during another fire on the Boise, the 
Rabbit Creek fire, which burned roughly 200,000 acres on the north fork 
of the Boise River drainage during the summer of 1994. The burn created 
a mosaic of forest conditions. Some open ponderosa pine stands, 
considered to be fire resistant, were destroyed. Some stands considered 
highly susceptible did not experience high intensity burns (Peter Kolb, 
pers. com.). I am only aware of one study in which thinning was found 
to moderate fire behavior. During the 1994 Tyee fires, Wenatchee 
National Forest study stands that were thinned to below a specified 
crown bulk density burned at lower intensity and with less severe 
effects than stands that had not been thinned (Agee 1996).
    Results of a recent modeling study in Sierran forests indicate that 
the type of ``restoration'' treatment employed, as well as the manner 
in which it is executed, will influence environmental conditions and 
fire hazard. In that study of six different ``restoration'' treatments 
that involved harvesting, only one treatment technique was predicted to 
reduce the number of acres burned or fire intensity (Van Wagtendonk 
1996). Given that the study's conclusions are based on models that have 
not been tested in natural settings, results must be interpreted 
cautiously. However, findings such as these provide evidence that a 
careless or thoughtless approach to ``restoration'' treatments has a 
greater probability of increasing degradation and fire damage than of 
decreasing it.
    Though a number of factors, some listed below, help to explain how 
salvage and thinning can exacerbate fire risks, one is worth singling 
out here. A natural divergence exists between what increases the 
profitability of logging operations and what might reduce fuel loading. 
Typically, rates of spread and intensity of forest fires are most 
affected by so called `fine fuels,' the small branches, tree tops, and 
needles that have no commercial value. Unless careful and commercially 
unattractive treatment of these fuels is undertaken, removal of larger 
trees not only does not get at the primary engine of future fires, it 
concentrates fine fuels into potentially explosive ``logging slash.''
    With respect to arguments about the need for salvage and thinning 
to reduce threats from insects, the scientific literature is more 
complicated. What is clear is that any credible claim about potential 
beneficial impacts from logging would have to account for numerous 
site-specific factors. These include (1) tree species composition, age 
and size structure, and spacing, (2) the biology, ecology, and 
population levels of the insect species that occur or are predicted to 
occur on the site, including the interactions among species, (3) the 
nature and extent of disturbance events, and (4) local climatic 
conditions. Thus, generalities about the need for and potentially 
desirable effects of salvage and thinning treatments across sites and/
or conditions are not scientifically responsible. Detailed, specific, 
expert review and analysis are needed, and blanket solutions should not 
be expected to be successful.
    In addition to the speculative nature of claimed ecological 
benefits from removal of ``dead and dying'' trees, scientific evidence 
demonstrates that persistent, adverse impacts can and do result from 
these practices. These impacts include:

        <bullet> loss of snag and down log habitat required by many 
        wildlife species (Thomas 1979, Bull 1994) and soil organisms 
        (Amaranthus et al. 1989);
        <bullet> simplification of forest structure (FEMAT 1993);
        <bullet> increased soil erosion and compaction (Klock 1975, 
        Marton and Hare 1990);
        <bullet> loss of important sources of nutrients and organic 
        material, with the concomitant reduction of long-term 
        productivity (Jurgensen et al. 1990; Graham et al. 1994);
        <bullet> increased near term fire hazard due to high loads of 
        fine fuels (needles, branches, and tree tops) associated with 
        the removal of large stems; and
        <bullet> increased spread of non-native plants into burned 
        areas (Harrod 1994).
    Other post-disturbance practices, particularly active planting and 
seeding of non-native species, also have been shown to be detrimental 
(Taskey et al. 1989, Amaranthus et al. 1993). In short, by removing 
important structures and exacerbating stresses caused by natural 
disturbance, post-disturbance logging and other management activities 
impair the ability of ecosystems to recover (Beschta et al. 1995).
    Similarly, although our current understanding of the ecological 
effects of ``forest health'' thinning is incomplete available evidence 
indicates that thinning operations, even when carefully conducted, can 
and do result in significant adverse ecological impacts, including:

        <bullet> reduced habitat quality for sensitive species 
        associated with cool, moist microsites or closed canopy forests 
        (FEMAT 1993);
        <bullet> damage to soil integrity through increased erosion and 
        compaction (Harvey et al. 1994, Meurisse and Geist 1994);
        <bullet> creation of sediment which may eventually be delivered 
        to streams (Beschta 1978, Grant and Wolff 1991);
        <bullet> increased mortality of residual trees due to pathogens 
        and mechanical damage (Hagle and Schmitz 1993);
        <bullet> increased near-term fire hazard, due to (1) addition 
        of high levels of activity fuels (Fahnestock 1968) that may 
        influence fire behavior for up to 30 years (Huff et al. 1995, 
        Wilson and Dell 1971), (2) decreases in height to live crown 
        ratios, mean diameter sizes, and bark thickness, resulting from 
        removal of large diameter rather than small diameter trees, and 
        (3) creation of warmer, drier microclimatic conditions 
        (Countryman 1955, Rothermal 1983);
        <bullet> dependence on an excessive number and density of roads 
        (Henjum et al 1994, Megahan et al. 1994).
    In the preceding paragraphs, I have discussed how (1) there is a 
lack of scientific consensus about the consequences of harvest-based 
``restoration'' treatments, (2) in many instances, these treatments may 
increase fire severity and intensity, (3) some treatments have a 
greater probability of reducing fire intensity and severity than do 
others, and (4) commercial salvage and thinning have significant 
environmental downsides. These downsides need careful, conscientious 
evaluation and must be squarely presented to the public, sister 
agencies, Congress, and ultimately decision-makers, if a responsible 
judgment is to be made about where, how, and at what level to 
experiment with logging based forest ``restoration.'' This is 
particularly true given the indisputable role that past logging and 
`professional expertise' has played in degrading Federal forests.
    Post-disturbance logging should be subject to stronger restrictions 
and environmental review procedures than those governing other logging 
and management activities. Additional guidelines are necessary because 
(1) post-burn soils are generally more sensitive to degradation than 
other soils, all else being equal (Perry 1995) and (2) protection of 
post-burn habitats may be critical for maintaining viable populations 
of species that rely on snags and coarse woody debris or are sensitive 
to watershed degradation (Beschta et al. 1995). Prior to treatment, 
there should be a full analysis of the potential for increased fire 
hazard and the short and long term effects of restoration treatments on 
soils, pathogen transmission, and terrestrial or aquatic species. 
Failure to analyze and disclose the environmental risks associated with 
these treatments may result in continued ecosystem degradation and may 
prevent the adoption of ecologically sound approaches to management of 
degraded stands.
    The NEPA exemption that the Forest Service was granted due to a 
perceived emergency need for tree removal to control southern pine 
beetle populations and wildfire after the February 1998 Texas windstorm 
is an excellent example of the danger of emergency exemptions. Although 
the record does not support an ecologically valid need for emergency 
actions, the exemption short-circuited meaningful environmental 
analysis that could have influenced management decisions and prevented 
activities that are likely to further damage remnant stands.
    A primary reason for the Forest Service's request for the exemption 
was concern over southern pine beetle (SPB). However, the Forest 
Service's Environmental Assessment (EA) for the Texas windstorm tree 
removal project recognizes that although SPB may invade individual 
damaged trees, there is no increased threat to the forest resource base 
of an SBP epidemic as a result of the windstorm: ``Previous large-scale 
storm damage in pine forests across the south has resulted in little or 
no increase in SPB activity over expected levels . . . Storm damage 
does not initiate or increase the severity of SPB epidemics, but may 
shift the distribution of infestations, as stands previously classified 
as high hazard may become low hazard stands due to storm impacts . . . 
In stands where a large percentage of pine overstory was blown down, 
SPB infestations initiated in leaners or other susceptible pines have 
little chance to spread (Clarke and Starkey 1998)''. Furthermore, 
removal of large down material will not affect population densities of 
SPB, as this species generally does not attack downed logs. Because the 
agency failed to show an impending risk of SPB epidemic as a result of 
the storm, its position that lack of access for beetle control due to 
dead and dying trees constitutes an emergency situation is unfounded.
    In addition to concern over southern pine beetle damage, the Forest 
Service also justified the need for expedited tree removal as wildfire 
protection. However, the Forest Service's proposed tree removal 
activity is not likely to reduce the flammability of these stands. 
Removing large stems of standing and downed wood this sum-

mer will not mitigate the primary fire hazard created by the large 
volume of fine fuels. Large coarse woody debris retains moisture, 
requires more energy to ignite and combust, and may reduce fire spread 
by smoldering rather than burning. While large debris has relatively 
low flammability, the increased loading of fine fuels (needles, tree 
tops, and branches), generated both from the storm as well as from the 
salvage operations, directly contributes to higher rates of fire 
intensity and rapid fire spread. Effective treatment of small diameter 
fine fuels would be a more reasonable approach to increasing fire 
resilience than removal of large diameter standing dead and downed 
trees.
    Despite the importance of fine fuels to fire behavior, the Forest 
Service's emergency activities do not include an adequate plan for 
their treatment. Although the two action alternatives described in the 
EA do provide for fuel treatment activities, these alternatives do not 
specify that activity fuels must be addressed in all areas where tree 
removal occurs. In addition, the EA does not evaluate the environmental 
impacts associated with different fuel reduction techniques. 
Furthermore, the EA proposes using lop and scatter treatments that may 
actually exacerbate fire behavior. Research by Van Wagtendonk (1996) in 
the Sierran forests suggests that lopping and scattering fine fuels may 
be among the least effective fuel treatment methods and may result in 
stands with significantly higher rates of fire spread, fireline 
intensities, and flame lengths than both untreated stands and stands 
treated using other techniques.
    The Texas tree removal project is not likely to have a beneficial 
effect on insect or fire risk or hazard. Moreover adverse effects 
associated with the removal of a substantial number of large diameter 
standing dead and downed trees, inadequate treatment of fine fuels, and 
adverse impacts of harvest practices suggest that salvage activities 
may substantially degrade remnant stands. Had further environmental 
review of proposed actions been conducted, there might have been an 
opportunity for the development and adoption of more ecologically sound 
management alternatives.
    In conclusion, sound scientific support does not exist for broad or 
generalized inferences that emergency logging operations will 
ameliorate fire or insect risks in our nation's forests. If anything, 
the opposite is true. I hope that my testimony will help dissuade the 
Subcommittee from proceeding with legislation that would abrogate the 
existing NEPA process in the name of ``forest health emergencies.'' 
Thank you again for the opportunity to appear and present this 
testimony. I would be pleased to answer any questions the Subcommittee 
may have, within my area of expertise.

                               References

    Agee, J.K. 1996. The influence of forest structure on fire 
behavior. Presented at the 17th Annual Forest Vegetation Management 
Conference, Redding CA, January 16-18, 1996.
    Amaranthus, M.P, J.M. Trappe, and D.A. Perry. 1989. Long-term 
productivity and the living soil. Pages 36-52 in D.A. Perry, R. 
Meurisse, B. Thomas, R. Miller, J. Boyle, J. Means, C.R. Perry, and 
R.F. Powers, eds. Maintaining Long-term Productivity of Pacific 
Northwest Forest Ecosystems. Timber Press, Portland, OR.
    ----------, J.M. Trappe, and D.A. Perry. 1993. Moisture, native 
regeneration, and Pinus lambertiana seedling survival, growth, and 
mycorrhiza formation following wildfire and grass seeding. Restoration 
Ecology September: 188-195.
    Beschta, R.L. 1978. Long-tenn pattems of sediment production 
following road construction and logging in the Oregon Coast Range. 
Water Resources Research 14:1011-1016.
    ----------, C.A. Frissell, R. Gresswell, R. Hauer, J.R. Karr, G.W. 
Minshall, D.A. Perry, and J.J. Rhodes. 1995. Wildfire and salvage 
logging: Recommendations for ecologically sound post-fire salvage 
logging and other post-fire treatments on Federal lands in the West. 
Unpublished manuscript, Pacific Rivers Council, Eugene, OR.
    Blatner, K.A., C.E. Keegan, J. O'Laughlin, D.L. Adams. 1994. Forest 
health management policy: a case study in southwestern Idaho. in R.N. 
Sampson and D.L. Adams (eds.) Assessing Forest Ecosystem Health in the 
Inland West. The Haworth Press, Inc.
    Bull, E.L: 1994. Conserving wildlife habitat. Pages 37-38 in R.L. 
Everett, ed. Volume IV: Restoration of stressed sites, and processes. 
General Technical Report PNW GTR-330, U.S. Forest Service, Pacific 
Northwest Research Station.
    Clarke, Stephen and Dale Starkey. 1998. Forest health evaluation of 
storm damage on the national forests in Texas. Appendix B of the 
Environmental Assessment for Tree Removal from the February 10, 1998 
Windstorm, Angela, Sabine, and Sam Houston National Forests. USDA 
Forest Service, Region 8.
    Countryman, C.M. 1955. Old-growth conversion also converts fire 
climate. Pages 158-160 in Proceedings of the Society of American 
Foresters Annual Meeting.
    Fahnestock, G.R. 1968. Fire hazard from pre-commercially thinning 
ponderosa pine. Research Paper 57, U.S. Forest Service, Pacific 
Northwest Region Station, Portland, OR.
    Forest Ecosystem Management Assessment Team (FEMAT). 1993. Forest 
ecosystem management: An ecological, economic and social assessment. 
Report of the U.S. Forest Service, U.S. National Marine Fisheries 
Service, U.S. Bureau of Land Management, U.S. Fish and Wildlife 
Service, U.S. National Park Service, and U.S. Environmental Protection 
Agency, Portland, OR and Washington, D.C.
    Graham, R.T., A.E. Harvey, M.F. Jurgensen, T.B. Jain, J.R. Tonn, 
and D.S. Page-Dumroese. 1994. Managing coarse woody debris in forests 
of the Rocky Mountains. Research Paper INT-RP-477, U.S. Forest Service, 
Intermountain Forest and Range Experiment Station, Ogden, UT.
    Grant, G.E., and A.L. Wolff. 1991. Long-term patterns of sediment 
transport after timber harvest, western Cascade Mountains, Oregon, USA. 
Pages 31-40 in Sediment and stream water quality in a changing 
environment: Trends and explanations. IAHS Publication 203. Proceedings 
of the Symposium, 11-24 August 1991, Vienna, Austria.
    Hagle, S., and R. Schmitz. 1993. Managing root disease and bark 
beetles. Pages 209-228 in T.D. Schowalter and G.M. Filip, eds. Beetle-
Pathogen Interactions in Conifer Forests. Academic Press, New York.
    Harrod, R.J. 1994. Practices to reduce and control noxious weed 
invasion. Pages 47-50 in R.L. Everett, ed. Volume IV: Restoration of 
stressed sites, and processes. General Technical Report PNW-GTR-330, 
U.S. Forest Service, Pacific Northwest Research Station, Portland, OR.
    Harvey, A.E. 1994. Integrated roles for insects, diseases and 
decomposers in fire dominated forests of the inland western United 
States: Past, present, and future forest health. Pages 211-220 in R.N. 
Sampson and D.L. Adams, eds. Assessing Forest Ecosystem Health in the 
Inland West. The Haworth Press, Inc., New York.
    Henjum, M.G., J.R. Karr, D.L. Bottom, D.A. Perry, J.C. Bednarz, 
S.G. Wright, S.A. Beckwitt, and E. Beckwitt. 1994. Interim protection 
for late-successional forests, fisheries, and watersheds: National 
forests east of the Cascades crest, Oregon and Washington. The Wildlife 
Society Technical Review 94-2.
    Huff, M.H., R.D. Ottmar, E. Alvarado, R.E. Vihnanek, J.F. Lehmkuhl, 
P.F. Hessburg, and R.L. Everett. 1995. Historical and current 
landscapes in eastern Oregon and Washington. Part II: linking 
vegetation characteristics to potential fire behavior and related smoke 
production. USDA Forest Service Pacific Northwest Forest and Range 
Experiment Station, GTR-355. Portland, Oregon.
    Jurgensen, M.F., A.E. Harvey, and R.T. Graham. 1990. Soil organic 
matter, timber harvesting, and forest productivity in the Inland 
Northwest. In S.P. Gessel, D.S. Lacate, G.F. Weetman, and R.F. Powers, 
eds. Sustaining productivity of forest soils. Proceedings of the 7th 
North American Forest Soils Conference, 24-28 July, University of 
British Columbia, Vancouver.
    Klock, G.O. 1975. Impact of five post-fire salvage logging systems 
on soils and vegetation. Journal of Soil and Water Conservation 30:78-
81.
    Marton, R.A., and D.H. Hare. 1990. Runoff and soil loss following 
the 1988 Yellowstone fires. Great Plains-Rock Mountain Geographic 
Journal 18(1):1-8.
    Megahan, W.F. L.L. Irwin, and L.L. LaCabe. 1994. Forest roads and 
forest health. Pages 97-99 in R.L. Everett, ed. Volume IV: Restoration 
of stressed sites, and processes. General Technical Report PNW-GTR-330, 
U.S. Forest Service, Pacific Northwest Research Station.
    Meurisse, R.T., and J.M. Geist. 1994. Conserving soil resources. 
Pages 50-58 in R.L. Everett, ed. Volume IV: Restoration of stressed 
sites, and processes. General Technical Report PNW-GTR-330, U.S. Forest 
Service, Pacific Northwest Research Station.
    Perry, D.A. 1995. Unpublished declaration on forest health. March 
4, 1995. Oregon State University, Corvallis.
    Rothermal, R.C. 1983. How to predict the spread and intensity of 
forest and range fires. General Technical Report INT-143, U.S. Forest 
Service Intermountain Forest and Range Experiment Station. Ogden, UT.
    Taskey, R.D., C.L. Curtis, and J. Stone. 1989. Wildfire, rye grass 
seeding, and watershed rehabilitation. Pages 115-125 in N.H. Berg, ed. 
Proceedings of the Symposium on Fire and Watershed Management. 26-28 
October, Sacramento, CA. General Technical Report PSW-109, U.S. Forest 
Service Pacific Southwest Research Station.
    Thomas, J.W., ed. 1979. Subcommittee on Coast Guard and Navigation 
Wildlife Habitats in Managed Forests: The Blue Mountains of Oregon and 
Washington. Agriculture Handbook 553. U.S. Forest Service, Washington, 
D.C.
    U.S. Forest Service. 1995. Initial review of silvicultural 
treatments and fire effects on Tyee fire. Appendix A, Environmental 
Assessment for the Bear-Potato Analysis Area of the Tyee Fire, Chelan 
and Entiat Ranger Districts, Wenatchee National Forest, Wenatchee, WA.
    Van Wagtendonk, J.W. 1996. Use of a deterministic fire growth model 
to test fuel treatments. Pp.1155-1166. In. Status of the Sierra Nevada, 
Vol II. University of CA, Davis, CA.
    Weatherspoon, C.P. and C.N. Skinner. 1995. An assessment of factors 
associated with damage to tree crowns from the 1987 wildfire in 
northern California. Forest Science. 41:430-451.

                      CURRICULUM VITAE   JULY 1998

    Education

    B.S. Ecology. 1990. The Evergreen State College, Olympia, 
Washington.
    M.S. Forestry. 1996. University of Wisconsin, Madison.
    Ph.D. Forestry. Degree anticipated 1999. Ecosystem Science and 
Conservation Division, College of Forest Resources, University of 
Washington, Seattle.

    Professional Experience

    1994-present: Ecologist, Natural Resources Defense Council, San 
Francisco, California. Develop and promote plans for ecological 
management of forests in the Interior Columbia Basin (on staff through 
1995, consulting from 1995 until present).
    1995-present: Research Assistant, Ecosystem Science and 
Conservation Division, College of Forest Resources, University of 
Washington. Conduct research on the ecology, demography, and physiology 
of late-seral herbs native to mid-elevation forests of the western 
Washington Cascades.
    1991-1994: Research Assistant, Botany Department, University of 
Wisconsin-Madison. Conducted research on the decline of eastern hemlock 
(Tsuga canadensis), white cedar, and Canadian yew (Taxus canadensis) in 
the upper Midwest.
    1988-1991: Forest Ecology Consultant, Olympia, Washington. 
Conducted research related to protection of old growth forest stands on 
national forests in Washington and Oregon based on ecological 
significance, for implementation of Forest Service Land and Resource 
Management Plans.

    Grants, Honors, and Awards

    1998: Washington Native Plant Society grant for research on the 
physiological and demographic consequences of timber harvest for late 
successional forest herbs.
    1994: Leopold Chapter, Society for Conservation Biology, 
Conservation Award.
    1995: Co-author of USDA competitive grant to study declines in 
hemlock, cedar and yew in the upper Midwest.
    1992-1993: Graduate scholarship in Conservation Biology from the 
Pew Charitable Trust Foundation and the University of Wisconsin.
    1992: USFS North Central Forest Experiment Station grant to study 
hemlock regeneration failure.
    1991: National Audubon Society Distinguished Service Recognition.

    Professional Societies
    Society for Conservation Biology Society of American Foresters
    Ecological Society of America
    American Institute for Biological Sciences

    Publications and Reports
    Belsky, J.B., Evan Frost, Nathaniel Lawrence, and Cara R. Nelson. 
1998. Comments on the Interior Columbia Basin Ecosystem Management 
Project's Eastside Draft Environmental Impact statement. 65 pages.
    Halpern, C.B., S.A. Evans, C.R. Nelson, D. McKenzie, D.E. Hibbs, 
E.K. Zenner, and M.A. Geyer. (In press) Response of forest plant 
communities to varying levels and patterns of green-tree retention: an 
overview of a long-term experiment. Northwest Science.
    Nelson, C.R. 1996. Hemlock regeneration failure in the Nicolet 
National Forest, WI. MS Thesis, University of Wisconsin--Madison. 96 
pages.
    Nelson, C.R., J. Belsky, R. Brown, E. Frost, B. Keeton, P. 
Morrison, M. Scurlock, G. Wooten. 1995. Key elements for ecological 
planning: management principles, rec-

ommendations, and guidelines for Federal lands east of the Cascade 
crest in Oregon and Washington. Public record. Interior Columbia Basin 
Ecosystem Management Project. Walla Walla, WA. 113 pages.
    Nelson, C.R., N. Lawrence, R. L. Peters, R. L. Dewey, W. J. Snape, 
S. Yassa, T. Uniak. 1995. Revised comments on the proposed rule for 
national forest system land and resource management planning; 36 C.F.R. 
Parts 215, 217, and 219; 60 Fed. Reg. 18886 et seq. (April 13, 1995). 
Public record. Department of Agriculture, Washington, D.C. 58 pages.
    Nelson, C.R., and W. Mahler. 1990. An ecological survey of the 
late-seral stage forests surrounding the Nolan Creek watershed. 
Unpublished report to the Washington DNR's Old Growth Commission, 
Olympia, Washington. 34 pages.
                                 ______
                                 
   Statement of Lawrence Hill, Director of Forest Policy, Society of 
                           American Foresters
    Madam Chairman, my name is Larry Hill. I am the Director of Forest 
Policy for the Society of American Foresters (SAF). The more-than-
18,000 members of the Society constitute the scientific and educational 
association representing the profession of forestry in the United 
States. SAF's primary objective is to advance the science, technology, 
education, and practice of professional forestry for the benefit of 
society. We are ethically bound to advocate and practice land 
management consistent with ecologically sound principles. I am 
especially pleased to submit comments on the NEPA Parity Act. I wish to 
thank the Committee for its continued support of professional forestry 
and its continued support of SAF's priorities.
    The NEPA Parity Act highlights a key provision of the National 
Environmental Policy Act (NEPA) that SAF supports. The regulations 
issued by the Council on Environmental Quality (CEQ or Council) in 1978 
provide for alternative arrangements to normal NEPA procedure in an 
emergency situation. The CEQ regulations state:

        Where emergency circumstances make it necessary to take an 
        action with significant environmental impact without observing 
        the provisions of these regulations, the Federal agency taking 
        the action should consult with the Council about alternative 
        arrangements. Agencies and the Council will limit such 
        arrangements to actions necessary to control the immediate 
        impacts of the emergency. Other actions remain subject to NEPA 
        review. 640 C.F.R 1506.11)
    In addition to this direction, we understand that individual Forest 
Service and BLM units are required to consult with their respective 
Washington offices about emergencies that may result in a request for 
an alternative arrangement from CEQ. Additionally, Federal agencies 
seeking alternative arrangements should provide CEQ with a complete 
description of the needs for such an arrangement at the time of the 
request.
    These provisions are worthwhile and allow for rapid yet cautious 
responses to situations that clearly should be treated as emergencies. 
The environmental laws of this nation are some of the most 
comprehensive in the world, yet at times they can slow actions intended 
to mitigate harm to the environment. The wisdom of the authors of these 
laws and regulations is clearly shown in these emergency provisions. At 
times, the environment is better with action than with inaction. 
Unfortunately, procedures developed with the best of intentions to 
protect the environment have resulted in some harm.
    What appears to be absent from the alternative arrangement 
procedures granted by CEQ is some sense of direction and criteria for 
how and when these procedures should be applied. The best person to 
determine whether the situation warrants alternative arrangements from 
CEQ is the on-the-ground land manager. The people intimately involved 
in the day-to-day management of a forest know what the situation needs, 
and how quickly it needs correction. The additional guidance CEQ is 
required to develop under this bill should provide land managers in all 
the Federal agencies with a better understanding of when and how they 
should request these expedited procedures. Therefore SAF supports these 
provisions of the bill. This guidance would also ensure that these 
decisions are made consistently over time, and that all parties 
interested in the decisions have a clear understanding of how and why 
they were made.
    We cannot comment on the specific locations in the National Forests 
for which this bill requests that CEQ and the Forest Service develop 
alternative arrangements under NEPA. We are, however, encouraged that 
the bill merely requests, and does not require, the agencies to develop 
alternative arrangements for these areas and public domain lands. 
Although SAF has heard from some of its members that there are 
locations in need of emergency treatment, we believe the decision to 
seek alter-

native arrangements from CEQ should rest with the Forest Service and 
its on-the-ground managers on a case-by-case basis.
    Thank you for this opportunity to testify. I would be pleased to 
answer any questions you may have at this time.

[GRAPHIC] [TIFF OMITTED] T0964.012

[GRAPHIC] [TIFF OMITTED] T0964.013

         Statement of Mike Dombeck, Chief, USDA Forest Service
    MADAM CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:
    Thank you for the opportunity to join you to discuss your 
legislation for alternative arrangements for environmental analysis and 
NEPA compliance in emergency situations on the National Forest System. 
My testimony also incorporates the concerns and comments of the Bureau 
of Land Management (BLM).
    The National Environmental Policy Act (NEPA) is our basic national 
charter for protection of the environment. It establishes policy, sets 
goals, and provides the means for implementing the policy. The 
regulations issued by the Council on Environmental Quality (CEQ) in 
1978 which implement NEPA provide for alternative arrangements to the 
normal NEPA procedure in an emergency situation. The CEQ regulations 
state:

        Where emergency circumstances make it necessary to take an 
        action with significant environmental impact without observing 
        the provisions of these regulations, the Federal agency taking 
        the action should consult with the Council about alternative 
        arrangements. Agencies and the Council will limit such 
        arrangements to actions necessary to control the immediate 
        impacts of the emergency. Other actions remain subject to NEPA 
        review. (40 C.F.R. 1506.11).
    The Forest Service NEPA procedures supplement this guidance by 
instructing Forests to consult with th Washington Office of the Forest 
Service on emergencies, other than fire, that may require consultation 
with CEQ about an alternative arrangement. The BLM also requires 
Washington Office and Departmental clearance prior to requesting 
alternative arrangements with CEQ.

Examples of Emergencies

    The Forest Service and CEQ have used the emergency provision in the 
CEQ regulations on three occasions, and the BLM has used it five times. 
My testimony will highlight the Forest Service's examples.
    Due to severe drought in the summer of 1992, the City of Portland 
requested permission from the Mt. Hood National Forest to pump 1.7 
billion gallons of water from Bull Run Lake to meet the emergency needs 
of the City for domestic water supplies. The Forest Service believed 
that such action would create increased sediments within the drinking 
water supply as well as reduce lake levels sufficient to kill fish and 
significantly alter the ecology of the lake.
    CEQ concurred with the Forest Service that an emergency situation 
existed, and agreed that the Forest Service could proceed with a 
drawdown of the lake prior to NEPA documentation. The alternative 
arrangements were for the Forest Service to prepare an Environmental 
Assessment (EA) after the emergency action was taken. An EA was 
prepared during the drawdown period, but after the initial action was 
begun.
    Pumping of Bull Run Lake began on September 12 and continued until 
September 28, 1992. Approximately 0.5 billion gallons were pumped from 
the lake during that period. Much needed rain fell during late 
September through early October removing the need for further emergency 
withdrawals. The lake began to fill to pre-emergency levels by mid-
October.
    In 1996, the Forest Service and Bureau of Land Management (BLM) 
found it necessary to take immediate action in the Cascade Resource 
Area and the Boise National Forest in Idaho. These areas included 
multiple watersheds adjacent to the City of Boise. Over fifteen 
thousand acres of Federal, state, and private lands were burned in the 
human-caused Eighth Street Fire which started on August 26, 1996. After 
the fire was extinguished, immediate rehabilitation was needed to 
minimize the threats to human life and property, deterioration of water 
quality and loss of soil productivity that could have resulted from 
flooding, mudslides and debris torrents from the burned area. The area 
was critical because of its location in a key watershed which functions 
as the primary ground water recharge area for the Boise Front aquifer, 
the source of groundwater wells for municipal use for the City of Boise 
and other municipalities. In addition, increased runoff potential 
threatened buildings and homes immediately below the burned area.
    Application of the emergency NEPA provisions to the Eighth Street 
Fire was supported by a combination of unique circumstances. First, 
recent historic events showed the potential for damage. Fires in the 
same general area in the 1950's followed by a moderate rainstorm 
resulted in flooding of a large portion of Boise, including the 
downtown corridor. Second, local and state governments were consulted 
and supportive of the actions proposed. Third, the project received 
extensive public review and support. Finally, as would have been 
required under NEPA, alternative treatments were discussed and 
potential impacts to wilderness and threatened or endangered species 
were reviewed.
    This year, the Forest Service again requested alternative 
arrangements with CEQ for emergency actions to restore immediately 
portions of the approximately 103,000 acres of forested lands on the 
National Forests and Grasslands in Texas damaged by the February 10, 
1998, windstorm. The windstorm caused varying degrees of damage. The 
agency believed it would take up to six months using normal NEPA 
procedures before actions would be initiated to restore the damaged 
ecosystem including red cockaded woodpecker and bald eagle critical 
habitat. This delay could have resulted in further habitat loss for 
these threatened and endangered species by potential fires and bark 
beetle attack. The Forest Service was concerned that delayed action 
would critically impact 1998 success rates with the red-cockaded 
woodpecker and bald eagle nesting habitat, and we were also concerned 
that the delay would cause undue risk to adjacent private property from 
potential fire and insect damage.
    Alternative arrangements initiated with CEQ concurrence are only 
appropriate when a clear emergency to human health, safety or the 
environment is present, and the action proposed is environmentally 
significant as defined by the CEQ regulations. Often, actions proposed 
to be taken in emergency situations do not rise to the environmental 
significance level, and therefore, do not require alternative 
arrangements. For these situations, the Forest Service follows its 
normal NEPA procedures.
    Generally, there are three components of a proposal by the Forest 
Service to CEQ for an alternative arrangement. First, the public is 
provided an opportunity to comment on the project. Second, the 
environmental analysis that goes into the decision making process is 
documented. And third, there are provisions for monitoring and 
adjustments as we proceed with the project, including an evaluation of 
the project once it is completed. The BLM follows similar procedures 
and such review is well documented as in the case of the Eighth Street 
Fire.
    In each of the three cases where this alternative arrangement was 
requested, a catastrophe had created an emergency situation requiring 
immediate and significant action. Each case clearly demonstrates 
interagency coordination and agreement regarding the urgency of the 
need for immediate action and clear disclosure to the public of that 
need. There was also strong support from involved State and Federal 
agencies for the proposed activities.
    Numerous catastrophic events occur each year affecting National 
Forest System and other public lands. Rarely, however, do these events 
constitute an emergency. The fact that only three referrals for 
alternative arrangements have been made by the Forest Service to CEQ 
since 1978 is evidence that such referrals are only done in unique 
circumstances. I am proud that these alternative arrangements were well 
coordinated with CEQ and allowed for a quick response.

Discussion of Legislation

    While the Forest Service recognizes the catastrophic nature of some 
of the events described in the bill, we do not support the approach of 
elevating these areas to an emergency status which would require 
alternative arrangements for NEPA compliance because they are not 
emergencies. The NEPA requirements have been valuable in integrating 
environmental considerations into agency planning for the past 30 
years. The Forest Service has only used the alternative arrangements 
three times in the last 20 years, demonstrating that this provision is 
not necessary for a broad array of projects.
    In conclusion, the Forest Service and BLM believe that the 
procedure we use for requesting alternative arrangements to NEPA 
compliance for emergencies works. The existing authority is appropriate 
and adequate to administer our nation's 192 million acres of National 
Forests, and other public lands. We appreciate the Committee's interest 
in the alternative arrangements provision of NEPA, and we understand 
the Committee's desire to use this extraordinary process more broadly. 
But, we believe the current process is working well. Thank you, Madam 
Chairman, I would welcome any questions the Subcommittee may have.

[GRAPHIC] [TIFF OMITTED] T0964.014

[GRAPHIC] [TIFF OMITTED] T0964.015

[GRAPHIC] [TIFF OMITTED] T0964.016

[GRAPHIC] [TIFF OMITTED] T0964.017

[GRAPHIC] [TIFF OMITTED] T0964.018

[GRAPHIC] [TIFF OMITTED] T0964.019

[GRAPHIC] [TIFF OMITTED] T0964.020

[GRAPHIC] [TIFF OMITTED] T0964.021



                 OVERSIGHT HEARING ON FIRE SUPPRESSION

                              ----------                              


                        TUESDAY, AUGUST 4, 1998

                  House of Representatives,
         Subcommittee on Forests and Forest Health,
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m. in 
room 1334, Longworth House Office Building, Hon. Helen 
Chenoweth (chairman of the Subcommittee) presiding.
    Mrs. Chenoweth. The Subcommittee on Forests and Forest 
Health will come order.
    The Subcommittee is meeting today to hear testimony on fire 
suppression. Under rule 4(g) of the Committee rules, any oral 
opening statements in hearings are limited to the chairman and 
the Ranking Minority Member, and this will allow us to hear 
from our witnesses sooner and help our members keep to their 
schedules. Therefore, if other members have statements, they 
can be included in the hearing record under unanimous consent.
    This Subcommittee has held several hearings on wildfire 
issues, usually with a focus on forest health conditions and 
forestry practices. But today, we are going to take a close 
look at the activities surrounding firefighting itself, mostly 
from the aspect of interagency coordination and cooperation. 
How well do the various State and local agencies work together? 
How well do they work together with the Federal agencies? Who 
is responsible for staffing levels, employee training, fire 
forecasting, equipment availability, and all other aspects of 
wildfire preparedness and suppression?
    We will examine that today, as well as, what did we learn 
from our experiences in the State of Florida? These are the 
types of questions that we will be exploring today.
    I am very happy to welcome to this Committee my colleagues 
Corrine Brown and Allen Boyd who are both here representing 
their good State, the State of Florida, who just recently 
experienced the devastating fires down there. So we are very 
happy to welcome them and concentrate today, focusing on what 
happened in Florida.
    This is an extremely important and timely topic for a 
number of reasons: first, because it represents a huge cost to 
the American taxpayer. The GAO reports that Federal land 
management agencies spent over $4 billion in the last 5 years 
in firefighting activities, and this doesn't include the 
military costs of borrowed personnel and equipment, the costs 
to our States, or the costs in regards to the loss of private 
property.
    This issue is important, however, not just because of the 
costs in terms of dollars, but for the costs in terms of 
wildlife habitat that is lost, and most importantly, for the 
loss of human lives, which we have experienced in the West in 
firefighting. We have a moral responsibility to make sure that 
we are doing absolutely everything we can to effectively 
prepare and fight wildfires, and I am looking forward to 
working with the agencies in this regard.
    [The prepared statement of Mrs. Chenoweth follows:]

 Statement of Hon. Helen Chenoweth, a Representative in Congress from 
                           the State of Idaho

    This Subcommittee has held several hearings on wildfire 
issues, usually with a focus on forest health conditions and 
forestry practices. Today, we are going to take a close look at 
the activities surrounding firefighting itself, mostly from the 
aspect of interagency coordination and cooperation. How well do 
the various state and local agencies work together? Who is 
responsible for staffing levels, employee training, fire 
forecasting, equipment availability, and all the other aspects 
of wildfire preparedness and suppression? And what did we learn 
from our experiences in Florida? These are the types of 
questions we will be exploring today.
    This is an extremely important and timely topic for a 
number of reasons: First, because it represents a huge cost to 
the American taxpayer. The GAO reports that Federal land 
management agencies spent over four billion dollars in the last 
five years in fire fighting activities--and this does not 
include the military costs of borrowed personnel and equipment, 
the costs to states, or the costs in regards to loss of 
property. This issue is important, however, not just because of 
the costs in terms of dollars, but for the costs in terms of 
wildlife habitat lost, and most importantly, for the loss of 
human lives. We have a moral responsibility to make sure that 
we are doing everything we can to effectively prepare for and 
fight wildfires--and I am looking forward to working with the 
agencies in this regard.

                             BRIEFING PAPER

SUMMARY

    Various forest and weather conditions have greatly 
increased the vulnerability of America's forests to wildfire. 
In recent years, the total number of wildfires, including the 
number of large complex fires, has increased dramatically. The 
costs associated with fighting these fires has risen 
proportionally, representing hundreds of millions of tax-payer 
dollars annually. These efforts also require an ever-increasing 
need for well orchestrated communications and cooperation among 
volunteer and municipal fire departments, State forestry 
agencies, and Federal agencies with wildfire management and 
suppression responsibilities. The purpose of this oversight 
hearing is to review these and other factors that influence the 
effectiveness of government efforts in wildfire preparedness 
and suppression.

BACKGROUND AND ANALYSIS:

    Already this year, nearly two million acres have burned, 
many of those occurring in the well reported fires in Florida. 
At a Forests and Forest Health Subcommittee hearing last week, 
Earl Peterson, the State Forester of Florida, gave high marks 
to the coordinated fire fighting efforts in his state but did 
suggest that better coordination would have been helpful in the 
ordering and distribution of equipment. He also said that 
better long-range planning would help in order to more 
effectively station people and equipment in areas of highest 
risk.
    The GAO recently reported that wildfire preparedness and 
suppression expenditures by Federal land management agencies 
are at all time highs--over $4 billion for the last five years. 
Given the recent comments by the Chief of the Forest Service 
that approximately 40 million acres of agency lands are at a 
high risk of catastrophic fire, there is little question that 
these high costs are going to persist--and very likely continue 
to increase--for the next couple of decades. As wildfires 
become larger, hotter, and more numerous it is not only 
becoming more expensive to suppress them but the logistics of 
organizing communications and coordination among the various 
state and Federal agencies is becoming exponentially more 
complex. The National Interagency Fire Center (NIFC) in Boise, 
Idaho serves as ``The Pentagon'' for these suppression efforts. 
Located at the NIFC is the National Interagency Coordination 
Center (NICC), whose primary mission is the cost-effective and 
timely coordination of national emergency response. It is 
through NICC that all agency requests to mobilize personnel and 
equipment across regions are managed.
    Our nation's ability to prepare for and suppress wildfires 
is of extreme importance, not only because these efforts 
represent such a huge cost to taxpayers, but because without a 
maximum effort, property, and most importantly, lives will be 
lost. The intent, then, of this oversight hearing is to discuss 
the effectiveness of our preparedness and suppression efforts, 
and to try to answer a number of questions, such as:

        <bullet> What did we learn from the Florida fires? In 
        retrospect, what could we have done better, and conversely, 
        what worked well? What rehab efforts are underway in the 
        aftermath of the fires?
        <bullet> How do we fund the various suppression activities? Do 
        we spend too much in some areas and not enough in others? Are 
        we adequately monitoring costs? Are we utilizing cost control 
        measures such as contracting out certain activities to private 
        enterprise?
        <bullet> How accurately are we predicting the location, timing 
        and severity of wildfire occurrences? What technologies and 
        computer modeling are being used?
        <bullet> How effective is interagency cooperation--at every 
        level?
        <bullet> What agencies or organizations are responsible for 
        staffing levels, employee training, equipment availability, 
        public education, maintenance of facilities, fire management 
        planning. Who, ultimately, is responsible for suppression 
        efforts, and does this vary by land ownership?

WITNESSES

A witness list is attached

STAFF CONTACT

Doug Crandall at ext. 5-0691

    Mrs. Chenoweth. I will depart from any normal procedure 
here and I would like to recognize, without objection, Mr. Boyd 
and Ms. Brown for any opening comments that they may have.

 STATEMENT OF HON. CORRINE BROWN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Ms. Brown. Good morning and thank you, Madam Chairperson, 
for holding this meeting. I am grateful for the opportunity to 
offer testimony today.
    As you know, Florida has suffered from disastrous 
wildfires, the worst that we have had in 50 years. More than 
500,000 acres have burned in Florida over the past 2 months, 
and the economic impact has been incredible. Firefighters from 
across the country have helped us out in Florida, and we are 
grateful for their efforts. The coordinated effort was 
exceptional. I know that there were many nights that the agency 
chiefs did not even begin to conference with each other until 2 
or 3 in the morning, and I talked to several of them during 
that time. They did a yeoman's job, and we in Florida are proud 
that all of the agencies were so successful.
    For the purpose of this morning's hearing, I have contacted 
several of the fire chiefs from Florida who know best how the 
response to their natural disaster actually worked, and I would 
like to submit my full remarks for the record. I would like to 
take this opportunity to highlight some of the issues that they 
have raised to me.
    For the most part, the fire chiefs said that the 
coordination between local, State and Federal agencies worked 
exceptionally well. This was by far the most common response 
that I have heard. There were very few problems they shared, 
but those that they shared I will share with you today.
    It appeared that the No. 1 problem involved communications 
between all of the parties involved. There was no communication 
link established specifically for the firefighters' efforts, so 
we had many firefighters carrying several radios at a time in 
order to maintain a line of communication. My understanding is 
that each depart-

ment worked with equipment that was not compatible, so there 
was no single frequency to use.
    Another problem involved liability. I understand that some 
of the firefighters brought in from other parts of the country 
were actually not allowed to assist because they did not have a 
red card, which can only be received after a week-long training 
session. I was told that most of the firefighters participating 
didn't hold this particular card.
    Also the most useful resource was the helicopters because 
they saved valuable time, although there were not always enough 
helicopters on hand. This was the resource most in need.
    Finally, because it was always the local team that 
responded for the first several hours to any emergency, there 
is a big need for additional training and resources at this 
level. I have heard from several chiefs that more direct 
funding to local communities to better prepare for these 
emergencies would be beneficial to the communities.
    Many of our local firefighters had to fight the wildfires 
in gear that was made for structural fires. This caused a 
frequent occurrence of heat exhaustion for those who didn't 
have the light gear to fight the fire outside.
    In closing, I would like to say that our firefighters were, 
for the most part, pleased with the U.S. Forest Service and 
were incredibly grateful for the nationwide assistance.
    Thank you for the time and the attention that you are 
providing this morning for this meeting, and I have more 
lengthy comments that I would like to submit to the record.
    Mrs. Chenoweth. Without objection, so ordered. I thank you, 
Ms. Brown. Those were very interesting comments.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. The Chair now recognizes Mr. Boyd.

STATEMENT OF HON. ALLEN BOYD, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF FLORIDA

    Mr. Boyd. Thank you very much, Madam Chairman. I would like 
to submit my written statement which is more lengthy than the 
one I will give orally.
    Mrs. Chenoweth. Without objection, so ordered.
    Mr. Boyd. Thank you for allowing me to participate in this 
hearing, and thank you for calling this oversight hearing on 
Federal fire suppression activities and efforts which 
obviously, as Ms. Brown has stated, is a very timely issue in 
our State due to the recent wildfires that have affected 
Florida. The State of Florida has experienced wildfires that 
burned over half a million acres, destroyed 125 homes, timber 
and property with an estimated dollar value loss of nearly $400 
million.
    Unlike Ms. Brown's district, where most of the fires were 
on State and private land, in the Second Congressional 
District, which I represent, the majority was on Federal lands. 
District Two has the entire Apalachicola National Forest within 
its borders, and also encompasses part of the Osceola National 
Forest. The wildfires have burned thousands of acres of 
timberland within these national forests. The reason that I am 
here today is to listen to these panel experts about 
suppression efforts and activities.
    I would be remiss if I did not at this point express the 
gratitude of all of the people of the State of Florida for the 
efforts made on their behalf to put out the fires by 
firefighters from all over the Nation. There was not a Friday 
that I did not go through my airport in Tallahassee when I 
didn't bump into dozens and dozens of firefighters coming in 
from all over the country. This happened 6 or 7 weeks in a row, 
and I want the rest of the country to know how grateful we are 
for your assistance in coming and putting out those fires, or 
else our damage would have been much greater.
    I look forward to the testimony of the witnesses today, and 
I believe, working together, we can take another policy step in 
the stewardship of our wonderful natural resources.
    Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Boyd. We have tried to take 
numerous steps to try to prevent the kind of catastrophe that 
we saw in Florida and have seen in California in the past. I 
welcome your participation.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. Now I will introduce our first panel.
    The Chair welcomes Mr. Barry Hill, the Associate Director 
of Energy, Resources and Science Issues for the General 
Accounting Office; and Mr. Hill is accompanied by Linda Harmon, 
Assistant Director, Energy, Resources and Science Issues, also 
from the General Accounting Office.
    As explained in our former hearings, it is the intention of 
the chairman to place all outside witnesses under the oath. 
This is a formality of the Committee that is meant to assure 
open and honest discussion and should not affect the testimony 
given by witnesses. I believe all of the witnesses were 
informed of this before appearing here today, and they have 
each been provided with a copy of our Committee rules.
    Now if the witnesses--Mr. Hill and Ms. Harmon, if you would 
please stand and raise your arm.
    Mr. Hill.

  STATEMENT OF BARRY HILL, ASSOCIATE DIRECTOR, ACCOMPANIED BY 
LINDA HARMON, ASSISTANT DIRECTOR, ENERGY, RESOURCES AND SCIENCE 
               ISSUES, GENERAL ACCOUNTING OFFICE

    Mr. Hill. Thank you, Madam Chairman. We are pleased to be 
here and to have the opportunity to discuss wildfire activities 
and expenditures of the major Federal land management agencies, 
that being the Forest Service, the Bureau of Land Management, 
the National Park Service, the Bureau of Indian Affairs, and 
the Fish and Wildlife Service. If I may, I would like to 
briefly summarize my prepared statement and submit the full 
text of my statement for the record.
    Mrs. Chenoweth. Without objection, so ordered.
    Mr. Hill. First, let me discuss the amount of funds spent 
on wildfire preparedness and suppression activities, and then I 
will discuss the assistance provided to state firefighting 
efforts.
    Federal land management agencies spent about $4.4 billion 
on wildfire activities for fiscal years 1993 through 1997. Of 
this amount, $2.1 billion was spent for preparedness and $2.3 
billion for suppression. Wildfire preparedness activities are 
those actions taken before the onset of a wildfire. These 
activities include providing fire management programs through 
training, planning, staffing and providing firefighting 
equipment. Wildfire preparedness also includes programs to 
reduce flammable materials on the forest floor, such as fallen 
trees and dry underbrush.
    As you can see from the chart on my immediate right, total 
expenses for wildlife preparedness increased from $371 million 
in fiscal year 1993 to $483 million in fiscal year 1997. During 
this period the Forest Service spent the most, $1.4 billion, 
followed by the Bureau of Land Management at $350 million.
    The largest preparedness expenses were for personnel, $1.2 
billion, while the second largest expense category was for 
services and supplies, $541 million.
    Suppression activities include actions taken to put out 
wildfires, including the use of firefighting personnel and 
equipment. For fiscal years 1993 through 1997, the land 
management agencies spent about $2.3 billion on wildfire 
suppression. As shown by the other chart that we brought, 
wildfire suppression expenditures varied greatly, depending on 
the number and intensity of wildfires during a given year, and 
ranged from a low of $187 million in fiscal year 1993 to a high 
of $858 million in fiscal year 1994.
    Of these five Federal land management agencies, the Forest 
Service spent the most on wildfire suppression for this period, 
about $1.7 billion, followed by the Bureau of Land Management 
at $360 million. The largest expense category was for services 
and supplies, about $1.2 billion, while the second largest 
expense category was for personnel at $941 million.
    Now, allow me to discuss Federal assistance to states.
    For fiscal years 1993 through 1997 the five land management 
agencies provided assistance to state and local firefighting 
efforts through cooperative agreements, provided grants valued 
at $83 million and loaned excess Federal property worth about 
$700 million. The activities covered by these grants and 
cooperative agreements include fire prevention, environmental 
education, training, and developing procedures for fighting 
fires. The Forest Service administers two grant programs that 
provide funds for states for wildfire preparedness activities: 
the Rural Fire Prevention and Control and the Rural Community 
Fire Protection programs. Both programs are matching programs; 
that is, the entities receiving the grants must match them in 
dollar amounts or in in-kind contributions. For fiscal years 
1993 through 1997, the Forest Service provided a total of $69 
million to the states through these two programs.
    The Forest Service also manages the Federal Excess Personal 
Property Program which loans excess property to state and local 
firefighters. The types of excess property range from shovels 
to helicopters. Most of this property are trucks that can be 
readily converted to tankers or pumpers. Other common items 
loaned include generators, pumps, fire hoses, breathing 
apparatus and personal protective clothing.
    During fiscal years 1993 through 1997, the Forest Service 
loaned excess Federal personal property valued at about $700 
million to states for use in wildfire preparedness activities.
    Madam Chairman, this concludes my statement, and I would be 
happy to respond to any questions that you or other members may 
have.
    [The prepared statement of Mr. Hill may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you.
    The Chair yields to Mr. Boyd for questions.
    Mr. Boyd. Thank you very much, Madam Chairman, and just a 
couple of questions to clarify what we have before us.
    Mr. Hill, the chart that you have closest to you there, the 
preparedness portion of that, I assume, is fire prevention 
activities such as prescribed burning and any other kinds of 
activities. Would you be prepared to go into a little more 
detail about that or would I need to ask somebody from the 
Forest Service?
    Mr. Hill. I don't have a breakdown of those expenses. It 
would certainly include planning, staffing, putting equipment 
in place; and it would also include some fuel management 
efforts as well.
    Mr. Boyd. Prescribed burning?
    Mr. Hill. That's right.
    Mr. Boyd. Do you derive anything from this in terms of the 
money spent on the preparedness side compared to the 
suppression side? Obviously, the number of fires that we have 
are directly related to the weather and other activities, 
primarily weather. But do you derive anything from the figures 
in terms of relation between preparedness and then losses or 
suppression, cost of suppression?
    Mr. Hill. Well, as you can see, in preparedness, there is 
more stability. There has been an increase over the 5-year 
period because you can plan for those level of activities a 
little better than for the suppression costs, which basically 
you are at the mercy of Mother Nature.
    You have good fire years and bad fire years. And as you can 
see by the other chart, 1994 and 1996 were particularly bad 
fire years which would drive those suppression costs up. But 
there has been an increase over the 5-year period for the 
preparedness costs, which shows you that there are increased 
efforts at fuel management and prescribed burns in order to 
reduce the risk of catastrophic fires, which drive costs up 
when they do occur.
    Mr. Boyd. Mr. Hill, I assume that your conclusion would be, 
and it is not too scientific, but when we have done a better 
job with preparedness, the suppression costs go down, which 
they have appeared to do over the last 4 years?
    Mr. Hill. There is no question that the better you do on 
the preparedness, presuppression end of it, the better off you 
are going to be in terms of minimizing the catastrophic fires. 
But I should say that the inventory of fuel that is on the 
floor now--I think the Forest Service estimates it at 39 
million acres--that needs fuel management efforts, and so there 
is still a lot to be done on that front.
    Mr. Boyd. Madam Chairman, one more question if you might 
indulge me?
    Mrs. Chenoweth. Certainly.
    Mr. Boyd. There are no figures on rehab after wildfire. Do 
you have anything to share on that, and the costs?
    Mr. Hill. They are included in the suppression costs. I 
don't have any on hand. I will defer to Ms. Harmon and see if 
she has anything.
    Mr. Boyd. I'll tell you what, why don't we wait for her 
statement.
    Mr. Hill. She will not have a statement.
    Mr. Boyd. Then can you answer that?
    Ms. Harmon. What we have from the Department of Interior, 
which does not include the costs associated with the Forest 
Service, for the period of 1993 to 1997, was approximately $52 
million.
    Mr. Boyd. In rehabilitation?
    Ms. Harmon. Right. That would be included in the 
suppression costs.
    Mr. Boyd. Thank you.
    That you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Boyd; and we will return for 
another round of questions, if you have them for the GAO.
    Mr. Hill, your staff is also in the process of doing a 
pretty comprehensive evaluation on the question of forest 
health conditions as related to many things--fire suppression 
and fire preparedness and so forth--but based on your 
preliminary observations, do you see a continuation of current 
fire trends and the associated costs in fighting the fires that 
we have had to deal with in the last 7 years?
    Mr. Hill. It is certainly hard to predict that because a 
lot of that is dependent on weather conditions that you are 
going to face, but certainly that trend seems to be continuing. 
And the trend is caused by years and years of suppressing 
natural wildfires, which in the past 7 or 8 years Federal land 
management agencies have come to realize perhaps was not the 
best wildfire management technique to be using.
    So there are a lot more of the prescribed burns, mechanical 
clearings, efforts to reduce the fuels that are laying on the 
forest floors right now, particularly in the western portions 
of the country, which seems to have the biggest buildup of 
those fuels on the floor right now.
    Mrs. Chenoweth. Mr. Hill, your charts are very interesting 
and certainly very telling. We have also heard the number $4.4 
billion for the overall expenditures over the last 5 years. In 
your best sense, how accurate do you think the figures are that 
we are using? Are you able to get the information that you need 
to give us an idea about how much is really being spent under 
these emergency conditions?
    Mr. Hill. I can't say I have a lot of confidence in those 
numbers. The numbers we are presenting are the numbers that we 
were provided and were obtained from the Federal land 
management agencies themselves, and we have not had an 
opportunity to verify that data.
    I think it is further complicated by the fact that when you 
have these joint cooperative efforts and the Federal and state 
and local governments are sharing equipment, sharing resources, 
and basically whatever able bodies you can have go in there to 
fight these fires, it is sometimes difficult to sift through 
the costs and come up with some firm figures.
    Mrs. Chenoweth. How accurately do you think they are 
monitoring the costs, and what do you think we can do to help 
you to be able to get a better understanding of the exact 
costs? What needs to be done in terms of the kind of 
expenditures that are made during these emergency conditions in 
terms of analyzing costs?
    Ms. Harmon. I think it is important to take a look at what 
is the process that both the Forest Service and the Department 
of Interior use to expend some of the money. What are their 
contracting procedures? Are there enough controls in place to 
ensure that the proper costs are being recorded and being 
reported?
    Now, so far, we really haven't done any work in that 
particular area, but I think that would be something that would 
be very important, is taking a look at what are the processes 
and how are the funds being expended by the various agencies.
    Mrs. Chenoweth. That particular subject is of great 
interest to me, so I look forward to working with you on that.
    Mr. Hill, in your opinion, are the land management agencies 
spending sufficient resources on land wildfire programs and are 
they, in your opinion, expending them efficiently?
    Mr. Hill. It is hard to give a concrete answer in that we 
really did not audit or assess the spending levels; and it is 
also particularly hard when you consider the total costs 
involved in wildfire, including the preparedness activities and 
suppression activities, as well as fuel management and 
rehabilitation costs.
    What we do know, though, is that there does seem to be a 
problem with the fuel loads on the forest floors; and Congress 
has responded, in all fairness, to that by increasing the 
appropriations provided over the last 5 years. And the land 
management agencies continue to increase their efforts on the 
presuppression fronts. However, when you want to determine the 
adequacy of funding, as Ms. Harmon mentioned, you have to look 
at how efficiently and effectively they are spending the money 
in terms of personnel, equipment--where are they deploying it? 
It is a difficult question that certainly warrants further 
investigation.
    Mrs. Chenoweth. Along that line of thinking, Mr. Hill, does 
the Federal Government train the local and State firefighters? 
Are they involved in that training and preparedness aspect?
    Mr. Hill. The Federal Government works with the states, and 
they put on national firefighting training courses. They have 
established a committee in which the states participate. These 
courses are put on at a national level, and the states do send 
their staff to attend these courses, but they do reimburse the 
Federal Government for the full cost of the training. However, 
I might mention that they are allowed to use the grant money to 
pay for some or all of these training costs.
    Mrs. Chenoweth. The Chair now recognizes Mr. Schaffer from 
Colorado for questioning.
    Mr. Schaffer. Thank you, Madam Chairman.
    I have a number of questions. Just in terms of the 
mechanics of suppressing and putting out forest fires, in the 
aftermath of these forest fires, what kind of exchange takes 
place between your operation and the Forest Service as a whole? 
Are there lessons that we learn in fighting fires that help us 
with respect to management?
    Mr. Hill. I am not sure I understand your question. In 
terms of GAO's feedback that we get from the Federal land 
management agencies?
    Mr. Schaffer. The fuels buildup information, what happens 
with that kind of information if we are able to determine, for 
example, that management and reduction and potentially 
hazardous fuel levels have a financial benefit to the American 
people from a suppression perspective, what happens? Does that 
information--is it packaged or compiled in a way that is useful 
for land managers within the Forest Service?
    And a secondary question, in your estimation, is it ever 
utilized in an effective way?
    Mr. Hill. I can't give a firm answer to that; we have not 
looked at the program in that depth. But they do go through a 
planning process where they run various models based on fires 
that have occurred, fuels that are on the ground; and their 
budget requests and the equipment and the staff that they 
deploy are based in large part on these yearly plans that they 
put together. Now, how adequate those plans are, we have not 
investigated that at this point.
    Mr. Schaffer. Let me ask then, in terms of an assessment of 
preventable expenditures of what could have been saved through 
sound land management practices, has the GAO ever taken any 
kind of look at which fires may have been preventable and how 
much might have been saved if we had been able to successfully 
prevent forest fires from occurring, again in the aftermath of 
analyzing certain fires that may have occurred recently?
    Mr. Hill. GAO has never done that, to my knowledge. You 
might want to direct that question to the Forest Service and 
Department of Interior people.
    Mr. Schaffer. In your report and in your testimony you 
indicated that the Forest Service manages the Federal Excess 
Property program that loans excess Federal property to State 
and local firefighters. Does the Forest Service have adequate 
controls over this equipment so it knows how much equipment is 
loaned to which States and is it able to get the equipment back 
when the States no longer need it?
    Mr. Hill. We have not looked at the specific controls that 
they have in place in regard to this particular program. It 
should be noted, though, that they have had difficulty in--they 
have in the past and currently have difficulty in terms of the 
adequacy of their controls over inventory accounting of 
property, plant and equipment. Whether this particular excess 
property is included in that category or not, we are uncertain 
at this time.
    Here again, I think--you should ask that question to the 
Forest Service officials. But they have had difficulty and 
continue to have difficulty accounting for all of their plant, 
property and inventory.
    Mr. Schaffer. Let me go back to the previous question that 
I asked and try it from a somewhat different angle; and that 
is, just when it comes to suppression costs, it varies pretty 
greatly from year to year. Is there any way to be able to 
determine or statistically discover any methods that might be 
utilized in stabilizing these costs for a year-to-year period?
    Mr. Hill. I think the greater the investment you make in 
the presuppression area, the preparedness area, in terms of 
reducing that fuel on the ground, then the better chance you 
have of avoiding the large catastrophic fires.
    I think we have learned over the last 7 to 10 years that 
these forest wildfires are a natural occurrence in our nation's 
forests, or in any forests, for that matter, and if you 
suppress them or presuppress them to the point you don't have 
them, when you do have a fire it is a large, catastrophic fire 
which destroys the forest. So the more you clear out that fuel, 
hopefully, the more control you will have over the suppression.
    Mr. Schaffer. That issue really seems to be a key one in my 
mind. If there has not been any assessment of what we might 
save through sound forest management practices, removing 
excessive fuel buildup, also in the resource cost, ahead of 
time, in many other areas of government we are able to take 
legislation to the floor and have some idea of what the 
taxpayers may realize in savings if we take a certain 
preventive action up front; and it sounds to me like there has 
been no analysis on that basis, at least as far as GAO is 
concerned.
    What would it take, in your mind, to move that process 
forward?
    Mr. Hill. Well, I think you are going to have to get a good 
assessment as to what the situation is in our nation's forests, 
and we have not looked at what the Forest Service and other 
Federal land management agencies have done. We know that there 
is a problem out in the interior west--eastern Washington, 
eastern Oregon, Idaho, western Montana. There is a significant 
problem out there that they are trying to deal with.
    On the other hand, I think the southeast has been dealt 
with perhaps a little more effectively in terms of there have 
been more presuppression activities which have occurred that 
have prevented major fires. Obviously, Mother Nature does not 
always cooperate, as witnessed by the fire which occurred in 
Florida recently.
    Mr. Schaffer. Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Schaffer.
    Your comments were very interesting, Mr. Hill, and I think 
it is a very interesting time that we are living through. 
Certainly the urban interface with the wildland areas is 
something that we need to look at very, very carefully, because 
these were the areas that Ms. Brown specifically referred to 
where there is a greater potential in losing private property, 
homes and a threat to human life.
    While we were fortunate in Florida not to lose lives, Mr. 
Boyd indicated in his opening statement that there were 125 
homes lost; and in recent California fires, there have been 
hundreds and hundreds of homes lost.
    And so I know that the GAO is involved in doing a much 
greater in-depth study, especially based on what we are all 
learning here today, and I hope that we can concentrate first 
on that urban wildland interface; and, of course, moving into 
the situation where weather conditions, drought conditions, 
rain forest conditions, typical geographic conditions will lend 
itself to protecting an area from devastating forest fires as 
well as the fuel load on the forest floor or preventing them 
through Mother Nature's conditions. Certainly, Florida was ripe 
for that, and I look forward to hearing from our State Forester 
from Florida.
    But based on what we are hearing today, Mr. Hill, I do look 
forward to working with you and putting our entire staff at 
your--if you need them, just call. This is a very, very 
important issue to us all, and I believe it is a very important 
national issue.
    I always appreciate your good work, Mr. Hill, and I thank 
you for being with us. And Ms. Harmon, thank you very much.
    So with that, I will recognize the second panel which is 
only one witness, but we have been looking forward to hearing 
from Mr. James Garner, the State Forester, Virginia State 
Department of Forestry in Charlottesville, Virginia.
    Mr. Garner, welcome. As is normally the situation here and 
as was explained in our--to our first panel of witnesses, we 
normally ask our witnesses to be sworn in, so I wonder if you 
might stand and raise your hand.
    [Witness sworn.]
    Mrs. Chenoweth. Mr. Garner, please proceed.

    STATEMENT OF JAMES W. GARNER, STATE FORESTER, VIRGINIA 
       DEPARTMENT OF FORESTRY, CHARLOTTESVILLE, VIRGINIA

    Mr. Garner. Thank you, Madam Chairman. I am Jim Garner, 
State Forester of Virginia, and I am here today representing 
the National Association of State Foresters. I served as 
President of the association in 1995, and I have served both as 
a board member and as chairman of the association's fire 
protection committee. I appreciate the opportunity to discuss 
the wildfire suppression efforts in the United States.
    I have attached, for the record, a report entitled, 
``Managing Forests, Managing Fire: A Report to the Congress on 
the Status of Wildfire Management in the United States.'' This 
was a cooperative effort of the National Association of State 
Foresters and the American Forest & Paper Association.
    The Department of Forestry is the primary agency for 
wildland fire control in the Commonwealth of Virginia. Like my 
colleagues in other State forestry agencies, we work closely 
with local fire departments, State agencies and Federal 
wildland fire agencies, including the USDA Forest Service.
    We also work through an interstate compact agreement to 
share resources in times of critical need, and in my view, 
these relationships are a model of intergovernmental 
cooperation. There are few key points worth noting.
    First, the local fire departments are the first line of 
defense against wildfire in this Nation. Volunteer departments 
predominate in the rural areas, and it is critical that they be 
well trained, staffed and equipped to provide that initial 
attack on wildfires.
    The southern region of the United States, as was 
demonstrated dramatically in Florida, experiences more fire 
starts than any other part of the Nation. An effective network 
of trained local departments, however, helps keep the costs 
down by catching these fires when they are small. More 
importantly, as housing developments encroach into our forests, 
the jobs of these firefighters become more dangerous 
complicated and more expensive.
    The second important feature is the well-trained and -
equipped firefighting crews across the country that can be 
dispatched as needed. This is due to careful coordination by 
regional coordinating centers, interstate fire compacts and, 
when necessary, through the National Interagency Fire Center, 
NIFC, in your own home State of Idaho, Madam Chairman.
    During the recent fire situation in Florida, every State 
except two had firefighters, equipment or overhead teams in 
Florida. My department sent four bulldozers, two Hummers and 42 
people with all of the support equipment. We were also the 
leaders of a task force of fire department engine companies 
that went to Florida. We were assigned in northeast Florida and 
placed under a unified command under the direction of the 
Florida Division of Forestry.
    Thanks to the efforts of the National Wildfire Coordinating 
Center, NWCG, the State and Federal firefighting agencies all 
train using the same standards and basically on the same 
equipment, so this allows our resources to use and be familiar 
with each other when we meet somewhere across this Nation.
    The third part of our effort is the State Foresters working 
closely with USDA Forest Service on several programs which keep 
this front line of defense active and well prepared: the State 
Fire Assistance Program and the Volunteer Fire Assistance 
Program. Both are managed by the USDA Forest Service Fire and 
Aviation.
    And third, the Federal Excess Personal Property Program, 
which you have heard mentioned previously and in which we 
cooperate with the U.S. Forest Service.
    I think the Excess Property Program is the most innovative 
of the three. Through a cooperative agreement with the Forest 
Service, provided by the Cooperative Forestry Assistance Act, 
State Foresters are able to screen property, primarily former 
military equipment, at the excess level and not the surplus 
level. This equipment, which ranges from aircraft to trucks to 
mobile command centers to clipboards, is reconditioned either 
by the State or by the local fire departments and put directly 
in service protecting homes and property from wildfire.
    Last year, in Virginia, we were able to get $116,000 worth 
of excess property, which we turned over to local fire 
departments.
    Two points of the Excess Property Program are worth bearing 
in mind. By using the program, we are greatly extending the 
life of vehicles and other equipment which the taxpayers have 
already paid for. States and localities add value to this 
equipment, and there is a tremendous pride in keeping their 
equipment in service. There is a--on the report that I 
mentioned, on page 15, there is a picture and an example of one 
of those trucks that was used by a small community in Virginia.
    The last point I would like to make, Madam Chairman, is 
that we will never rid this Nation of wildfire. We can, 
however, take prudent steps through programs that we have 
mentioned to cut costs and save lives and property. We can 
manage our lands to reduce fire dangers. However, as the events 
have shown in Florida, sometimes many factors will come 
together which will nullify the positive impact of prescribed 
burning and proper forest management.
    The growth of the wildland-urban interface, which in and of 
itself causes numerous complicating factors, has turned what 
would have been a straightforward firefighting task into a 
tremendous exercise of emergency management. And until Mother 
Nature changes the weather pattern, the only thing that stood 
between the citizens of Florida and the wildfire was our 
national firefighting force. And situations like Florida push 
those forces to the limit.
    We appreciate your support and we look forward to working 
with you and the rest of the Committee to see that these 
programs are supported. Thank you very much.
    [The prepared statement of Mr. Garner may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Garner. Your testimony was 
very interesting, and I very much appreciate your comments 
about the imminent concerns that we have over the wildland-
urban interface.
    We do have some legislation pending before this Congress, 
that has made its way through this Committee, that would help 
take care of that, and so I would like to work with you 
personally on that particular legislation. It was suggested by 
the Forest Service, and it deals with a new form of management, 
an overall landscaping management, rather than a contract-by-
contract management.
    So I think it is very forward looking, and I look forward 
to hearing your thoughts about it.
    Mr. Garner. Thank you.
    Mrs. Chenoweth. I do want to say that your comments about 
the book put out by AF&PA are good. I noticed in here that 
there was a comment delivered by Department of Interior 
Secretary Bruce Babbitt in Boise, Idaho, where he stated, ``By 
using all of the tools that we have--carefully thinning excess 
young trees, igniting prescribed fires, managing land for fire, 
controlling invasive and exotic weed species--we must take 
steps to reduce the fuels.''
    And Jack Ward Thomas in a hearing in Boise, Idaho, on 
August 29, 1994 made this statement and I think he really wraps 
it up. Fires are ``too hot, destructive, dangerous and too 
ecologically, economically, aesthetically, and socially 
damaging to be tolerable. We cannot, in my opinion, simply step 
back and wait for nature to take its course.''
    I think that is very interesting, plus the comparative 
pictures that are in this book. It is very instructive. Thank 
you very much.
    The Chair recognizes Mr. Schaffer for his comments.
    Mr. Schaffer. Thank you, Madam Chairman. I have a number of 
questions.
    You mentioned the importance of interstate agreements in 
firefighting. How often do you send crews out of State?
    Mr. Garner. Normally, we have at least one crew going 
somewhere out of State once a year. We, a week after Florida, 
sent a task force to Texas.
    Mr. Schaffer. Is Virginia typical of other States in this 
regard, do you think?
    Mr. Garner. Yes, I think so. We are all available to help 
each other.
    Mr. Schaffer. Where do you typically send your crews?
    Mr. Garner. In the past, most have been going to the 
Western States, but 2 years ago we sent a large contingency to 
Texas with equipment when Texas had their problem in 1996.
    Mr. Schaffer. Is the training adequate so that firefighters 
trained in the Southeast, for example, are well prepared to 
fight forest fires of different types, say, in the Northwest or 
Southern California?
    Mr. Garner. I don't think training is ever totally 
adequate. We do the best we can. We try to prepare them to 
fight fires safely and know what is going on, but I don't 
believe that we are ever adequately trained to where I sleep 
all night when it is dry.
    Mr. Schaffer. You asked the Committee to help ensure that 
programs for wildland supplier programs are adequately 
supported. How are out-of-State programs funded?
    Mr. Garner. If it is through one of the compacts; the 
receiving State reimburses the sending State for expenses.
    Mr. Schaffer. Does a State agency have to pay all of its 
crew expenses when crews are sent out of State? Or if your 
State receives help, do you have to cover all of their costs?
    Mr. Garner. Yes, sir.
    Mr. Schaffer. Do the State-Federal assistance programs you 
mentioned help cover these costs?
    Mr. Garner. They help.
    Mr. Schaffer. Are they adequately funded?
    Mr. Garner. No, sir.
    Mr. Schaffer. Can you give us some sense of scale?
    Mr. Garner. It is relative. Florida, I doubt that they have 
even totaled up the bill yet, and that is on a scale of 10, and 
to other States it might be on a scale of 1.
    Every case and every summer and every spring is going to be 
different, and I don't have a good answer except that when it 
happens to us in Virginia, I doubt that I have enough in my 
budget to handle it.
    Mr. Schaffer. Are within-State operations adequately 
funded?
    Mr. Garner. Probably not.
    Mr. Schaffer. Do the agencies have sufficient personnel?
    Mr. Garner. Probably not.
    Mr. Schaffer. Let me continue on some other questions that 
I have been waiting to ask you.
    You mentioned the challenges of the wild and urban 
interface and how serious an issue that is. Can you elaborate 
on that?
    Mr. Garner. In my opinion, it is probably the most serious 
thing that has faced us in the wildfire arena in my 40 years of 
work, because when you place homes and property and lives in 
the forest, you immediately shift tactics of how you approach 
the fire. Instead of trying to drop back to what would be a 
safe fire line, you go immediately to protect homes and people 
and their property, and that puts you in harm's way in a 
different manner. Therefore, the training that I had in the 
agency, growing up in the agency, is no longer valid; and the 
technology--we have to grasp the technology.
    Mr. Schaffer. Does any one agency bear the responsibility 
for the wildland-urban interface initial response?
    Mr. Garner. Generally, it is the State forestry agencies in 
the States that are predominantly private land. But that is a 
cooperative effort with the local fire department. It can't be 
done by one single group.
    Mr. Schaffer. The Federal policy is consistent with what 
you just described. Do you think that is an appropriate policy 
and one that ought to be maintained?
    Mr. Garner. I believe so, yes, sir.
    Mr. Schaffer. Are local agencies and fire departments 
adequately prepared for that challenge?
    Mr. Garner. No, sir.
    Mr. Schaffer. And should there be some Federal response in 
addressing that level of preparedness that you just described, 
or is this one that ought to be left to the States?
    Mr. Garner. I think we need some help. We need help and 
expertise and new technology and funding when the individual 
State needs it.
    Mr. Schaffer. Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you.
    Mr. Garner, Mr. Schaffer's questions are ones that--as you 
have ascertained by now, are ones that the chairman is 
concentrating on, and while I still have you on the witness 
stand, I wonder if I might ask you to work with your other 
State Foresters in cooperation with this Committee to make sure 
that the Congress can pass legislation which will focus on that 
critical urban-wildland interface problem that we have.
    Will you work with me and other members of this Committee 
and our staff?
    Mr. Garner. Yes, ma'am. We are at your disposal.
    Mrs. Chenoweth. Do you share with me the belief that time 
is not on our side; that it is something that we need to deal 
with probably in a manner which will bring us results by next 
year?
    Mr. Garner. Yes, ma'am. Please do.
    Mrs. Chenoweth. It is very interesting that in my State of 
Idaho right now our former United States Secretary of Interior, 
Cecil Andrus, former Idaho Governor, is on television right now 
in paid spots by the Bureau of Land Management urging people to 
be very, very careful in making sure that fires are not set 
carelessly because we have such a high, heavy fuel load because 
of the cheat grass that can be grazed in the springtime, but 
after July it turns very brown and brittle and heavy and 
creates such hot fires that even 2 years ago we lost lives 
fighting just grass fires.
    So as you can imagine, that is a concern that I share even 
with the former Secretary of the Interior, Mr. Andrus. So I 
look forward to working with you very closely on this issue.
    Mr. Garner. Thank you.
    Mrs. Chenoweth. Mr. Boyd.
    Mr. Boyd. Thank you very much, Madam Chairman.
    Mr. Garner, thank you for coming today.
    I want to take a slightly different direction with my 
questioning, and first of all tell you that our State Forester 
Earl Peterson was here testifying before this Committee, and I 
want to take this opportunity to thank you personally on behalf 
of the people from the State of Florida for what you did.
    You remarked in your previous remarks that you had sent as 
many firefighters as you could turn loose into Florida, and 
much of our destroyed property was on private and commercial 
timberlands. And the 126 homes that were destroyed, I am sure 
that we would have more destroyed if it wasn't for the efforts 
of the folks from around the country, including those from 
Virginia that came, and I just want to promise you if the shoe 
is ever on the other foot, that we will do our part in seeing 
that we share our resources, too.
    Thank you.
    Mr. Garner. Thank you, sir.
    Mr. Boyd. I wanted to take a direction here which is a 
little bit different. I am sure that Virginia is like most 
other States in that publicly held forest lands come under--I 
mean, there is a great deal of pressure to change the 
silvicultural practices and harvesting practices which have 
been traditional, once they come into public ownership.
    What management tools or silviculture practices are you 
using in the Commonwealth of Virginia to keep your forest 
healthy and to keep fire suppression down?
    Mr. Garner. Are you referring to forest management 
practices?
    Mr. Boyd. Exactly.
    Mr. Garner. We are heavily promoting thinning, particularly 
as it relates to area around the interface. By reducing the 
number of stems, you have reduced the opportunity of fire to 
travel from treetop to treetop. We have an active program going 
on now with developers that we try to thin.
    The prescribed burning program, we need to promote that and 
to enhance it and encourage it more. The national forests in 
Virginia started last year; they really have gone big guns on 
this.
    Mr. Boyd. I am referring mostly to timber--to forest land 
that is in your jurisdiction, State forests, and what you do in 
your State forest.
    Mr. Garner. Thinning. Mostly thinning because part of our 
State forest is in the hardwood--on the hardwood sites, and 
therefore, we have to be very judicious how we prescribe 
burning hardwoods.
    In many of our pine stands, we have started an active 
program of thinning and burning the understory. We are not 
quite as flat nor as pine-oriented as your State, Mr. Boyd, so 
therefore we deal mostly with smaller acreages, even in our 
State forest. But we are actively trying to get a prescribed 
burning program up and running in our State forest.
    Mr. Boyd. So you have an active thinning program which is a 
very important management tool in terms of keeping your forest 
lands healthy?
    Mr. Garner. Absolutely.
    Mr. Boyd. Mr. Garner, we heard testimony here last week 
from one of our witnesses that--and she tried to make the case 
that thinning, particularly thinning and even prescribed 
burning was not a practice that would assist in management of 
the possibility of fire. In other words, it didn't necessarily 
cause a situation that you would have less fires.
    Would you care to comment on that from your perspective as 
a lifelong forester? You are certainly not in the position that 
you are in without having some scientific expertise in terms of 
forest management.
    Mr. Garner. If I understand your question, it was, will 
thinning and active management connected with prescribed 
burning reduce fire?
    Mr. Boyd. That is it.
    Mr. Garner. It will reduce the impact of the fire and 
severity of fire, and it gives you a fighting chance of 
stopping the fire when it is unwanted. I can't imagine why it 
wouldn't work.
    Mr. Boyd. OK. That was sort of my reaction, too. I wanted 
to make sure that I got the expert's reaction.
    One of the things that we recognized with the fires in 
Florida, in those areas where we had not prescribe-burned, and 
these were on private lands or State lands, we did not 
prescribe-burn because of public pressure around highways and 
around developments--and you are nodding and smiling. You are 
familiar with that kind of a situation?
    We immediately recognized when we got into this terrible 
drought situation and the fires broke out, that the worst fires 
were in those areas where we had not prescribe-burned. 
Actually, since they were in the areas that were highly 
populated, that is where we lost our homes.
    What are you doing in Virginia to deal with that kind of 
situation and that public pressure that comes from not to 
prescribe-burn?
    Mr. Garner. Not much more than your State Forester, 
unfortunately, because of the public reaction to the smoke, the 
fear of fire, the lack of understanding of prescribed burning 
is out there, and I think the biggest thing we can do is have 
support from members from your Committee--you certainly have 
more visibility than a State Forester--to say that it is OK, 
and it is a necessary thing for the forest health, and it is a 
necessary thing for the protection of their own property, and 
that we as professionals can and do know how to manage the 
smoke.
    Mr. Boyd. Well, I hope that we will do some followup and 
bring some data, some statistics from our own experience that 
will be helpful to States all around the country.
    I have one more question, Madam Chairman, if you will 
indulge me.
    Mrs. Chenoweth. Please proceed.
    Mr. Boyd. Do you have a national forest in Virginia?
    Mr. Garner. One.
    Mr. Boyd. Do you think giving increased flexibility to the 
local or State Forester who is in charge of that national 
forest is helpful in terms of managing or reacting to these 
kinds of situations like we had in Florida?
    Mr. Garner. Of course, that is an administrative decision 
over another agency, but I am one who believes in pushing 
decisionmaking right down to the lowest possible level because 
that is where you solve problems.
    Mr. Boyd. Thank you very much, Mr. Garner. One thing that 
we learned from the fires in Florida on our national lands was, 
once the fire started and the local, on-the-ground forester had 
no authority to make decisions on how to deal with that, once 
it went up to the chain and came back, 24 to 48 hours had 
passed. We had fires that were burning upwards of 4- and 5,000 
acres a day, once they started, so that was the point that I 
wanted to make.
    You've answered it very succinctly, I think, in terms of 
lowest--push the decisionmaking down as low as you can is the 
proper way to respond?
    Mr. Garner. Yes, sir.
    Mr. Boyd. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Boyd.
    The Chair recognizes Mr. Peterson from Pennsylvania.
    Mr. Peterson. Welcome, Mr. Garner. I am from Pennsylvania 
to the north of you; and I am sure that you have worked with 
Jim Grace, our forester from Pennsylvania.
    I come from the finest hardwood forests in America, 
northern tier Pennsylvania, where oak and cherry doesn't get 
any better than that, and I don't find many people willing to 
argue with me about that.
    What do you think about the Forest Service recently 
stepped-up burn program of the hardwood forests, especially 
where they are trying to favor oak and hickory stands?
    Mr. Garner. I think it is a great thing.
    Mr. Peterson. You think it is working well?
    Mr. Garner. They are just getting started in our State, but 
I think it is needed. And if we want to maintain the CC 
composition and the diversity of the complex, I think it had to 
be.
    Mr. Peterson. When I was growing up, I was one--where I 
come from, they are not really mountains, but they are hills. I 
was one hill away from a stream where there was a railroad 
track, and every year there was a prescribed burn where the 
steam run locomotives would spew out sparks, and if you had a 
dry spring, we had smoke all spring for a week or two until 
those fires would be put out; and it is one of the finest oak 
forests in the region from that.
    How do you work with volunteer fire companies? I come from 
the most rural part of Pennsylvania, most rural district east 
of the Mississippi, and volunteer fire departments are a vital 
part of fighting fires. Do you have some plan of working with 
your volunteers?
    Mr. Garner. Yes, sir. As I noted in my remarks, in our 
opinion, and I think this is true of all of the State Foresters 
in the South, the local volunteer fire departments are a front 
line of defense. They are the first out. They keep the acreage 
small. They are out there day and night, and we couldn't--I 
would be afraid to go back to Virginia without them.
    Mr. Peterson. Do you somehow help them with State resources 
in funding?
    Mr. Garner. The biggest help that we give them is trucks, 
houses, equipment. That has got to be one of the most 
beneficial programs in the relationship between Federal 
Government and the State government. We have a small grant 
program that is administered by the U.S. Forest Service through 
the States. It is small one, but you can take a rural company 
and give them a few dollars, and you have seen what they can 
do.
    Mr. Peterson. I am going to be meeting in a few weeks--and 
the Allegheny National Forest, which is 550,000 acres, is in my 
dis-

trict, and 20 fire departments are asking to meet with me, that 
are part of the forest and who fight fires there. And they have 
never been able to use the resources from the timber cuts; the 
25 percent that goes back, that is not allowable use.
    Would you support language changed to the Federal level 
that part of that money could go back to those fire departments 
to help them?
    Mr. Garner. I will come back to the way that I answered Mr. 
Boyd's question: Push the decision to the lowest level, and let 
the localities decide. At least give them the opportunity to 
have the flexibility.
    Mr. Peterson. It would be an allowable use for the local 
department if they wanted to buy equipment or provide training, 
because volunteer firefighters are a breed of their own. They 
give their lives. It is almost a religion with them.
    If you teach them--fighting structure fires is altogether 
different than fighting forest fires, and I wonder if we 
concentrate enough on teaching them how to fight forest fires 
or giving them the tools?
    Mr. Garner. We don't.
    Mr. Peterson. See, they are a resource not on the payroll 
52 weeks a year. A little money buys you an awful lot with 
volunteer fire departments. Would you recommend that we in 
Washington look at making sure that where the fires are in the 
districts, that the volunteers are a more integral part and 
receive the training and equipment that they need?
    Mr. Garner. Yes, sir. Part of the Forest Service budget has 
a line for the volunteer fire assistance program which I think 
needs your support.
    Mr. Peterson. You would suggest expanding that?
    Mr. Garner. Yes, sir.
    Mr. Peterson. OK. How do you determine what funds and 
staffing levels you need for a given year?
    Mr. Garner. Hmm, I guess a lot of it is determined by our 
fire history and the acres that in Virginia I am responsible to 
protect. But the new factor has been, now, how many homes are 
in those acres that were not there years ago.
    And so you look at history and you know your resources. You 
know the availability of other outside fire resources. It is an 
art, not a science, as to how you determine how well prepared 
are we. Then take what we have and focus on training and focus 
on outside resources, outside of government, the forest 
industry, volunteer fire departments, schools and universities. 
Any warm body you can find, and then train and equip them.
    One of the biggest concerns that I have is giving them 
personal protection equipment. We all need to address that.
    Mr. Peterson. We have 50 senators in Pennsylvania and 250 
house members, and we had about six people that gave a damn 
what was in the forest service budget, that even looked at it, 
that wouldn't scream--that would scream if there were cuts or 
kept flat-funded for a decade.
    Do you find that in your State?
    Urban America loves the forest. They love to travel and 
hike in the forests, but they don't want to spend any money 
making sure that they are whole?
    Mr. Garner. I think that there are only a few in the 
legislature who look at and understand and appreciate the 
forestry package in any budget.
    Mr. Peterson. Thank you very much.
    Mrs. Chenoweth. Mr. Garner, I want to conclude with just a 
couple of questions and followup with the line of questioning 
that Mr. Boyd began. And I would also yield to him after I 
finish these two questions for any additions that he may wish 
to make.
    As a State Forester in Virginia, take a situation that I 
have been informed about that occurred in Florida, and I ask 
you, as a State Forester, to speak not just for Virginia but 
for the association or for other State Foresters who have been 
highly trained in terms of not only firefighting but State 
forestry and silvicultural science.
    Mr. Garner, I have been informed that in Florida there were 
two fires that occurred almost simultaneously. Both occurred 
opposite of each other on a--across from one another on a road. 
On one side of the road there was an area that had more access 
and it could be accessed by multiple agencies, and so they lost 
a total of 18 acres in this area.
    On the other side of the road, it was a wilderness area and 
fire could only be fought by the Federal Forest Service, so we 
had a turf question here. And while on one side of the road 
they lost 18 acres, on the other side of the road in a 
wilderness area where tourists like to come and view the 
wilderness, we allowed a situation to develop where the result 
was that 20,000 acres burned.
    So we look at the difference between 18 acres in an area 
that was more easily accessible and probably by more than one 
agency. On the other side, it wasn't accessible and only one 
agency can handle it.
    My question is this. Given that scenario--and that is 
tragic; I think anyone would have to admit that is tragic--and 
even though Florida's vegetation recovers more quickly than the 
east slope of the Cascades and on into the Rockies, because we 
are drier out there, nevertheless, it still takes its toll for 
several years. The landscape will never look the same.
    And so, given that scenario, wouldn't it be better if there 
could, ahead of time, be developed a cooperative agreement so 
that those agencies, whether it is the State or local agencies, 
are able to access any fire within the borders of the State to 
try to suppress it and contain it before it develops into such 
a huge fire that it is very destructive?
    Is that an area that we in the Congress should be looking 
at, more agency cooperation between the State and the Federal 
Forest Service, so that if--as a State Forester who has command 
and control of fire suppression over your own State lands, if 
you could also be given the ability to, under some sort of 
contract, be able to contain fires on Federal land? Would you 
look favorably at that, or what would your thinking be, Mr. 
Garner?
    Mr. Garner. I would look favorably at that as one State 
Forester, and I suspect that many of my colleagues would also.
    The wildernesses east of the Mississippi are a lot 
different than the wilderness in your area because they are 
smaller, they are more fragmented; and there is a tremendous--
normally, a tremendous population around those smaller 
wildernesses. And so, there-

fore, whether it be insect, disease, fire, whatever, the impact 
of eastern wilderness spills over into the private arena, and 
that can be threatening, as we have seen with both fire, 
insect, and disease.
    The lack of flexibility, the lack of the agencies to be 
able to deal with whatever is going on in that particular 
wilderness is really hamstringing all of us who are interested 
in natural resources, and I use that in its broadest context--
forest health, for whatever endangered species.
    It could be in the case that you outline simply because the 
fire could not be contained, we may have lost an endangered 
species that that land had been set aside to protect. And so 
policy issues sometimes need to rest with the man on the 
ground, or the woman on the ground, with the expert.
    And what fits West Coast doesn't fit East Coast in all 
cases when we are dealing with natural resources, and I think 
there is a real danger there.
    Mrs. Chenoweth. I do want to yield to Mr. Boyd, but I do 
want to say, in every case, whether it is the East Coast or the 
West Coast, the destruction of endangered species habitat is 
very sad when we are not able to contain fire or prepare ahead 
of time by removing unnecessary fuel load that--to see it 
destroy not only the habitat but the species itself.
    Another thing that you touched on, and I do want to 
elaborate, is the fact that in Florida and in the Eastern 
States your wilderness designations are more fragmented and 
they do abut up to multiple-use and sometimes urban interfaces. 
And so, you know, in order to protect private property and 
human lives, as well as protect endangered species and their 
habitat, I do think that we need to be a little more forward 
looking in terms of looking ahead to prevent these very, very 
hot fires. And I do want to say that prescribed burnings under 
the proper conditions are very important, and--but I believe it 
has to be the proper conditions.
    Mr. Garner. Yes, ma'am.
    Mrs. Chenoweth. With that, I will yield for a couple more 
minutes to Mr. Boyd, if he has any final questions.
    Mr. Boyd. I think you have asked the pertinent question, 
Madam Chairman, but let me just say to Mr. Garner and also to 
the next panel, because I think we would want to ask them some 
questions about this particular issue so they may prepare; the 
scenario that you just described, Madam Chairman, happened in 
the Apalachicola National Forest in Florida, which is in the 
Second Congressional District, and we believe that the fires 
which were both started adjacent to a highway running through 
the national forest were started by an arsonist, and the fire 
actually on the nonwilderness side we put out after it burned 
15 acres.
    The fire on the wilderness side, according to the numbers 
that I have in front of me, which are from the State of 
Florida, burned 24,600 acres.
    Again, we believe that since they were both started on the 
highway simultaneously, in the same area, that it was arson. We 
don't have solid proof of that, but I want to thank you, Mr. 
Garner, for your fine presentation.
    Mr. Garner. Thank you.
    Mrs. Chenoweth. Mr. Garner, I just have one final question 
that I need to ask you while you are here.
    How do you, as a professional manager, manage the smoke 
when you prescribe-burn on your State lands?
    Mr. Garner. Let me kind of qualify that first.
    In Virginia, we have very few acres of State lands; 77 
percent of the forest land in Virginia is owned by private 
individuals such as yourself. So we do a lot of burning for the 
private landowner, but smoke management is all formulated on 
weather conditions as well as the fuels of the floor, depending 
on the objective that you want to accomplish.
    An understory burn for reduction of habitat, you don't need 
the intensity of fire as you do after a logging job to clean up 
the slash. You have to know your mixing height and your whole 
spectrum of atmospheric changes that is going on.
    Is the smoke going to go up and dissipate, down and 
dissipate? Be careful that you don't burn in the fall of the 
year because at night you get an inversion and you get a lot of 
smoke on the road, which is dangerous.
    We start with the weatherman, who predicts as best he can 
what the weather conditions are going to be; and knowing what 
that smoke will do under that given set of weather conditions 
is critical in managing not only the smoke, but the fire as 
well.
    So we just don't go out and light a match and turn around 
and pick up a cup of coffee and watch it burn. It is a 
scientific process.
    Mrs. Chenoweth. Mr. Peterson?
    Mr. Peterson. Mr. Garner, if groups like the Sierra Club 
and Heartwood win the argument that they are making of zero cut 
on public land, what will happen to our public forests?
    Mr. Garner. I think that they will sit there and be used by 
a few for their own benefit, and that a lot of stewardship of 
natural resources will go to waste.
    I think that as a second part of that, our products that we 
demand from the forest have got to come from somewhere and we, 
as a nation with the scientific and professional know-how and 
the climate to have productive forests, do we say that we lock 
up ours and then do we go to some undeveloped Third World 
country that can ill afford an ecological disaster because they 
don't have the resources? Is that right, that we lock up a 
resource that we know how to manage and know how to care for, 
and push that which--we are not going to change our need for 
forest products, I don't think, in this country.
    As long as the demand is there, the wood has got to come 
from somewhere, and I think this Nation has the scientific and 
professional ability to nurture all of our natural resources 
without putting an ecological disaster on some other nation.
    Mr. Peterson. Coming from the East, I thank you, and we 
deal with more hardwoods than we do softwoods, but that varies 
up and down the coast of this country. But it is a product that 
we can be producing. Many of the outdoor sports deal with land 
where some timber has been marketed or some thinning has been 
done. In our area, we had the tornadoes in 1985 which took down 
mile-wide paths of mature oak and cherry trees, just twisted 
them apart and laid them on the ground. The thick forests that 
have grown there and the wildlife species that we didn't see 
before, because it is the kind of habitat that they need, it is 
interesting to watch that grow; and that is 20, 30 feet high a 
decade later, and the creatures that now use that as their 
home, it has been interesting to watch.
    All of that happens, but the point that I want to make is 
that we have a very strong argument made in this country by 
groups that want zero cut on public land, and I thank you for 
your testimony on that.
    Mrs. Chenoweth. Thank you, Mr. Garner, for your instructive 
and informative testimony.
    Mr. Garner. Thank you for having me.
    Mrs. Chenoweth. I thank you for this information, and it is 
a permanent part of our record. And I do want you to know that 
our record will remain open for 10 working days. Should you 
wish to add anything to your testimony, my staff would be happy 
to work with you on that.
    With that, again I want to thank you for your valuable time 
here and I will now call the third panel.
    Mr. Garner. Thank you, Madam Chairman.
    Mrs. Chenoweth. As they are taking the witness table, I 
want to say that our third panel will be comprised of Wally 
Josephson, Wildland Fire Specialist, Office of Managing Risk 
and Public Safety, U.S. Department of the Interior; Janice 
McDougle, Associate Deputy Chief for State and Private 
Forestry, Forest Service; and Ms. McDougle is accompanied by 
Denny Truesdale, Assistant Director of Fire Management for 
Operations, Forest Service, U.S. Department of Agriculture.
    You have all been here many times before, and so I will 
administer the oath.
    [Witnesses sworn.]
    Mrs. Chenoweth. We open our testimony with Mr. Josephson.

STATEMENT OF WALLY JOSEPHSON, WILDLAND FIRE SPECIALIST, OFFICE 
  OF MANAGING RISK AND PUBLIC SAFETY, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Josephson. Madam Chairman and members of the Committee, 
I appreciate the opportunity to appear before you today to 
discuss the Department of Interior's planning and budgeting 
process of the wildland management program. The Bureau of Land 
Management, the National Park Service, the Fish and Wildlife 
Service and the Bureau of Indian Affairs and are four land 
management agencies within the Department of Interior with fire 
management programs. These agencies work in close cooperation 
on budgeting, planning and implementation activities related to 
fire management.
    The Department's Wildland Fire Management Program is guided 
by the principles and policies of the Federal Wildland Fire 
Management Policy and Program Review, adopted by the 
Secretaries of Agriculture and Interior in December 1995. The 
program ensures the capability to provide a safe and cost-
effective fire management organization. Fires are suppressed at 
minimum cost, considering firefighter and public safety and 
benefit and values to be protected consistent with resource 
objectives.
    Funds for the Department's Wildland Fire Management Program 
are appropriated to the Bureau of Land Management and are made 
available by allocation to the National Park Service, Fish and 
Wildlife Service and the Bureau of Indian Affairs. The 
Department's Wildland Fire Management Program is composed of 
two activities--wildland fire preparedness and wildland fire 
operations.
    Fire preparedness involves the readiness and capability of 
the Department to suppress fire in a safe and cost-effective 
program. Staffing levels, training, fire planning, equipment, 
maintenance facilities, prevention activities and the 
interagency coordination all fall within the category of fire 
preparedness. The fire management plan is the guide for 
budgeting and managing wildland fire preparedness activity. The 
primary analysis tool of the fire plan is an economic marginal 
cost analysis, combined with a threshold analysis which is used 
to determine the most efficient level, which we call MEL. MEL 
represents the funding necessary to provide the most cost-
efficient and technically effective fire management program 
that meets land management objectives while minimizing the 
total cost of both suppression and resource damage associated 
with wildland fire.
    The fire operations portion of the program funds the 
development and implementation of the emergency suppression, 
emergency rehabilitation, hazardous fuel reduction operations, 
and fire severity programs. Emergency suppression includes all 
management actions taken to suppress wildland fires in a safe 
and cost-effective manner. Emergency rehabilitation is carried 
out to prevent any further land degradation and resource damage 
to lands impacted by unplanned wildland fire or suppression 
activities.
    Rehabilitation funds are also used to reduce any residual 
public health and safety risk that may result from wildland 
fires. Hazardous fuel reduction operations use fire and 
mechanical treatments as management tools to reduce fuel 
loadings and restore fire to its natural role in the ecosystem.
    Commercial activities, such as timber harvest and small 
wood product sales, are used whenever commodity production can 
be used in an environmentally sound manner to achieve the same 
objectives.
    Wildland fires occur unexpectedly and create an emergency 
in which firefighters must respond rapidly to minimize risk and 
damage. Despite public expectations, when the combination of 
excessive fuel buildup, steep topography, extreme weather 
conditions, multiple ignitions and extreme fire behavior occur, 
it is impossible to immediately suppress all fires. Firefighter 
and public safety must best be met with the adequate 
preparation and interagency coordination of supplies and 
services and safe, but aggressive implementation of fire 
control tactics provide for our ability to suppress fires.
    To meet these needs, the BLM, in cooperation with other DOI 
bureaus, the Forest Service and the National Weather Service, 
maintains and operates the National Interagency Fire Center at 
Boise, Idaho. The NIFC provides logistical support through its 
coordination center for the coordinated movement of suppression 
resources when local capabilities are exceeded. Response to 
requests are based upon the concepts of closest forces and 
total mobility which seek to dispatch the closest available 
qualified resource regardless of agency affiliation.
    We were asked by the Committee to identify both jobs well 
done and lessons learned as a result of the wildfires in 
Florida. While review of the past actions may lead to 
improvements, Florida fires did not indicate a major need to 
revamp our procedures. The Department of Interior and the 
coordination center, for the most part, served primarily as a 
support function. Most of the Florida fires, including most 
high profile and highly publicized fires were under the control 
of the State.
    Madam Chairman, I would like to thank the Congress for the 
direction and support that you have provided us in the 
Department of Interior. This concludes my statement.
    Mrs. Chenoweth. That you, Mr. Josephson. Very interesting.
    [The prepared statement of Mr. Josephson may be found at 
end of hearing.]
    Mrs. Chenoweth. And now the Chair recognizes Janice 
McDougle.

 STATEMENT OF JANICE McDOUGLE, ACCOMPANIED BY DENNY TRUESDALE, 
 ASSISTANT DIRECTOR OF FIRE MANAGEMENT FOR OPERATIONS, FOREST 
            SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Ms. McDougle. Thank you, Madam Chairman and members of the 
Committee. I am Janice McDougle, Associate Deputy Chief for 
State and Private Forestry, with responsibility for fire and 
aviation, forest health and cooperative forestry programs. I am 
accompanied today by Denny Truesdale, who is our Assistant 
Director for Fire and Aviation Management for Operations.
    I would like, Madam Chairman, to submit my formal testimony 
for the record and briefly summarize my remarks.
    The wildfire suppression program in the United States is in 
partnership with a broad array of Federal agencies, State, 
tribal and local government and private companies. Its first 
priority is in protecting human life. When a fire occurs, we 
respond immediately. We implement attack strategies. We 
identify additional resources needed, and we expand the 
organization, as needed, to protect people and property.
    Several factors influence an effective and safe fire 
suppression program, including the expansive wildland urban 
interface, hazardous fuel conditions, the increasingly broad 
array of partners involved in suppression, and the increased 
role for the Forest Service in providing international 
assistance.
    We have an outstanding track record. The Federal 
firefighting agencies have consistently suppressed 98 percent 
of all wildfires during initial attack; only 2 percent of all 
fires account for the greatest cost and the most acreage 
burned. The five Federal Wildland Fire Management Agencies: the 
Forest Service, Bureau of Land Management, Fish and Wildlife 
Service, National Park Service and Bureau of Indian Affairs, 
are strengthening the common features of their respective 
wildland fire management planning processes.
    Initial attack analysis and planning are the backbone of 
our success. The National Fire Management Analysis System is a 
model we use to identify the most efficient firefighting 
organization. Developed locally to determine what mix and 
distribution of initial attack resources will provide a cost-
effective fire suppression program, the results of the local 
analysis are aggregated into the national program. This assures 
the most responsive organization possible.
    When initial attack fails and local resources are not 
capable of controlling one or more wildfires, we shift to 
extended attack and assign national resources such as incident 
management teams and interagency Hotshot crews, and large 
airtankers.
    In 1998, the Federal agencies are fully staffed for the 
fire season. We have adequate resources in every region for 
effective suppression, assuming that this is, and will be, an 
average year. The Florida effort affirmed the value of a 
prescribed fire program to create more fire tolerant ecosystems 
and better protect homes and improvements. It also reinforced 
the value of our safety program. In Florida we even had to 
educate crews from other regions of the health and fire threats 
unique to Florida.
    The Forest Service's fire suppression program is 
professional. It is responsive to the concerns and needs of 
partners, and it is based on the continuous study of historical 
fire occurrences and risk. We are very proud of this program, 
its value to the public and the firefighters who work endless 
days and get great satisfaction from the protection of people 
and resources.
    Madam Chairman, this concludes my remarks, and I would be 
happy to answer any questions.
    Mrs. Chenoweth. Thank you Ms. McDougle.
    [The prepared statement of Ms. McDougle may be found at end 
of hearing.]
    Mrs. Chenoweth. And the Chair recognizes Mr. Schaffer, the 
gentleman from Colorado.
    Mr. Schaffer. Thank you, Madam Chairman.
    Ms. McDougle, when it comes to the controlled burns, what 
kind of resources do you find that you need to devote to 
helping--assisting in managing these controlled burns? Is there 
any----
    Ms. McDougle. You are talking about our fuels program? Is 
that what you are talking about?
    Mr. Schaffer. On those occasions when we increase--for 
example, we increased rather dramatically, to the extent of 
about 400 percent, the amount of public lands that are slated 
for controlled burns. When we do that, I assume that there is 
some kind of prevention-suppression personnel that are needed 
to help contain and maintain and make sure that those burns are 
controlled.
    I guess my question is, how much in the way of personnel do 
we consume in managing controlled burns?
    Ms. McDougle. Acres are identified by our field personnel. 
We don't do that out of the Washington office.
    We estimate that in fiscal year 1999 we will treat about 
1.4 million acres out there nationally just within the Forest 
Service. But fuels treatment is an interagency priority, and 
other land management agencies will do that as well. By the 
year 2005, we estimate that we will be burning up to about 3 
million acres a year--treating 3 million acres a year, and that 
is probably as much as we can do with smoke considerations.
    Mr. Schaffer. Let me ask you, in Colorado, for example, 
there are stakeholders who are constantly negotiating how many 
acres might be subject to active management. To your knowledge, 
have administrative appeals of forest plans or timber sales 
made action necessary to prevent dangerous fires?
    Ms. McDougle. I am not clear what you are asking. Can 
appeals apply to all of our ground disturbing activities? That 
is just part of the process. Beyond that, I am not sure.
    Mr. Schaffer. There are proposals to expand the acreage 
that would be under a managed category. As long as there are 
administrative appeals pending, presumably there is not much in 
the way of management that takes place on those occasions. Is 
this as a result of the policies of the departments that we are 
unable to go ahead and begin managing these lands for fire 
prevention in ways that might----
    Ms. McDougle. I can't speak to specific activities in 
Colorado, but my overall answer is no.
    Mr. Schaffer. The last part of your answer?
    Ms. McDougle. My overall answer is no.
    Mr. Schaffer. You don't believe that there are any?
    Ms. McDougle. I really would prefer to speak to specifics, 
but I am not sure what you are talking about here.
    Mr. Schaffer. You are not sure about the impact of the 
administrative appeals process on the ability to begin managing 
land?
    Ms. McDougle. We have been living with administrative 
appeals process for many years, so I am struggling here.
    Mr. Schaffer. Do you believe it has any delay at all on our 
ability to engage active management plans that might be useful 
in suppressing or preventing wildfires?
    Ms. McDougle. The process itself is not new. Maybe the 
number of appeals you are getting out there may have changed, 
but the process, we have lived with. We factor it into our day-
to-day activities, and it is applied much broader than what you 
are talking about here.
    Mr. Schaffer. So you don't believe that the length of time 
that these appeals take to be resolved has any impact?
    Ms. McDougle. It depends on how many you get. Some, you get 
few and some you get lots. It varies from decision to decision.
    Mr. Schaffer. What steps are we taking to better predict 
where forest fires are likely to occur?
    Ms. McDougle. There are about 40 million acres that are at 
high risk for fires, big fires. We will have those numbers 
refined later on this fall and have a clearer idea of where 
they are. We also already have a map, a national map, that lays 
out across ownership those areas that are at high risk for 
mortality from insect and disease; and once we are able to 
merge that information, it will help us tremendously in 
determining our priorities.
    Mr. Schaffer. Thank you, Madam Chairman.
    Mrs. Chenoweth. The Chair recognizes Mr. Boyd.
    Mr. Boyd. Thank you very much, Madam Chairman.
    Ms. McDougle, I want to express my appreciation to the 
folks that work for you, all of the way down to the last 
firefighter. Certainly we don't have any quarrel with them. 
They do an outstanding job, and I know that is under your 
leadership and we are very grateful. We are not always pleased 
with the policy sometimes, and that is primarily what I want to 
discuss today.
    I am not mean or bad or anything, I want you to know that, 
but I do have some very serious questions about the policy.
    First of all, I want to lay out the situation that we have 
in north Florida. One of the reasons that I ask Chairman 
Chenoweth, and she agreed to let me come sit because--we have 
three national forests in Florida, two of them are in the 
Second Congressional District, the Apalachicola National 
Forest, southwest of Tallahassee, and the Osceola National 
Forest, which is between Tallahassee and Jacksonville and 
Gainesville.
    The Apalachicola National Forest is a very special place. 
You may or may not know that it contains--I forget the exact 
acreage--almost 600,000 acres. It was actually a piece of land 
that was clear-cut back in the early 1900's, in those days when 
we did some silly things in terms of our natural resources. But 
through a sensible management program over the last 70 or 80 
years, we have managed to rehabilitate that and bring it back 
to a vibrant, live forest that today houses the world's largest 
red-cockaded woodpecker population, and we are very proud of 
that.
    There have been--for your information, there has been a lot 
of controversy in north Florida about forest management 
practices there, primarily--well, basically how we manage it 
and how we have cut the timber. As you may know, there has been 
a restriction of timber cutting in the last few years; it has 
almost come down to nothing. Even though the fact that the plan 
we have been on for the last 70 or 80 years had gotten us to a 
very good point to wildlife habitat and a natural setting that 
we are very proud of in the last 10 or 15 years, we suddenly 
want to change that. And it has created some real problems in 
some of the communities that I represent, primarily with the 
local governments in terms of the tax revenue that they have 
been receiving.
    As you know, we put in place two programs to offset those 
abnormal tax issues for the local communities. One was the 
PILT, Payment in Lieu of Taxes, Program, which still exists, 
and the other was a 25 percent program. But most of the people 
that you talk to about the 25 percent program, they will kind 
of laugh at you and say, the Federal Government really pulled 
one over on us; they said, we are going to give you 25 percent 
of everything that we cut, but then they reduced the cutting to 
practically nothing. And we have school systems--I have one 
school system which is in deep trouble because of the loss of 
those funds. I give you that as kind of a background to let you 
know where I am coming from.
    I have spent all of my professional life in agriculture. 
Part of that was forestry management. I managed for three 
specific purposes. One was for aesthetic value, economic 
production and wildlife habitat. I believe they are not 
incompatible. I believe they are compatible, and I have 
struggled understanding this great debate that we have going on 
between the extreme environmental community and the extreme 
economic community, if you understand what I mean.
    Ms. McDougle. Yes, I do.
    Mr. Boyd. Now, I get to the questions, and thank you, Madam 
Chairman, for indulging me on that. I wanted everybody to 
understand the lay of the land.
    The situation that was described earlier about the two 
fires that started on the highway, what is your reaction to 
that? First, if you will, just give me your reaction and then 
let me ask some specific questions.
    Ms. McDougle. My understanding of that situation was that 
it was not--it was not described to me as a wilderness issue. 
It was described to me as swamp burning and the inability to 
get equipment, heavy equipment, into the area, and it was also 
a safety issue. And that is why the decision was made to let it 
go.
    Mr. Boyd. If it was described as a swamp issue, someone 
inaccurately described it. One side of the road was 
wilderness--and we can look at the maps afterwards--and the 
other side was not. Because of the inability of the person on 
the ground to understand what authority they had or didn't 
have, then we had a situation that burned about 24,000 acres. 
And actually at the end of that it was beginning to threaten 
some populated areas on the west side.
    So that really leads me to the issue about the authority 
that people have on the ground, and I have had this discussion 
with Ms. Marcia Kearney, who is your new national State Forest 
Supervisor, and I spent some time 2 weeks ago looking and 
observing the burned areas.
    One of the things that I would like to see come out of this 
is more flexibility for the people on the ground who need to 
make decisions quickly, because it has to come to your office. 
It takes 24 to 48 hours. You have got something that is totally 
out of control by then. In 48 hours, those fires had burned 
10,000 acres.
    Give me your reaction to more flexibility on the ground.
    Ms. McDougle. The things--and Denny can speak to the 
command issue. When things come to us, we send them back. We 
don't try to second-guess decisions out there. We can't. And we 
entrust our incident commanders with responsibility and 
authority to do the right thing.
    And so, yes, people do come to us. We do get calls, but we 
send them to the field.
    Mr. Boyd. Madam Chairman, if you will indulge me for one 
more question, then I will quit for the time being.
    Under what circumstances are the wilderness rules--could we 
have gone in and stopped that fire with all resources that we 
had available when we first discovered it? Are there within the 
law provisions which allow us to waive rules?
    Ms. McDougle. For a big fire, sure.
    Mr. Boyd. Who would have to make that waiver?
    Ms. McDougle. I am not sure, but we believe that the 
regional foresters have the authority to make that call.
    Again, we don't.
    Mr. Boyd. That is not what the regional foresters are 
telling me, and that is something that maybe we can work 
together on, to clarify that authority.
    Ms. McDougle. OK.
    Mr. Boyd. My point is that there ought to be clear rules 
about when we can use that waiver, and we ought to give that 
authority either to the local forester in charge of that forest 
or your State Forester who can be there in a matter of hours 
under any circumstances. Maybe that is something that we can 
work together on, because it definitely--in this case, we 
burned about 24,000 acres that probably could have been 
prevented.
    Madam Chairman, I will defer any other questions until 
later on if we have more time.
    Mrs. Chenoweth. All right, Mr. Boyd.
    Mr. Peterson.
    Mr. Peterson. Mr. Josephson, we heard from the Forest 
Service that they estimate that 40 million acres of their land 
are at risk for catastrophic fires. What would be the figure on 
the land that you manage?
    Mr. Josephson. I don't have a figure at this time, but I 
can provide one in the future.
    Mr. Peterson. That is not a figure that you have heard 
talked about? Is there is a process for developing one?
    Mr. Josephson. Yes, we are in the process of coming up with 
a figure.
    Mr. Peterson. Do you think that it is sizable, like the 
Forest Service?
    Mr. Josephson. I am sure that it is significant in acreage, 
yes.
    Mr. Peterson. Is there a plan being developed to shrink it? 
It seems like 40 million acres, one agency that is at risk for 
catastrophic fire, that is a destructive fire.
    Mr. Josephson. Yes. We are trying to set in place a program 
to manage the fuels and reduce the fuel loading.
    Mr. Peterson. But as has been discussed here, there have 
been some policy shifts in the last few years that some feel 
make it really impossible to manage the fuel load. You can't 
remove fuel without cutting it or doing something with it. If 
we are moving toward a zero-cut policy, and there has certainly 
been a lot of evidence toward that, how do you manage the fuel 
load if, above you, decisions are being made that we are not 
going to cut trees?
    Mr. Josephson. I think you have to look at each situation 
and develop a plan to manage that particular piece of ground, 
and it has to be done at the local level.
    Mr. Peterson. But we have already found out that local 
people are not making those decisions, are not allowed to make 
those decisions.
    Mr. Josephson. At least for the Department of Interior, the 
local manager is the one who develops the fuel management 
program and the plans to modify the fuels on the ground.
    Mr. Peterson. And then he has to get approval from 
Washington?
    Mr. Josephson. No, it is generally the next level higher 
which signs off on the approval.
    Mr. Peterson. The regional?
    Mr. Josephson. Depending on the agency, whether it is 
regional or State level.
    Mr. Peterson. If I can switch to Ms. McDougle.
    I don't mean to sound harsh, because it is not personal, 
but there are those who give your agency just A-pluses in 
fighting fires and moving fast and working hard and 
coordinating; but they give very bad grades on the efforts to 
minimize fires.
    Do you find policies that you have no control over prevent 
you from really doing that job?
    Ms. McDougle. I am not sure that I understand what you are 
saying. What do you mean, efforts to minimize fires?
    Mr. Peterson. You admit you are 40 million acres at risk 
for catastrophic fires?
    Ms. McDougle. Yes.
    Mr. Peterson. There are many who feel that the Forest 
Service is failing at carrying out the role to lower that 
number and to prevent these catastrophic fires by doing what is 
necessary.
    Ms. McDougle. I think that our acres targeted for reduction 
in our budgets reflect just the opposite, and Congress has been 
very supportive in supporting our budget increases to do that. 
And we are--yes, we are meeting the targets which we have 
identified.
    Mr. Peterson. That may be more current, but I am speaking 
of historic, in the last few years. Are you--you have had an 
increase in the last year or two?
    Ms. McDougle. Yes.
    Mr. Peterson. So you are shifting policy and coming back to 
the burn policy?
    Ms. McDougle. I think we know more about fire ecology now, 
and that is not unique to the Forest Service. That is true of 
all land management agencies. We have capped fire out of the 
ecosystem, and now we are paying for it. We thought that was 
the right thing to do at the time, and now we are learning 
differently. I don't think that it is a matter of being 
irresponsible; it is how much science we know about fire 
ecology, and we know more now.
    Mr. Peterson. I agree, but there are those who believe that 
never in the history of these agencies has there been as much 
influence from nonscientists who are in powerful policymaking 
decisions. Many feel that they have veered from science to 
political agendas, and that the Forest Service and the 
Department of Interior have not been able to manage, that sound 
science has been moved away from; and we are finding that 
didn't work.
    Ms. McDougle. That hasn't been an issue in fire.
    Mr. Peterson. You don't think policies from leaders of this 
country have had an impact in preventing catastrophic fires?
    Ms. McDougle. The Forest Service is not out here by itself 
making these calls and establishing these priorities.
    I think the fire business among the agencies is probably 
one of the best models of how this should work, and it works 
very, very well.
    Mr. Peterson. Well, I would agree with you once we have the 
fire. Many people do not agree with you in preventing those 
fires, and I will conclude with that.
    Mrs. Chenoweth. Ms. McDougle, I am going to continue on 
that line of questioning, because we do have some very specific 
concerns about how the U.S. Forest Service reacts in its 
decisionmaking processes with those who are on the ground, 
those who are at the site of the fire, and the decisions that 
are made.
    I do want to read the following questions, because they 
were questions that were submitted to me by Congresswoman 
Tillie Fowler, whose district also was impacted very heavily by 
the fires; and this goes to the line of questions that Mr. 
Peterson was involved in, and that is the Forest Service 
activities and decisionmaking on the ground when the fire is in 
process.
    Ms. Fowler submitted the following question:

    During the Florida fires, a Super Scooper aircraft, a can 
Canadair CL-215 firefighting aircraft was sent down from North 
Carolina to help fight the fires. Unfortunately, this asset was 
not properly used during the Florida fires. Although it is able 
to successfully complete over nine drops of water each hour, it 
was only used efficiently for 1 day. It spent 3 days on the 
ground and at least 1 day flying on the same schedule as the 
slower tankers.
    Why was this firefighting aircraft used so inefficiently? 
And the fires began on Memorial Day weekend and the Super 
Scooper was not brought into those fires until a month later, 
when it only had to come from North Carolina. What was the 
reason for the delay in requesting this aircraft and bringing 
it down to Florida?
    Finally, although the company that makes this aircraft is 
based in Canada, it does have production facilities in the 
United States, and we should, as a matter of fact, be able to 
use any aircraft available to us that would be more responsive 
in terms of its capabilities in putting out large fires like 
the one that we have been referring to in the wilderness areas.
    There seemed to be to Mrs. Fowler and to the people in 
Florida and the reports that the Congressmen there have gotten 
there seemed to be some resistance from the Forest Service to 
bring in these aircraft to fight the fires.
    What was the reason for the objections to the use of this 
aircraft?
    Ms. McDougle. Madam Chairman, I am going to let Denny 
Truesdale respond to that since he was down there. But I would 
like to say that I had several personal conversations with Ms. 
Fowler, not specific to the Super Scooper, but to the 
availability of helicopters, and I immediately called the 
incident commander and said, talk to this lady and he did.
    So we were responsive to her in a number of ways, but as 
to--and I know that the State Forester for Florida was the one 
who initially requested the Super Scooper.
    Mrs. Chenoweth. Therein lay the problem.
    Mr. Truesdale, please proceed.
    Mr. Truesdale. Thank you. I tried to take notes as you went 
through the questions, but if I miss one, please refresh my 
memory.
    The first question regarded the efficiency or, in the 
Congressperson's words, the inefficiency when she asked the 
question. That was a very complex situation down there in 
Florida. I have talked to the State Forester, Earl Peterson, 
and I believe, according to his information, there was more 
firefighting aircraft in the State of Florida working at one 
time than has ever occurred in the history of firefighting 
within the State. Combine that with the smoky conditions, the 
weather conditions which make it very difficult to fly, and the 
inefficiencies of all kinds of aircraft, whether they are the 
large retardant bombers used extensively in the West, the 
small, single-engine airtankers which are similar to crop 
dusters, those sorts of things that are used throughout the 
East very effectively; and so inefficiencies are bound to occur 
under those situations because of the inability to fly.
    The aircraft itself had some difficulty getting pilots that 
were approved by FAA to fly in the U.S., and I believe FEMA was 
able to work with the FAA and get those pilots certified to 
work in Florida for that emergency. That took a few days in the 
delay.
    We believe that the mix of aircraft which was ordered by 
the incident commanders on the ground, both Federal, State and 
local firefighters, needed to match the local conditions there; 
and we had that full range of aircraft there, including the 
loan of the Super Scooper from North Carolina. We still had 
many other aircraft available in the West that, because of the 
congestion of the air space there, we were unable to move into 
Florida. And we feel that the Canadian aircraft is a good 
product that, in some circumstances, has a very effective use 
in places in the United States; and it is used within the 
United States in such circumstances.
    Mrs. Chenoweth. Thank you, Mr. Truesdale. I am not sure 
that we got the answer that we were looking for with regards to 
how the question was framed.
    It seems only logical that if air congestion of a number of 
aircraft was the question, if you have one aircraft that can do 
10 times the work of other smaller aircraft, that we would 
utilize that one aircraft, especially when we have a wilderness 
area, for instance, that is on fire, we can only fight it from 
the air, there are 24,000 acres that ultimately were lost.
    This appears to be the situation of maybe some turf 
battles. I hope that didn't happen. But it gives every 
appearance of being.
    So for us, for the American people, Mr. Truesdale, I would 
love--I would not just love it, I would ask that you submit to 
this Committee and to Mrs. Fowler and to the rest of the 
congressional delegation a complete report on how aircraft were 
deployed and utilized, who was in control, who were making the 
command decisions down there, and who was cooperating with whom 
in terms of how the Federal and the State foresters were 
cooperating with one another.
    It will be very instructive to us in the future because I 
hear the same complaints in Boise sometimes. Aircraft are 
brought in and they are embargoed right there in Boise, and 
they cannot be used by their owners for other purposes and they 
sit on the ground. So this would be a very good opportunity to 
bring more understanding as to the problem that Mrs. Fowler has 
pointed out, and it will enable all of us to be able to avoid 
that problem in the future.
    Even though it is a Canadian aircraft, there should have 
been very little reason for it to be used only a minimal amount 
of time; and there should have been very little reason for it 
to have taken a month for it to be called from North Carolina. 
So naturally the Committee has questions about it, and so we do 
look forward to a more detailed report.
    Do you have any comments with regards to the detailed 
report that this chairman is asking for?
    [The information referred to may be found at end of 
hearing.]
    Mr. Truesdale. No.
    First of all, we will be happy to respond to your request. 
We are in the process with the State agencies, the other 
agencies who responded, in looking at the entire mobilization 
down there, the process that brought the people from throughout 
the United States, as well as some of the individual fires; and 
we will add that into our list of items that we need to review 
and report back to you.
    I probably was not very clear in some of my earlier 
statements here, and let me add just one more comment.
    Even though the CL-215 is an aircraft, an airplane, it is 
most comparable in firefighting use with the large helicopters, 
the Sikorskys, the Sky Cranes, what we call Type 1 or heavy-
lift helicopters; they drop at approximately the same speed. 
Although helicopters can actually hover, they usually maintain 
some forward speed. They fly slowly and have quick turnaround 
times. They can use the same water sources that the Super 
Scoopers use. They are more maneuverable than aircraft because 
they can be directed more precisely because of their ability to 
fly so slowly.
    My comparison with the need for the incident commanders to 
make a decision on the type of aircraft was a tradeoff for a 
similar category in dropping ability between the Type 1 
aircraft and the Canadian aircraft. The Type 1 helicopters we 
have, I don't know what the numbers are, but 20, 30, 40 are on 
contract throughout the United States. There were numerous Type 
1 helicopters in the State of Florida dropping both for the 
Forest Service on Federal fires, for the State on State-
protected fires; and I think they were also used cooperatively 
with the counties. So our comparison would be more with the 
Type 1 helicopter than with the 2,000-, 3,000-gallon water 
retardant aircraft.
    Mrs. Chenoweth. Thank you, Mr. Truesdale. I look forward to 
receiving that report within 30 days.
    Mr. Truesdale. We will get you a report within 30 days. The 
completeness and the specificity that you asked for, I am not 
sure that all of the reviews will be completed by that time, 
but within 30 days we will let you know the status of the 
information that we have. Thank you.
    Mrs. Chenoweth. Within 30 days I would like to see in the 
report the evidence that you have worked with the State 
forester in trying to find out where the breakdown was or what 
is perceived as a breakdown.
    So I would like to see in that report within 30 days the 
fact that you have coordinated with the State and what your 
report is.
    I will also be working through Mr. Boyd to receive a like 
report from the State forester.
    Would you be willing to assist the Committee in that, Mr. 
Boyd?
    Mr. Boyd. Absolutely, Madam Chairman.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. All right.
    I have a couple more questions. It has been mentioned in 
the newspaper, Mrs. Fowler also wanted us to mention this, that 
perhaps the command structure for fighting the fires was in a 
state of confusion throughout some of the time that the fires 
were burning, and the communication between coordinating 
agencies was not all that it should be during an emergency 
situation. This was her last comment, and I do--would expect 
that in the report you will be able to respond to these 
concerns and what we can do in the future to improve it.
    Now, going back to some of my questions, I have two 
questions for you. What role did we play this year in the fires 
in Mexico and last year in the fires in Indonesia, Ms. 
McDougle?
    Ms. McDougle. Well, Denny Truesdale accompanied a group to 
Mexico, so I would like for him to speak to that.
    Mrs. Chenoweth. All right.
    Mr. Truesdale. I will go to Indonesia first. I did not go 
to Indonesia. The assistance to Indonesia was a combination of 
Department of Defense, U.S. military assets, aircraft, the C-
130's and MAFFS units--and I didn't come prepared with the 
acronym, but it is Mobile Aviation Firefighting Systems or 
something. It is the systems that slide into the C-130 which 
drop retardant, which make cargo-carrying aircraft retardant 
aircraft, and we supplied a few technical experts and personnel 
to assist the Indonesian Government in utilizing those 
aircraft, and we may have provided some other technical advice.
    But for practical purposes, that was the extent of the 
assistance to Indonesia.
    Mrs. Chenoweth. What about the fire in Mexico this year?
    Mr. Truesdale. The fire in Mexico this year was a little 
more extensive. The Mexican Government requested technical 
experts in the same issue we have just been talking about, the 
use of helicopters and aviation resources to fight fires and 
assist with planning, fire detection and mapping, that sort of 
thing. And then the use of the incident command system and the 
coordination process we use to manage fires.
    We sent approximately--and when I say ``we,'' it is the 
interagency wildfire community. This included State of Texas 
employees, government of Mexico employees, Department of 
Interior employees, not just the Forest Service. We sent 
approximately 100 people to Mexico over about a 6-week period 
to assist them.
    The fires in Mexico, while related to the fires in Florida 
because of the commonality of the weather--extreme drought and 
the fact that fires had not occurred in Florida for 50 years--
this was the worst, as Mr. Boyd stated. The same is true with 
Mexico except in the states of Chiapas and Oaxaca, and some of 
the areas down there, fires had never occurred to that extent 
in the history of the people down there. There is a wide range 
of reasons for that, which I am not an expert on, but because 
of the remoteness of the area--unlike Florida, Chiapas and 
Oaxaca are extremely mountainous and remote--and the use of 
helicopters was needed to get people to the fires and the use 
of the infrared mapping aircraft was necessary to assist the 
Mexican and the Guatemalan Governments in locating where the 
fires were.
    Mrs. Chenoweth. Did we deploy personnel like our Hotshots 
down there?
    Mr. Truesdale. No. All of the firefighters, the people like 
the Hotshot crews that go out and fight the fire were Mexicans. 
They did not request any assistance, just the technical 
assistance and those activities already described.
    Mrs. Chenoweth. Mr. Truesdale, I will address this question 
to you or Ms. McDougle, whoever wishes to answer it.
    Our Hotshot crews are the pride of the Forest Service, and 
as you know, Hotshot crews were deployed out of Boise into 
Florida even.
    And as you know, the Boise Hotshot crew, which is in my 
mind the premier of the premiers, was put on hold, and I have a 
lot of my Hotshots in Boise counting needles on trees and doing 
landscape gridding, and I am not one bit happy about it; I am a 
very unhappy camper about that.
    I do want assurance from you, Ms. McDougle, that our Boise 
Hotshot Crew will be up and operating full speed again in a 
very short period of time. I would like to know how soon we are 
going to get them up and operating and get those very highly 
skilled and highly trained men back doing what they have been 
trained to do instead of counting needles and laying out 
landscape grids.
    Ms. McDougle. We believe that they will be back next year. 
We don't think that we can do it any sooner than that, and as I 
understand, the investigations are still ongoing. So we have to 
let that play out, and then we can regroup.
    Mrs. Chenoweth. You know, let me just say for the record 
that this is very frustrating for me. There was an incident 
that could have been a criminal violation that happened between 
a couple of people, but that is absolutely no excuse for doing 
away with one of the best Hotshot crews in the Nation. The 
program should go on while investigating with regards to the 
conduct of two people who probably, or may have, conducted 
themselves inappropriately, that investigation should go on 
uninterrupted; and I have given the Forest Service several 
months' time and have urged the Congress to stay out of this, 
but I am growing increasingly impatient if I continue to hear 
that because of an ongoing investigation, because of the 
violation that two people were involved in, that that is not 
sufficient reason to give me--not to give me dates specific and 
times as to the degree that we are going to see this very, very 
important Hotshot crew reinstituted.
    I am, as you can tell, growing increasingly impatient. I 
want to know dates. I want to know when those people are going 
to be back to work doing what they have been trained for. When 
will you have that answer for me?
    Last time I asked for direct answers, I said, ``Close of 
business by tomorrow or I am going to have subpoenas ready.'' I 
am not prepared to do that yet, but I am getting awful close, 
because Boise has had a tremendous amount of fire. We have an 
area there where 600,000 acres have burned, and the fires on 
the Boise foothills threaten our homes every other year.
    Ms. McDougle. Well, Madam Chairman, I believe that we have 
been responsive to your capability in Idaho. We have 
supplemented what you have there. No, it isn't the Hotshot 
crew, but in terms of the equipment and the people that we have 
deployed to your State for this season, I thought that you were 
satisfied with what we have done today.
    Now----
    Mrs. Chenoweth. I have been satisfied to date, but I do 
want to open it up again to find out when it is that we will 
have these people back on duty.
    Ms. McDougle. I understand. And I am not convinced that it 
is two people. I don't know how this is going to turn out. I 
don't know who, if anybody, is going to be indicted. I know 
that it is out of our hands; it is in the Justice Department.
    We have no control over it, so I am not comfortable at this 
point in time in moving ahead with that until I have some 
assurances that I am doing the right thing with the right 
people; and that is all that I am saying. I understand your 
desire, and I believe that we can be responsive to it in a way 
that you desire. But I am just not comfortable right now, 
because I don't know how this is going to play out. I have no 
idea.
    Mrs. Chenoweth. I just want us together as a Congress and 
as an agency to always keep the goal in mind, and I think we 
would have to agree on the fact that government's ultimate 
responsibility is to make sure that necessary services are 
fulfilled and--necessary services being fighting fire; and when 
we see skilled people who are not under indictment being laid 
off to count needles on trees, that does not make me very 
sanguine at all.
    Ms. McDougle. I understand.
    Mrs. Chenoweth. So the program has to go on. Ms. McDougle, 
I know you share that with me, the fact that that necessary 
program is gone.
    So I look forward to staying in touch with you and your 
staff on that as we proceed.
    Ms. McDougle. I would be happy to.
    Mrs. Chenoweth. Thank you very much.
    Ms. McDougle. You are welcome.
    Mrs. Chenoweth. I would like to ask the gentleman from 
Colorado if he has any other questions.
    Mr. Boyd. Thank you, Madam Chairman. I want to shift gears 
for just a minute.
    Mrs. Chenoweth. The gentleman from Florida. Please proceed.
    Mr. Boyd. Ms. McDougle, do you agree with the press 
accounts that forest roads greatly assisted in the suppression 
of fires in Florida?
    Ms. McDougle. I am sorry?
    Mr. Boyd. Do you agree with the press accounts that forest 
roads greatly assisted with the fighting of the fires that we 
had in Florida?
    Ms. McDougle. I don't know that. I have not seen those 
press accounts, but we do--we are aware that that access to 
fires is very important, yes.
    Mr. Boyd. Mr. Truesdale is shaking his head, yes. I guess 
that means that you agree with those press accounts.
    Mr. Truesdale. Yes. Again, I am not familiar with the 
specific ones, but roads are a very effective barrier many 
times in fighting fires.
    Mr. Boyd. Having seen the--partially seen the fires in the 
Osceola National Forest, I can assure you that they were the 
key in us preventing the spread of that into private lands and 
into populated areas.
    Ms. McDougle, I have had discussions with Mr. Peterson, who 
is our State Forester with your people, Ms. Kearney, who is 
your State Forester in the national forests of Florida, the 
people who came in from other States, the local firefighters, 
and I think overall that most everybody agrees that the 
coordinated effort that was made in Florida was good, and I 
want to lay that out, that we feel that way.
    I think any time that you do, that you experience--have a 
new experience, and in Florida that was something new for us. 
We haven't had a spread of wildfires of that magnitude in 
Florida since I can remember in my lifetime, so we are breaking 
new ground down there. Any time you break new ground, obviously 
you make some mistakes, and obviously you want to evaluate what 
happened and how you can do it better next time.
    I have had this discussion with Mr. Peterson. As a matter 
of fact, Mr. Peterson came before this Committee last week and, 
overall, he gave high marks to the coordinated efforts that 
were done in Florida; and a lot of that was done through your 
office and the folks that work for you.
    However, he did say that he felt that better coordination 
could be done in the area of equipment ordering and placement 
and that kind of thing, and that there was an ongoing 
evaluation with your folks. Also, long-range planning in order 
to more effectively pre-position people and equipment, 
particularly when we got into the situation where the fire 
started breaking out.
    And I have had these discussions with Ms. Kearney, and it 
is something I think that you all have learned and I am sure 
that is going to be a part of your evaluation process and your 
report. So I won't ask any questions about that. I think that 
you all, I am sure that you all will have that evaluation 
process done, and you will get a report to us, and it will be a 
very positive thing for all of us.
    Rehab efforts, I want to talk about rehab efforts, 
rehabilitation. Mr. Peterson stated before this Committee that 
rehabilitation efforts on State lands had begun even prior to 
the time that all of the fires were out. Salvage timber sales, 
for example, were already being prepared and he was about to 
let bids on salvage timber sales.
    What is the status of rehab efforts on our national lands?
    Ms. McDougle. We sent a team down--yesterday, in fact--to 
take a look; we sent our technical experts on that, to take a 
look at it. I think Osceola is probably the only one where 
there could be some salvage opportunities, but we don't know 
that yet. We will be meeting with our forest employees and 
Marcia Kearney, who is the Forest Supervisor for the national 
forest of Florida, as well as Mr. Peterson, to come up with 
some assessment of salvage opportunities.
    Mr. Boyd. Well, I think that is a pretty good analysis of 
an update, because I talked to Mr. Lawrence, who is an Osceola 
National Forest forester, probably 10 days ago--this is after 
all the fires were out--and he explained to me at that time 
that August 3rd would be the date that the assessment team came 
in. That was yesterday. You said they went in, and it would 
take them at least a week to 10 days to do that work, and then 
we had a NEPA process to go through.
    I can tell you, Ms. McDougle, that in Florida when all of 
that is done, said and done, 60 days from now, there won't be 
any need for any salvage rehabilitation effort because the 
timber will be of no value, because that is the way it is in 
the Southeast; with our high humidity, we get the blue stain. 
And, you know, we haven't started this process.
    The fires have been out for a month now. We are today 
beginning our assessment. We are going to do that assessment 
for 10 days, and then we are going to go through a 45-day NEPA 
process, and then we might as well not have done all that.
    So my question to you is, is there something to be learned 
from this? Can we work together to change this process somehow 
or another, so that the rehabilitation effort will mean 
something to us?
    Ms. McDougle. Oh, I don't know if the process needs 
changing or if we need to better engage those who have 
regulatory authority over some of these things, like we did for 
the Texas blow-down effort and others. There was some real 
partnership that occurred with, for example, CEQ and the Forest 
Service in that effort; and that was a forest health issue, and 
it worked.
    So I think you just need, the folks you need to get 
involved, involved as soon as possible, and work something out 
that is meaningful. We do have red-cockaded woodpecker habitat 
down there that has been destroyed. There is a need to move 
urgently if that is at all possible, but I understand that the 
market has bottomed out down there.
    Mr. Boyd. Well, the market on the pulpwood side has 
bottomed out and probably not much there, but on the sawn 
timber side--and of course the pulpwood can stand for a long 
period of time, but on the sawn timber side, that is where our 
timing is of the essence; and the markets are still holding up 
pretty good because we can move that pretty far away at a 
reasonable cost.
    So my question to you is, who is it--and you suggested that 
we work with the appropriate people. Tell me who the 
appropriate people are.
    Ms. McDougle. First, we need to wait for the assessment to 
be completed to see what they really need. I don't know that 
yet.
    Mr. Boyd. When will the assessment be completed?
    Ms. McDougle. They are working on it now. I don't know. I 
can get back to you with that.
    Mr. Boyd. OK. Mr. Lawrence told me it would take a week. Is 
that----
    Ms. McDougle. I won't second-judge that. I don't know. It 
just depends on how much they are looking at.
    Mr. Boyd. So then, next week sometime we could get back 
together and figure out who we need to go to to expedite?
    Ms. McDougle. We can give you some sense of how long it is 
going to take to finish that this week, so we can do that.
    Mr. Boyd. Thank you very much.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. Mr. Schaffer.
    Mr. Schaffer. Thank you, Madam Chairman.
    I want to followup on that quickly, because in addition to 
the 60 days of assessment and evaluation that goes on, as this 
administrative appeals process that I mentioned in our last 
round of questioning, because that is the next stage that tends 
to tie up salvage operations for timber sales and so on, and 
the appeals process, the duration has nothing to do with how 
many appeals there may be.
    It is a consistent process in every single case. When this 
timber is dead or is dying, the time for analysis, decisions 
and the appeals, and sometimes the litigation that you pile on 
top of that, can be so long that you lose any value in the 
timber.
    Let me ask, do you agree with that? Previously you said you 
didn't agree or didn't believe that the administrative appeals 
process had any impact on the ability to treat damaged acreage, 
and so you have heard an immediate example in Florida.
    And again, Congressman Boyd's example didn't really 
contemplate the appeals process where some environmental group, 
I guarantee, is going to come and submit--because somebody, I 
am sure, thinks that cinder-coated pieces of wood out in the 
middle of a dead forest is somehow useful and needs to stay as 
it is. But once that occurs, you are talking about I don't know 
how many months, but a long, long time.
    I want to ask you one more time. Do you believe that there 
is some need to review or evaluate the appeals process at the 
administrative level?
    Ms. McDougle. I don't think you should look at the appeals 
process in and of itself, alone, as a stand----
    Mr. Schaffer. Let me just stop you there, because we agree 
on that point. I am talking about the total duration of time an 
immediate evaluation, which can take up to 60 days including 
NEPA process, and then an appeals process established that 
exists beyond that.
    So let's not look at it in and of itself, let's look at it 
in its totality.
    Ms. McDougle. The Secretary of Agriculture already has a 
committee of scientists taking a look at recommendations to 
totally overhaul our planning process. I presume that that is 
one of the things that they are looking at as well, although I 
have not seen the result of their work.
    They are slated to be done in a couple of months, I 
believe, but I am not absolutely sure on that. I think early 
fall they will have completed their work, and I would suggest 
that we give that process an opportunity to play out to see if 
they have done something for us.
    Mr. Schaffer. Let me move on to some other questions.
    One is, I would like to get a sense for where we are headed 
with budget requests, with budget outlays, and what is the 
value of a dollar we spend in your agency on suppression and 
preparedness for the public.
    Let us talk in terms of trends. Where do you see the 
conditions across the country? Are we--it is my sense that we 
are seeing more volatile lands, more conducive to wildfires. Do 
you agree with that assessment?
    Ms. McDougle. I just testified that we believe we have 
about 40 million acres that are at high risk of catastrophic 
fire.
    Mr. Schaffer. Is that more than the previous year, more 
than previous years, if you can take a look at where we have 
headed over a longer period of time?
    Ms. McDougle. We are in the process now of refining that 
number. It could be more, it could be less. I don't know yet.
    Mr. Schaffer. Have we done these kinds of analyses 5 years 
ago, 3 years ago?
    Ms. McDougle. Not as well as we are doing them now.
    Mr. Schaffer. So do we have any sense whether there are 
more or less volatile wildlands that are susceptible to 
wildfires today than, let's just say, last year?
    Ms. McDougle. We have a better sense of where they are.
    Mr. Schaffer. Well, what is that sense?
    Ms. McDougle. Intermountain West.
    Mr. Schaffer. No, I mean what is the sense of which 
direction we are headed? Are our national forests becoming more 
volatile, susceptible to wildfires, or less?
    Ms. McDougle. Well, I would say, probably more, because 
fuels are continuing to buildup.
    Mr. Schaffer. Has there ever been any effort to try to 
quantify the value of the 40 million acres? For example, I know 
how many acres that is, but in terms of the value of those 
acres to the American people, not just in resource value, but 
also in the cost of putting out wildfires in those areas, has 
there ever been any kind of analysis if we spend a dollar up 
front how much are we going to save potentially in the coming 
year?
    Mr. Truesdale. If I may, sir, part of the analysis that we 
use in our budget, that Mr. Josephson talked about also for the 
Department of the Interior, uses a model that gives us a 
benefit cost of protecting the national forests. And the 
benefit is that if we are at the most efficient level 
organization, if we put a dollar--if we spend a dollar on 
protection, the presuppression organization, we are saving a 
dollar in suppression costs in resource damages. And that model 
has been used for 10, 15 years in order to determine an 
efficient level of budgeting for our presuppression 
organizations.
    So we do the benefit cost from that sort of side of it.
    Mr. Schaffer. In terms of various agencies, different 
Federal agencies, State agencies, and private lands, do we have 
any kind of an analysis of where our fire--our wildfire 
problems are worse and where they seem to be more easily 
contained or controlled, or maybe prevented altogether?
    Mr. Truesdale. A combination of things. With the 40 million 
acres that Janice just described that are at risk, the 
individual fire histories, most areas, including States and 
some local organizations, have fire history maps that they have 
used to determine lightning patterns, for example, or patterns 
that become obvious when you look at them, but where the roads 
go through the forests, where people have access where fires 
may start, where people live, where the wildlife interface is.
    Mr. Schaffer. How about on an agency-by-agency basis? And 
the reason I ask--I will stop, because I have expired my 
allotted time here.
    This Subcommittee did a field hearing in Idaho and Oregon, 
and one of the things that made a big impression on me was that 
I didn't realize that forest fires sometimes stop along a 
straight line and the only difference between where the fire 
burned intensely and where it stopped was that the Forest 
Service owned the land that burned to the ground and private 
interests owned the ground that is still green.
    And what it suggests to me is that--right along the 
property line is where the fire stops, and what it suggests to 
me is that your job changes from property owner to property 
owner across the country. So this 40 million acres, can you 
tell me whether the majority of these acres are Federal lands 
and whether they are managed by the Forest Service or BLM or 
some other Federal agency, or by State-held lands, or whether 
it is possibly owned by private lands? My sense, without having 
done the research, is that the greatest risk of wildfires is on 
Federal lands, federally managed lands, and I guess I want to 
get a sense of whether I am close to the mark or whether we 
know that at all.
    Ms. McDougle. That 40 million acres is Forest Service lands 
only.
    Mr. Schaffer. So this is all forest that you have estimated 
here?
    Ms. McDougle. Yes.
    Mr. Schaffer. OK. Step away from the 40 million then, and 
in terms of where our greatest risks of wildfires are across 
the country, do we know what category of ownership those lands 
fall into?
    Mr. Truesdale. Well, if you look at the State of Florida, 
for example, the risk that occurred over the past 2 or 3 
months, if you use acreage, 12.5 percent was national forest 
system's land and the rest was private or perhaps some other 
Federal lands down there. But the majority in Florida impacted 
State and private landowners instead of national forest 
systems.
    In the West, probably just in some parts of your State, for 
example, where the majority of a particular area is Federal 
land, then the risk would be higher on the Federal. But in 
Florida, the risk was highest on the State lands.
    Ms. McDougle. And to add to that, the State of Florida has 
one of the most aggressive fuels treatment programs in the 
country. Florida burns about 2 million acres a year. To give 
you some sense of Forest Service, for instance, we burn about 
1.2 million acres a year, nationwide. Florida burns about 2 and 
still, they have this problem. Had they not had this aggressive 
fuels effort ongoing to the State, it could have been a lot 
worse than it was.
    Mr. Schaffer. Thank you, Madam Chairman.
    Mrs. Chenoweth. Mr. Peterson.
    Mr. Peterson. Mr. Truesdale, would you share with the 
Committee the value of our volunteers and how we can help them?
    Mr. Truesdale. I agree with the State forester from 
Virginia that they are an extremely valuable part of the fire 
protection throughout the United States. We--from a Federal 
agency standpoint, we rely on them also as partners in fighting 
fires on national forest system lands.
    The Department of the Interior--I know Wally will say the 
same thing--uses volunteer and State organizations, and we have 
found that they have been very effective as the initial attack 
on many, many wildland fires throughout the wild-urban 
interface, even on Federal lands.
    Mr. Peterson. What do we currently do to help them be 
prepared and equipped, because--well, next week, in the next 2 
weeks at some point in time, as soon as I get a clear date, I 
am going to be meeting with 20 volunteer fire departments that 
protect the INF, and they are looking for help.
    What should I tell them?
    Mr. Truesdale. The two programs that were outlined in the 
GAO report that provide assistance, one, primarily to the State 
forester to assist in developing the training, communications 
equipment, those sorts of things for the organizations and the 
Rural Volunteer Fire Program, a program that specifically funds 
small rural volunteer fire departments; the Federal Excess 
Personal Property Program where those groups are able, through 
the State forester--and I apologize, I don't know your State 
forester, but he runs a very good program, I am sure--to manage 
that program that brings those Federal assets down to those 
volunteer areas.
    I think those are some of the best programs that we have at 
our disposal to assist those folks not only in training and 
education to help them make that transition from a structural 
fire department to a wildland, but also to get the equipment, 
which is different.
    I believe Ms. Brown in her statement said, one of the 
biggest problems they had in Florida, or maybe not the biggest, 
but one of the problems they experienced in Florida were the 
structural firefighters that, in many cases that you are 
speaking of, did not have the lightweight, no-mix fire 
protection clothing that they should have had for fighting 
wildland fires, and making that transition not just simply to 
use their structural protection equipment, but have specialized 
training. That is a very big help to those areas.
    Mr. Peterson. So State foresters administer those programs?
    Mr. Truesdale. Yes.
    Mr. Peterson. Back to the issue of prevention, the Forest 
Service uses an example--I don't have the numbers from the 
other agency, but you used to cut about 12 billion board-feet a 
year, and you have about--plus salvage, which was--2 to 3 
billion board-feet is what I have been told. Currently, you are 
cutting about 3 billion board-feet a year, which includes 
salvage. And people tell me that we really don't cut much green 
timber anymore, salvage dominates the program.
    I guess the question I want to ask, with that direction we 
are heading in, do you really have the ability to thin out 
forests that are overcrowded and impacted by insects and 
disease and drought?
    Ms. McDougle. We are currently working on an effort to do 
just that, to deal with that issue, as well as the fuels issue. 
The problem is, we have done all of the easy stuff and what is 
left in there is the small-diameter wood that we don't have 
good markets for.
    Our Madison, Wisconsin, lab is working and has done a lot 
of work, for instance, in Southeast Alaska with the communities 
to develop--help them develop markets for the small-diameter 
wood. And we are putting together for our--as we work on our 
fiscal year 2000 budget, a real initiative we believe, not only 
to deal with the forest health issue, but to create jobs in 
these communities.
    Mr. Peterson. But still, my question was a little different 
than that.
    I asked you, with your cut being about 3 billion board-feet 
a year in your average salvage--that is, after the fact; that 
is, after timber has died for some reason, or dying, has 
historically been there--does that allow you--the amount of 
timber you are cutting per year, does that allow you to thin 
forests that need thinning?
    Ms. McDougle. In addition to that, sure, if we get the 
budgets to do so.
    Mr. Peterson. But you don't--if, you are not getting them 
presently?
    Ms. McDougle. Well, I don't know that. I don't know that.
    Mr. Peterson. Well, how about last year?
    Ms. McDougle. Well, last year we did not have this 
initiative, and we have been involving the administration in 
the development of it, and so we think that there will be 
support this time.
    Mr. Peterson. Mr. Josephson, would you like to speak to BLM 
land and the Interior Department?
    Mr. Josephson. I would have to defer to the BLM. If you 
would ask that question, we will be glad to get back to you 
with an answer.
    Mr. Peterson. Would you get that information for me?
    Mr. Josephson. Be glad to.
    Mr. Peterson. I have no further questions.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. In followup to Mr. Peterson's line of 
questioning, actually in the Congress we have increases for 
Forest Service funding every year, so I urge those of you who 
have to take the hard questions here in this Committee to look 
to your administrative heads to make sure that the money we 
allocate is properly spent on those very necessary programs.
    It is not always easy to be here in front of the Committee 
when the buck stops with you, but I appreciate your candid 
answers, and I look forward to receiving your reports.
    I do want to say, Mr. Josephson, I am not going to let you 
off the hook. I do have some questions for you. Your expertise 
is in fuels management and fire; isn't it?
    Mr. Josephson. Wildland fires, that's right.
    Mrs. Chenoweth. Wildland fires. I do want to say, in Idaho, 
right where we have the National Interagency Fire Command 
Center that deploys information, as well as personnel and 
equipment, all over the United States and sometimes, when it is 
required, beyond our borders, we have a situation that is 
developing that I mentioned earlier that has required our 
former Secretary of the Interior, Cecil Andrus, former Governor 
Cecil Andrus, to take to the airwaves with BLM public service 
spots admonishing people that because we have 400 percent fuel 
load in the cheat grass to be very careful about making sure 
that there is no human-caused fire. Well, that is good, but 
that is only a small part of the problem.
    No. 1, we do have a 400 percent fuel load in that cheat 
grass that not only occupies the landscape south and east and 
west of Boise, but also north where fires that start can move 
very quickly into private land, and as we have seen in the 
past, move onto public Federal Forest Service land.
    So when I was back there this weekend, we had the oddity of 
having rainstorms in August in Boise, which is normally very 
arid and dry. But when we have dry rainstorms or thunderstorms 
move through our areas, we take an awful lot of lightning 
strikes, and that is when so many of our fires are started in 
that cheat grass area.
    Now, cheat grass, as you know, contains a certain chemical 
composition and a certain oil that when it burns, once it dries 
out, it burns very, very hot, and winds begin to perpetuate 
their own weather system because of the fire, and so it becomes 
a massive fire.
    As you know, Mr. Josephson, when fire begins on Federal 
land, if it moves to State land or to private land, there is no 
liability on the part of the Federal Government as to whether 
they have properly tried to contain the fire early on in order 
to prevent it moving onto someone else's land. But if fire 
starts on private land or State land, if it moves into the 
Federal land, then the Federal Government has been given the 
authority to hold those people liable who did not contain the 
fire properly when it was on their private land or State land. 
That seems to be a situation that is way, way out of balance.
    So with that in mind, Mr. Josephson, wouldn't it be 
advisable for the Secretary to be given the authority to 
control those fuel loads while they are still controllable? For 
instance, in the interface between urban and wildland areas, 
wouldn't it be advisable for the Secretary of Interior to be 
given the authority by Congress to take care of those fuel 
loads, either by mowing or grazing or plowing fuel breaks, or 
whatever it is, around the areas so that fire would not move 
from the Federal land on to other lands, so fire will not move 
so quickly that we lose lives like we did a couple years ago? 
Would you agree that that is a proper authority to be given 
from this Congress to the Secretary?
    Mr. Josephson. I believe the authority is already at the 
local level, and they can do interface work with the local 
communities; and if that includes plowing around the 
communities or doing prescribed burns in local areas, that is 
an option they can do at this time.
    Mrs. Chenoweth. Perhaps they can, but it has not been 
spelled out clearly enough in the law that they are willingly 
using it, and that is why we have seen the fires in that very 
area that contains the National Interagency Fire Command 
Center. I mean, it is just ironic that right there in Boise, 
Idaho, we have had tremendously destructive fires. And so--
because it has not been spelled out perfectly clearly that the 
Secretary has this authority to make those on-the-ground 
decisions, it has not been done; and so, therefore, we have 
lost property and we have lost lives with fires that began in 
those flatlands where there was a high fuel load of cheat 
grass.
    And this, we are--we are naturally very concerned because 
of the 400 percent increase in the growth of cheat grass; and 
it has not been contained when it could have been, in the 
springtime, either by mowing or grazing or whatever it might be 
that the Secretary determines would be the proper method to 
control the fuel load.
    So would you be willing to work with the Congress and a lot 
of people nationwide who are interested in making sure that 
that interface is protected? Would the BLM be willing to work 
with us on achieving that goal?
    Mr. Josephson. Yes, we would be willing to work with you to 
protect the local communities.
    Mrs. Chenoweth. And to control the fuel load that does 
buildup, in large part because of weather, either drought 
conditions or heavier than normal water years when we have a 
heavier fuel load? Will you work with us to control those 
fuels?
    Mr. Josephson. Yes.
    Mrs. Chenoweth. Thank you very much, Mr. Josephson.
    Before I close the hearing, I want to yield for another 
question from Mr. Boyd.
    Mr. Boyd. Again, I thank the chairwoman for holding this 
hearing. I am glad that you have those questions for Mr. 
Josephson. I certainly didn't want him to feel like he had been 
slighted by this panel.
    Ms. McDougle, I have one final question before we do close. 
Can you tell me that the United States Forest Service will seek 
alternative authorities for the Florida fire like they did in 
Texas?
    Ms. McDougle. No, I can't tell you that, because I don't 
know what the need is yet. I have to wait until the field 
people identify them, and then we will take a look and see what 
is needed to do that. But I have not seen what they have 
identified yet; it has not been submitted.
    I assure you that I will get back with you later on this 
week and let you know when we can expect something.
    Mr. Boyd. OK. So that is the assessment team that is in 
there now doing that work, that went in yesterday, that Mr. 
Lawrence told me should take a week or so?
    Ms. McDougle. Yes.
    Mr. Boyd. OK. That is a reasonable answer, and if you 
would, if we could communicate later in the week as that 
assessment team does it work, that would be helpful, because I 
would like to work with you to do what is best for the health 
of that national forest.
    Ms. McDougle. Understood.
    Mr. Boyd. And that includes salvage efforts before those 
stems rot. And I would like to be able to help you do that. 
Thank you.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. I want to thank the panelists very much for 
your valuable time. We have held you here for a long time.
    This has become an issue that is no longer just contained 
in the Pacific Northwest or the Southwest, but is now a 
nationwide problem. So we probably come together more often and 
for longer, extended periods of time than we had hoped for.
    But, again, thank you for your time. I look forward to the 
reports being submitted to us, and I do want to remind the 
witnesses that we will have additional questions for you that 
we will submit in writing, and the record will remain open for 
10 working days should you wish to add anything to your 
testimony.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. With that, again I want to thank you, and 
the hearing is now adjourned.
    [Whereupon, at 1 a.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
Statement of James W. Garner, State Forester, Commonwealth of Virginia, 
        representing the National Association of State Foresters

    Good morning, I am Jim Garner, State Forester of Virginia, 
and I am here this morning representing the National 
Association of State Foresters. I served as President of the 
Association in 1995, and have served both as a member and 
chairman of the Association's Forest Fire Protection Committee. 
I appreciate the opportunity to discuss the role of the States 
in wildfire suppression and management, and to share our 
perspective on how the system works and how it could be 
improved. I have attached a copy for the record of a report, 
entitled Managing Forests, Managing Fire: A Report to the 
Congress on the Status of Wildfire Management in the United 
States. This report was a cooperative effort of the National 
Association of State Foresters and the American Forest and 
Paper Association. It lays out in layman's terms the basic 
structure of interagency cooperation and highlights the roles 
of local fire departments in fire suppression, and I commend it 
to your attention.
    The Department of Forestry is the primary agency for 
wildland fire control in the Commonwealth of Virginia. Like our 
colleagues in other State Forestry agencies, we work closely 
with local fire departments, other State agencies, and the 
Federal wildland fire agencies including the USDA Forest 
Service and agencies in the Department of the Interior. We also 
work through interstate agreements to share resources in times 
of critical need. In my view, these relationships are a model 
of intergovernmental cooperation. There a few key features 
worth noting.
    First, local fire departments are the first lines of 
defense against wildfire throughout the Nation. Volunteer 
departments are predominant in rural areas, and it is critical 
that they be well trained, staffed, and equipped to provide 
initial attack on wildfires. The southern region of the United 
States, as was demonstrated dramatically by the recent events 
in Florida, experiences more fire starts than any other region. 
An effective network of trained local departments, however, 
helps keep costs down by catching most fires when they are 
small.
    For instance, in Virginia we had 1,242 fire starts last 
year, but thanks to early and aggressive suppression, our 
average fire was only 4 acres. Without well-equipped and 
trained local departments, our average fire size, and the costs 
of suppression, would be much higher. Right now, in Texas, 
local fire departments are coping with literally hundreds of 
starts each day, and they have in many cases avoided large, 
expensive ``project'' fires.
    There are over 26,000 rural volunteer fire departments in 
the United States. To convert these small departments into full 
time, paid firefighters would cost over $30 billion. More 
importantly, as housing developments encroach into wildlands, 
the jobs of these firefighters become more dangerous, more 
complicated, and more expensive.
    The second positive feature of our cooperative program is 
that trained and well-equipped wildfire fighting crews from 
across the country can be dispatched wherever they are needed. 
This is due to careful coordination by regional coordination 
centers, interstate fire compacts, and, when necessary, through 
the National Interagency Fire Center (NIFC) in your home State 
of Idaho. During the recent fire situation in Florida, every 
State except two had firefighters, equipment, or overhead in 
Florida. My Department sent four bulldozer units, 2 Hummers, 
and 42 people with support vehicles to Florida. They were 
assigned to fires in Northeast Florida, and were placed under a 
unified command under the direction of the Florida Division of 
Forestry. Thanks to the efforts of the National Wildfire 
Coordinating Group (NWCG), States and Federal firefighting all 
train our crews using the same standards and similar equipment. 
This enables firefighting resources to be used throughout the 
country, and helps states with frequent wildfires by giving 
their crews on the ground, practical experience.
    When a fire year becomes extremely busy, State crews and 
equipment can make up a large portion of the resources that are 
dispatched nationally. In 1996, for example, every State 
dispatched at least some overhead personnel to fires out of 
State. It is also important to keep in mind that many, if not 
most, of the firefighters who make up State fire crews are also 
volunteer firefighters in the communities.
    Third, the State Foresters work closely with the USDA 
Forest Service on several programs that help keep our front 
lone of defense well equipped and trained. Three programs help 
us achieve this; the State Fire Assistance Program and the 
Volunteer Fire Assistance Program, both managed by the USDA 
Forest Service's Fire and Aviation Management staff, and, 
third, the Federal Excess Personal Property Program (FEPP), 
which we cooperate with the Forest Service in implementing.
    The FEPP program is perhaps the most innovative of the 
three. Through a cooperative agreement with the Forest Service 
provided for by the Cooperative Forestry Assistance Act, State 
Foresters are able to screen property, primarily former 
military equipment, at the Excess level, rather than the 
surplus level. This equipment, which ranges from aircraft to 
trucks, to mobile command posts to clipboards, is reconditioned 
either by the State or by local fire departments and put 
directly into service protecting homes and property from 
wildfire. On average, about $140 million worth of FEPP is 
annually distributed to the State. For instance, in Virginia, 
we acquired $116,000 worth of equipment through the FEPP 
program last year.
    Two other points about FEPP are worth bearing in mind. By 
using this program, we are greatly extending the useful life of 
vehicles and other equipment that the taxpayers have already 
paid for. States and localities add value to FEPP and have 
tremendous pride in keeping the equipment in service. Second, 
by allowing State forestry agencies to screen at the Federal 
level and distribute the equipment in their States, it is put 
to more effective use than would be the case if the nation's 
thousands of fire departments had to sift and screen through 
all of the items that are put on the excess list annually.
    The last point I'd like to make is that we will never rid 
this Nation of wildfire. We can, however take prudent steps 
through the programs I've discussed to reduce costs and protect 
lives and property. We can manage our lands to reduce fire 
dangers by thinning overstocked forests and carefully using 
prescribed fire. However, as events in Florida have shown, 
sometimes many factors will come together to create a dangerous 
and complicated wildfire situation. Unprecedented drought all 
but nullified the positive impacts of prescribed fire use and 
careful forest management. The growth of the wildland urban 
interface, which in and of itself is caused by numerous, 
complicated factors, turned what would have been 
straightforward fire fighting tasks into tremendously expensive 
exercises in emergency management. And until Mother Nature 
changes the weather pattern, the only thing standing between 
the citizens of Florida and the fires was our national fire 
fighting forces. Situations like Florida can push these forces 
to the limit.
    We appreciate your support for wildland fire management, 
and we look forward to working with you and the rest of the 
Committee to see that the programs that help with this effort 
are adequately supported.

                NATIONAL ASSOCIATION OF STATE FORESTERS

    The National Association of State Foresters (NASF) has 
been-awarded the following Federal Grants and Cost Share 
Agreements:
        1. Federal Award Grant No. 98-G-037 was awarded on January 12, 
        1998 in the amount of $15,000 to NASF from the State and 
        Private Forestry Deputy Area of the USDA Forest Service.
        2. Federal Award Grant No. 98-G-032 was awarded on December 8, 
        1997 in the amount of $251,000 to NASF from the State and 
        Private Forestry Deputy Area of the USDA Forest Service.
        3. Federal Award Grant No. 98-G-039 was awarded on January 12, 
        1998 in the amount of $10,000 to NASF from the State and 
        Private Forestry Deputy Area of the USDA Forest Service.
        4. Federal Award Grant No. 98-G-038 was awarded on January 12, 
        1998 in the amount of $10,000 to NASF from the State and 
        Private Forestry Deputy Area of the USDA Forest Service.
        5. Federal Award Grant No. 95-G-201 was awarded on October 5, 
        1995 in the amount of $20,000 to NASF from the State and 
        Private Forestry Deputy Area of the USDA Forest Service.
        6. Challenge Cost Share Agreement No. #08-98-S&PF-CCS-01 was 
        awarded on July 15, 1998 to NASF from the Southern Region of 
        the USDA Forest Service.
    Any further information concerning the above five Federal Award 
Grants may be directed to NASF at the above telephone number.
                                 ______
                                 
Statement of Wallace Josephson, Wildland Fire Specialist, Department of 
          Interior, Office of Managing Risk and Public Safety
    Madam Chairman and members of the Committee, I appreciate the 
opportunity to appear before you today to discuss the Department of the 
Interior's planning and budgeting processes for the Wildland fire 
management program. The Bureau of Land Management, the Bureau of Indian 
Affairs, the Fish and Wildlife Service, and the National Park Service 
are the four land management agencies within the Department of Interior 
with fire management programs. These agencies work in close cooperation 
on budgeting, planning, and implementation activities related to fire 
management.
    The Department's wildland fire management program is guided by the 
principles and policies of the Federal Wildland Fire Management Policy 
and Program Review, adopted by the Secretaries of Agriculture and the 
Interior in December, 1995. The program ensures the capability to 
provide safe, cost-effective fire management by providing appropriate 
planning, staffing, training, and equipment. Fires are suppressed at 
minimum cost considering firefighter and public safety and benefits and 
values to be protected, consistent with resource objectives. The 
Wildland fire program also recognizes that fire is a critical natural 
process and must be integrated into resource-management plans and 
activities at a landscape scale, across agency boundaries, based on the 
best science and technology available. Whether discussing prescribed 
fire or emergency suppression of uncontrolled wildland fire, let me 
emphasize that the protection of human life and public safety is the 
number one priority in all aspects of the wildland fire management 
program.
    Funds for the Department's Wildland Fire Management Program are 
appropriated to the BLM and are made available by allocation to the 
Park Service, Fish and Wildlife Service, and Bureau of Indian Affairs. 
A small portion is also allocated to the Office of the Secretary for 
program coordination activities. The Department's Wildland Fire 
Management Program is composed of two activities, Wildland Fire 
Preparedness and Wildland Fire Operations, which I will summarize.

Wildland Fire Preparedness

    Wildland fire preparedness involves the readiness and capability of 
the Department to provide safe, cost effective fire management 
programs. Staffing levels, training, fire management planning, 
equipment availability, provision and maintenance of support facilities 
(such as air tanker bases and supply warehouses), prevention activities 
(such as public awareness and education), and interagency coordination 
all fall within the category of fire preparedness.
    The Fire Management Plan is the guide for budgeting and managing 
the wildland fire preparedness activity. The primary analysis tool in 
the Fire Plan is an economic marginal cost analysis combined with a 
threshold analysis which is used to determine the Most Efficient Level 
(MEL). MEL represents the funding necessary to provide the most cost-
efficient and technically effective fire management program that meets 
land management objectives while minimizing the total cost of both 
suppression and resource damage associated with uncontrolled wildland 
fire. In other words, given the workload of an average annual fire 
season, we determine the most efficient organization and estimate the 
cost of supporting that organization at the least total cost to the 
taxpayer. Fire planning and the calculations of MEL are updated 
annually to reflect such things as changes in resource objectives, 
values to be protected, land acquisition, increasing human-caused fire 
occurrence associated with population growth, especially in the 
wildland/urban interface, continued hazardous fuels build-up, and the 
current year's field conditions. Fire Plans are developed by local 
field offices and aggregated at the Washington office to identify 
national needs.
    Whenever efficiencies can be gained, Interior agencies enter into 
cooperative agreements with other Federal, state, Tribal, and local 
governments to exchange protection responsibilities and share scarce 
resources. Preparedness resources are established in advance of fire 
emergencies based on analysis of historic needs to ensure our 
``readiness to respond.''

Wildland Fire Operations

    The Wildland Fire Operations portion of the wildland fire 
management program funds the development and implementation of the 
emergency suppression, emergency rehabilitation, hazardous fuel 
reduction operations, and fire severity programs. Emergency suppression 
includes all management actions taken to suppress wildland fires in a 
safe and cost effective manner. Emergency rehabilitation is carried out 
to prevent any further land degradation and resource damage to lands 
impacted by unplanned wildland fire or suppression activities. 
Emergency rehabilitation funds are also used to reduce any residual 
public health and safety risks that may result from uncontrolled 
wildland fires. Hazardous fuel reduction operations use fire and 
mechanical treatments as management tools to reduce fuel loadings and 
restore fire to its natural role in the ecosystem. Commercial 
activities, such as timber harvest or small wood product sales, are 
used whenever commodity production can be used in an environmentally 
sound manner to achieve the same objectives.
    The organizational structure developed during the fire planning 
process is based on the average annual workload because it is not cost 
efficient to develop a fire organization for the most severe fire 
season that occurs in a decade. Therefore, when abnormal conditions do 
occur, suppression funds can be used upon request to increase local 
preparedness capabilities. Such extraordinary capabilities may include 
a temporary increase in firefighters or fire engines, propositioning of 
personnel and equipment in areas of abnormally high risk, or standby 
aircraft availability.
    The overall goal of wildland fire operations is to protect natural 
resources for defined management objectives and to preserve their 
capability to contribute goods, services, and amenities to the Nation. 
For fiscal year 1999, DOI's budget request of just over $140 million 
dollars for wildland fire operations is based upon the last ten-year 
average for emergency suppression and rehabilitation, plus an addition 
for projected hazardous fuel reduction projects.

Coordination and Dispatch of Suppression Forces

    Uncontrolled wildland fires occur unexpectedly and create an 
emergency in which firefighters must respond rapidly to minimize risk 
and damage. Despite public expectations, when the combination of 
excessive fuel build-up, topography, extreme weather conditions, 
multiple ignitions, and extreme fire behavior occur, it is impossible 
to immediately suppress all fires. Firefighter and public safety, and 
the ability to contain the spread of fires, can best be met only with 
adequate preparation ahead of time, excellent interagency coordination 
of personnel, supplies and required services, and safe but aggressive 
implementation of fire control tactics. To meet these needs, the BLM, 
in cooperation with the other DOI Bureaus, the Forest Service, and the 
National Weather Service, maintains and operates the National 
Interagency Fire Center (NIFC) in Boise, Idaho. NIFC provides 
logistical support for the coordinated movement of suppression forces 
when local capabilities are exceeded. Other national services provided 
by NIFC include a cache for firefighting supplies, equipment and 
radios, a technical support group for communications, remote sensing 
programs, and the National fire training development center.
    The National Interagency Coordination Center (NICC) resides at NIFC 
and is staffed jointly by the BLM and Forest Service. NICC sits at the 
top of a three-tiered firefighting coordination pyramid. When activity 
warrants, NICC operates 24 hours a day, seven days a week. NICC is also 
an ``all-risk'' coordination center, and can provide support in 
response to other emergencies such as floods, hurricanes, and 
earthquakes.
    The three-tiered coordination system operates under established 
ordering protocols. Federal, state, and Tribal dispatch centers located 
throughout the United States generally receive the first requests for 
personnel, equipment, and supplies in response to emergency situations. 
When local dispatch offices can no longer fill requests, they turn to 
one of eleven Geographic Area Coordination Centers (GACCs) to fill the 
requests. When GACCs can no longer meet the requests, either because 
they are supporting multiple incidents or are competing for resources, 
requests for equipment and supplies are referred to the NICC. NICC 
coordinates supplies and resources across the entire United States, and 
also has the authority to obtain or provide support for incidents in 
foreign countries. When the nation's fire business involves multiple 
geographic areas and resources are no longer plentiful, the National 
Multi-agency Coordinating Group establishes national priorities for 
personnel, equipment, and supplies. Response to requests is based upon 
the concepts of ``closest forces'' and ``total mobility'' which seek to 
dispatch the closest available qualified resource, regardless of agency 
affiliation. The Fire Center and its NICC component are recognized 
around the world as a premier organization for wildland fire management 
and the coordination and dispatch of resources, supplies, and technical 
knowledge in support of emergency situations.

Florida Support

    We were asked by the Committee to identify both jobs well done and 
lessons learned as a result of the recent devastating uncontrolled 
wildland fires in the state of Florida. Review of the total Federal 
response to the Florida fires has barely begun. Wildfire season 
typically shifts around the nation in response to seasonal weather 
patterns. As is illustrated this year, fires in Florida have been 
followed by extreme conditions in Texas and Oklahoma. It appears the 
fire season is following the typical pattern and severe fire control 
conditions are shifting to the Northern Rockies, the Pacific Northwest, 
and the Great Basin states. Our focus at this time of the year is 
staying ahead of the curve. While review of past actions can always 
show us potential for improvement, the Florida fires did not indicate a 
major need for changing our programs or processes. The DOI and NICC, 
for the most part, served primarily in a support function. Most of the 
Florida fires, including most of the high profile, highly publicized 
fires, were under the control of the State. The NICC, with the support 
of both the military and private sector, did an excellent job of 
coordinating the transportation of western crews and equipment to 
support their actions.

Conclusion

    Madam chairman, I would like to thank the Congress for its 
direction and support for interagency coordination and collaboration in 
regard to the overall Federal fire management program. We continue to 
strive to conduct an integrated, intergovernmental approach to the 
management of wildland fire, as endorsed by our 1995 fire management 
policy program and review. It is our belief that we provide world class 
capabilities for the suppression of uncontrolled wildland fire. We hope 
to extend this highly successful approach into our prescribed fire 
program as well.
    This concludes my statement. I'll be happy to answer any questions 
the Committee may have.
[GRAPHIC] [TIFF OMITTED] T0964.022

[GRAPHIC] [TIFF OMITTED] T0964.023

[GRAPHIC] [TIFF OMITTED] T0964.024

[GRAPHIC] [TIFF OMITTED] T0964.025

[GRAPHIC] [TIFF OMITTED] T0964.026

[GRAPHIC] [TIFF OMITTED] T0964.027

[GRAPHIC] [TIFF OMITTED] T0964.028

[GRAPHIC] [TIFF OMITTED] T0964.029

[GRAPHIC] [TIFF OMITTED] T0964.030

[GRAPHIC] [TIFF OMITTED] T0964.031

[GRAPHIC] [TIFF OMITTED] T0964.032

[GRAPHIC] [TIFF OMITTED] T0964.033

[GRAPHIC] [TIFF OMITTED] T0964.034

[GRAPHIC] [TIFF OMITTED] T0964.035

[GRAPHIC] [TIFF OMITTED] T0964.036

[GRAPHIC] [TIFF OMITTED] T0964.037

[GRAPHIC] [TIFF OMITTED] T0964.038

[GRAPHIC] [TIFF OMITTED] T0964.039

[GRAPHIC] [TIFF OMITTED] T0964.040

[GRAPHIC] [TIFF OMITTED] T0964.041

[GRAPHIC] [TIFF OMITTED] T0964.042

[GRAPHIC] [TIFF OMITTED] T0964.043

[GRAPHIC] [TIFF OMITTED] T0964.044

[GRAPHIC] [TIFF OMITTED] T0964.045

[GRAPHIC] [TIFF OMITTED] T0964.046

[GRAPHIC] [TIFF OMITTED] T0964.047

[GRAPHIC] [TIFF OMITTED] T0964.048

[GRAPHIC] [TIFF OMITTED] T0964.049

[GRAPHIC] [TIFF OMITTED] T0964.050

[GRAPHIC] [TIFF OMITTED] T0964.051

[GRAPHIC] [TIFF OMITTED] T0964.052

[GRAPHIC] [TIFF OMITTED] T0964.053

[GRAPHIC] [TIFF OMITTED] T0964.054

[GRAPHIC] [TIFF OMITTED] T0964.055

[GRAPHIC] [TIFF OMITTED] T0964.056

[GRAPHIC] [TIFF OMITTED] T0964.057

[GRAPHIC] [TIFF OMITTED] T0964.058

[GRAPHIC] [TIFF OMITTED] T0964.059

[GRAPHIC] [TIFF OMITTED] T0964.060

[GRAPHIC] [TIFF OMITTED] T0964.061

[GRAPHIC] [TIFF OMITTED] T0964.062

[GRAPHIC] [TIFF OMITTED] T0964.063

[GRAPHIC] [TIFF OMITTED] T0964.064

[GRAPHIC] [TIFF OMITTED] T0964.065

[GRAPHIC] [TIFF OMITTED] T0964.066

[GRAPHIC] [TIFF OMITTED] T0964.067

[GRAPHIC] [TIFF OMITTED] T0964.068

[GRAPHIC] [TIFF OMITTED] T0964.069

[GRAPHIC] [TIFF OMITTED] T0964.070

[GRAPHIC] [TIFF OMITTED] T0964.071

Statement of Janice McDougle, Associate Deputy Chief, STate and Private 
   Forestry, United States Department of Agriculture, Forest Service
    MADAM CHAIRMAN AND MEMBERS OF THE COMMITTEE:
    I am Janice McDougle, Associate Deputy Chief for State and Private 
Forestry with responsibility for fire and aviation, forest health, and 
cooperative forestry programs. I am accompanied by Denny Truesdale, our 
Assistant Director of Fire and Aviation Management for Operations. The 
wildfire suppression program in the United States is a partnership with 
a broad array of Federal agencies, state, tribal, and local 
governments, and private companies; its first priority is protecting 
human life.
    As you requested, I will briefly discuss the highly organized and 
strategic approach of the Forest Service's wildfire suppression 
program. When a fire occurs, we respond immediately, implement attack 
strategies, identify additional resources needed, and expand the 
organization as needed to protect people and property.

BACKGROUND

    The Federal Wildland Fire Management Policy resulted from a 1995 
interagency review, which I have provided for the record. This policy 
is applied on all Forest Service and Department of Interior managed and 
protected lands and has four priorities: (1) firefighter safety and 
public safety is the highest goal; (2) we support the role of fire in 
restoring and sustaining healthy ecosystems; (3) we integrate fire 
management into land management planning, and (4) the policy stress of 
improving fire and aviation accountability within the Forest Service.
    Several factors influence an effective and safe fire suppression 
program, including the expansive wildland/urban interface, hazardous 
fuel conditions, the increasingly broad array of partners involved in 
suppression, and the increased role for the Forest Service in providing 
international assistance.

ACCOMPLISHMENTS

    We have an outstanding track record. The Federal fire fighting 
agencies have consistently suppressed 98 percent of all wildfires 
during initial attack; only 2 percent of all fires account for the 
greatest cost and most acreage burned.
    We rely on strong cooperation with the states, providing equipment 
and funds to help states help us. The USDA cooperative fire program 
currently has more than $800 million in surplus Federal property on 
loan to state and local governments for use in fire suppression. USDA 
annually provides approximately $15 million in cost-share grants to 
strengthen state programs, and an additional $2 million to help train 
and equip volunteer firefighters in rural towns.
    The Forest Service is a world leader in fire behavior and 
management research. We have an ongoing research program on the effects 
of fire on vegetation and wildlife, smoke management, and reducing fire 
hazard by finding markets for small diameter trees.
    The five Federal wildland fire management agencies, the Forest 
Service, Bureau of Land Management, Fish and Wildlife Service, National 
Park Service, and Bureau of Indian Affairs, are strengthening the 
common features of their respective wildland fire management planning 
processes. This structure is a nationally recognized decision-making, 
planning, operational, and logistics structure that all wildland 
firefighters understand, and use. It includes an incident commander and 
their operations and support staffs, providing a framework for wildland 
firefighters to respond to any incident. It has the flexibility to 
expand staff and organization as an incident becomes more or less 
complex.

INITIAL ATTACK

    Initial attack analysis and planning is the backbone of our 
success. The National Fire Management Analysis System (NFMAS) is a 
model we use to identify the most efficient firefighting organization. 
Developed locally to determine what mix and distribution of initial 
attack resources will provide a cost effective fire suppression 
program, the results of the local analyses are aggregated into the 
national program. This assures the most responsive organization 
possible.
    The NFMAS model takes local suppression resource productivity, 
historical fire occurrence, hazards and values at risk, interagency 
commitments, and fire management objectives, and projects estimated 
fire suppression costs and net changes to natural resource values. 
Wildland/urban interface areas become a priority for the commitment of 
resources because of the private property values at risk. The budget 
for the most efficient preparedness organization identified by the 
analysis is the one that results in the lowest program cost, including 
losses, over time. This information is provided to decisionmakers in 
the development of program budgets and the effects of alternative 
budget levels can be analyzed.
    Once we identify the best mix of resources within available budget, 
forest supervisors provide the identified number of crews, engines, 
helicopters, or other initial attack resources, including airtankers 
needed to respond to the normal fire season. Average fire seasons have 
been established through our assessment and planning processes. That 
average season has a beginning and ending date, anticipated days of 
each kind of burning risk, as well as norms for the intensity with 
which a fire would burn.
    Effectiveness of a suppression program is directly related to local 
fuel treatment efforts. The value of prescribed fire as a tool to 
change wildfire behavior was demonstrated in Florida where treated 
areas were defensible but fire crews had to retreat from flames in 
untreated areas.
    When predicted or actual burning conditions exceed those we expect 
and wildfire ignitions are imminent, when fire season starts early, or 
extend beyond normal, local units can request additional funds from the 
Washington Office to increase their level of fire preparedness through 
our fire severity program, which allows for additional staffing for 
serious fire risk outside of the normal season.

EXTENDED ATTACK

    When initial attack fails, and local resources are not capable of 
controlling one or more wildfires, we shift to extended attack and 
assign national resources such as Incident Management Teams, 
Interagency Hotshot Crews, large airtankers, and infrared detection 
aircraft to the fire.
    We are conducting interagency studies regarding the national shared 
resources used in extended attack. We are assessing the most efficient 
staffing levels; best procurement methods of airtankers, medium and 
large helicopters, and smokejumpers; and the improvements we need to 
make to support facilities. Studies have been completed on the most 
efficient medium and large helicopters and large airtanker support 
needed for the national fire suppression program. The studies have also 
identified that the location and quality of base facilities is as 
important as the aircraft themselves. Other studies are underway that 
will provide managers with options for management of smokejumpers, 
helitack, and rappel crews as well as aircraft support and base 
locations. All will be used to improve the effectiveness and efficiency 
of the national suppression program.

NATIONAL INTERAGENCY PROGRAM

    The protection of people and resources is very complex in today's 
world. Planning and coordination occur at all levels to assure the safe 
delivery of an interagency fire suppression program. The National 
Interagency Fire Center (NIFC) in Boise has dispatched over 35,000 
people at one time in response to fires across the United States. NIFC, 
the heart of the national fire suppression program, serves as a 
coordination, dispatch, communications, and warehouse center for all 
wildland fire agencies. At the center, the Forest Service, Bureau of 
Land Management, Fish and Wildlife Service, National Park Service, and 
Bureau of Indian Affairs are collocated and work closely with state and 
tribal foresters. Center directors serve as a national Multi-Agency 
Coordinating Group to improve technology, skills, equipment, integrate 
wildland/urban interface concerns, and program delivery, resulting in 
better suppression response and reduced costs.

THE 1998 SEASON

    In 1998 the Federal agencies are fully staffed for the fire season. 
We have adequate resources in every region for effective suppression, 
assuming that this is, and will be, an average year.
    Florida has experienced extreme fire behavior and significant 
losses to property and resources due to extended drought, which caused 
highly flammable fuels. In late May and early June, Florida got a 
highly unusual amount of dry lightning, and suffered its most severe 
fire season since 1985. At the request of State Forester Earl Peterson, 
we provided Federal assistance which at the peak, totaled 1200 fire 
managers, 27 Interagency Hotshot Crews, 22 suppression crews, 165 
engines, 4 tractors, and 98 aircraft. The Florida Division of Forestry 
and the local Forest Supervisor established a unified area command 
structure to assist in prioritizing suppression efforts and suppressed 
almost a half million acres of wildfire in very complex environment 
with minimal losses ant injuries. The success this year can be compared 
to the losses in the 1985 fires when more homes and businesses were 
lost in a day than over the 1998 month-long siege. The Forest Service 
still has 75 personnel assisting in closeout of the Florida fires.
    The Florida efforts affixed value of a prescribed fire program to 
create more fire tolerant ecosystems and better protect homes and 
improvements. It also reinforced the value of our safety program. In 
Florida, we had to educate crews from other regions of the health and 
fire threats unique to Florida.
    The other high profile fire situation this year took place in 
Mexico and Central America. The U.S. Agency for International 
Development, Office of Foreign Disaster Assistance coordinated the U.S. 
response. Mexico requested the most assistance, including technical 
assistance, large helicopters, an incident management team, an infrared 
aircraft, 3,000 sets of personal protective equipment, and 
communications equipment. We also assisted Guatemala, Honduras, 
Nicaragua, and Costa Rica.
    The 1998 fire season has occurred locally, with few situations 
where national incident command teams were dispatched in more than one 
region simultaneously. A total of 75,932 acres of National Forest 
System lands burned during the month of July which began with fire 
danger in the very high to extreme categories in Arizona, New Mexico, 
Texas, Georgia, Colorado, Utah, California, and Florida. In Florida the 
drought was one of the most severe experienced in the past 50 years, 
and firefighters battled on average of 70-80 new fires each day.
    Three National Fire Prevention teams were active during the month 
of July in Florida, Utah, and Texas where team members worked with 
state, county, and local fire service organizations to reduce the 
potential number of human-caused fires.
    Texas, Oklahoma, New Mexico, Nevada, Colorado, Southern Arizona, 
Washington, and Oregon are currently experiencing increased fire 
activity. The 90 day outlook indicates that the extreme southern tip of 
California, Arizona, Colorado, New Mexico, western Texas, and 
southwestern Utah are most likely to have increased fire activity 
because they are predicted to be warmer and drier than normal over that 
period. We will take actions needed to assure that adequate resources 
are available for dispatch within, and to, that region.
    The remainder of the United States is experiencing fewer than 
normal wildfires for this time of year. More than one-half of the fires 
occurred in the southern part of the United States. In many areas, the 
lower than normal fire danger can be attributed to unusual spring rain 
and snow.

CLOSING

    The Forest Service fire suppression program is professional, 
responsive to the concerns and needs of partners, and based on the 
continuous study of historical fire occurrence and risk. We are very 
proud of the program, its value to the public, and the firefighters who 
work endless days, and get great satisfaction from the protection of 
people and resources.

[GRAPHIC] [TIFF OMITTED] T0964.072

[GRAPHIC] [TIFF OMITTED] T0964.073

[GRAPHIC] [TIFF OMITTED] T0964.074

[GRAPHIC] [TIFF OMITTED] T0964.075

[GRAPHIC] [TIFF OMITTED] T0964.076

[GRAPHIC] [TIFF OMITTED] T0964.077

[GRAPHIC] [TIFF OMITTED] T0964.078

[GRAPHIC] [TIFF OMITTED] T0964.079

[GRAPHIC] [TIFF OMITTED] T0964.080

[GRAPHIC] [TIFF OMITTED] T0964.081

[GRAPHIC] [TIFF OMITTED] T0964.082

[GRAPHIC] [TIFF OMITTED] T0964.083

[GRAPHIC] [TIFF OMITTED] T0964.084

[GRAPHIC] [TIFF OMITTED] T0964.085

[GRAPHIC] [TIFF OMITTED] T0964.086

[GRAPHIC] [TIFF OMITTED] T0964.087

[GRAPHIC] [TIFF OMITTED] T0964.088

[GRAPHIC] [TIFF OMITTED] T0964.089

[GRAPHIC] [TIFF OMITTED] T0964.090

[GRAPHIC] [TIFF OMITTED] T0964.091

[GRAPHIC] [TIFF OMITTED] T0964.092

[GRAPHIC] [TIFF OMITTED] T0964.093

[GRAPHIC] [TIFF OMITTED] T0964.094

[GRAPHIC] [TIFF OMITTED] T0964.095

[GRAPHIC] [TIFF OMITTED] T0964.096

[GRAPHIC] [TIFF OMITTED] T0964.097

[GRAPHIC] [TIFF OMITTED] T0964.098

[GRAPHIC] [TIFF OMITTED] T0964.099

[GRAPHIC] [TIFF OMITTED] T0964.100

[GRAPHIC] [TIFF OMITTED] T0964.101

[GRAPHIC] [TIFF OMITTED] T0964.102

[GRAPHIC] [TIFF OMITTED] T0964.103

[GRAPHIC] [TIFF OMITTED] T0964.104

[GRAPHIC] [TIFF OMITTED] T0964.105

[GRAPHIC] [TIFF OMITTED] T0964.106

[GRAPHIC] [TIFF OMITTED] T0964.107

[GRAPHIC] [TIFF OMITTED] T0964.108

[GRAPHIC] [TIFF OMITTED] T0964.109

[GRAPHIC] [TIFF OMITTED] T0964.110

[GRAPHIC] [TIFF OMITTED] T0964.111

[GRAPHIC] [TIFF OMITTED] T0964.112

[GRAPHIC] [TIFF OMITTED] T0964.113

[GRAPHIC] [TIFF OMITTED] T0964.114

[GRAPHIC] [TIFF OMITTED] T0964.115

[GRAPHIC] [TIFF OMITTED] T0964.116

[GRAPHIC] [TIFF OMITTED] T0964.117

[GRAPHIC] [TIFF OMITTED] T0964.118


</pre></body></html>
